<html>
<title> - THE PLUG-IN HYBRID ELECTRIC VEHICLE ACT OF 2006 (DISCUSSION DRAFT)</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                      THE PLUG-IN HYBRID ELECTRIC
                          VEHICLE ACT OF 2006
                           (DISCUSSION DRAFT)

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2006

                               __________

                           Serial No. 109-50

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
27-587                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
RALPH M. HALL, Texas                 MICHAEL M. HONDA, California
CURT WELDON, Pennsylvania            LYNN C. WOOLSEY, California
ROSCOE G. BARTLETT, Maryland         LINCOLN DAVIS, Tennessee
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
W. TODD AKIN, Missouri               EDDIE BERNICE JOHNSON, Texas
JO BONNER, Alabama                   DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              JIM MATHESON, Utah
BOB INGLIS, South Carolina           SHEILA JACKSON LEE, Texas
DAVE G. REICHERT, Washington         BRAD SHERMAN, California
MICHAEL E. SODREL, Indiana           AL GREEN, Texas
JOHN J.H. ``JOE'' SCHWARZ, Michigan      
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
               KEVIN CARROLL Subcommittee Staff Director
          DAHLIA SOKOLOV Republican Professional Staff Member
           CHARLES COOKE Democratic Professional Staff Member
                    MIKE HOLLAND Chairman's Designee
                     COLIN HUBBELL Staff Assistant
                   RICHARD CHANDLER Republican Fellow


                            C O N T E N T S

                              May 17, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.     9
    Written Statement............................................    10

Statement by Representative Michael M. Honda, Ranking Minority 
  Member, Committee on Science, U.S. House of Representatives....    11
    Written Statement............................................    12

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................    13

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    13

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Energy, Committee on Science, U.S. House of 
  Representatives................................................    14

                               Witnesses:

Dr. Andrew A. Frank, Professor, Mechanical and Aeronautical 
  Engineering Department; Director, Hybrid Electric Vehicle 
  Research Center, University of California-Davis
    Oral Statement...............................................    16
    Written Statement............................................    19
    Biography....................................................    57

Mr. Roger Duncan, Deputy General Manager, Austin Energy in Texas
    Oral Statement...............................................    57
    Written Statement............................................    59
    Biography....................................................    60

Dr. Mark S. Duvall, Technology Development Manager, Electric 
  Transportation & Specialty Vehicles, Science & Technology 
  Division, Electric Power Research Institute (EPRI)
    Oral Statement...............................................    60
    Written Statement............................................    62
    Biography....................................................    65
    Financial Disclosure.........................................    66

Mr. John German, Manager, Environmental and Energy Analyses, 
  American Honda Motor Company
    Oral Statement...............................................    67
    Written Statement............................................    69
    Biography....................................................    72

Dr. S. Clifford Ricketts, Professor, Agricultural Education, 
  School of Agribusiness and Agriscience, Middle Tennessee State 
  University
    Oral Statement...............................................    72
    Written Statement............................................    74
    Biography....................................................    80
    Financial Disclosure.........................................    81

Dr. Danilo J. Santini, Senior Economist, Energy Systems Division, 
  Center for Transportation Research, Argonne National Laboratory
    Oral Statement...............................................    81
    Written Statement............................................    84
    Biography....................................................    91
    Financial Disclosure.........................................    92

Discussion.......................................................    93

             Appendix 1: Answers to Post-Hearing Questions

Dr. Mark S. Duvall, Technology Development Manager, Electric 
  Transportation & Specialty Vehicles, Science & Technology 
  Division, Electric Power Research Institute (EPRI).............   112

Mr. John German, Manager, Environmental and Energy Analyses, 
  American Honda Motor Company...................................   114

Dr. S. Clifford Ricketts, Professor, Agricultural Education, 
  School of Agribusiness and Agriscience, Middle Tennessee State 
  University.....................................................   116

Dr. Danilo J. Santini, Senior Economist, Energy Systems Division, 
  Center for Transportation Research, Argonne National Laboratory   118

             Appendix 2: Additional Material for the Record

Discussion Draft of Plug-In Hybrid Electric Vehicle Act of 2006..   124

Section-by-Section Analysis......................................   134

Department of Energy Workshop Paper on Plug-in Hybrids...........   136

Plug-In Partner National Campaign................................   163


   THE PLUG-IN HYBRID ELECTRIC VEHICLE ACT OF 2006 (DISCUSSION DRAFT)

                              ----------                              


                        WEDNESDAY, MAY 17, 2006

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Judy L. 
Biggert [Chairwoman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      The Plug-In Hybrid Electric

                          Vehicle Act of 2006

                           (Discussion Draft)

                        wednesday, may 17, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, May 17, 2006, the Energy Subcommittee of the House 
Committee on Science will hold a hearing on a discussion draft of 
legislation to promote research and development (R&D) on plug-in hybrid 
electric vehicles and related advanced-vehicle technologies.

2. Witnesses

Mr. Roger Duncan is the Deputy General Manager of Austin Energy in 
Texas and serves on the board of the Electric Drive Transportation 
Association.

Dr. Mark Duvall is a Technology Development Manager for Electric 
Transportation & Specialty Vehicles in the Electric Power Research 
Institute's (EPRI) Science & Technology Division. He currently oversees 
EPRI's Grid-Connected Hybrid Electric Vehicle Working Group and is 
EPRI's technical lead for the DaimlerChrysler-EPRI Plug-in Hybrid 
Electric Sprinter Van Program. EPRI is the research arm of the U.S. 
electric utility industry.

Dr. Andrew Frank is a Professor in the Mechanical and Aeronautical 
Engineering Department at the University of California, Davis, and the 
Director of the UC Davis Hybrid Electric Vehicle Research Center.

Mr. John German is Manager of Environmental and Energy Analyses for 
American Honda Motor Company. Mr. German is the author of a variety of 
technical papers and a book on hybrid gasoline-electric vehicles 
published by the Society of Automotive Engineers.

Dr. Cliff Ricketts is a Professor of Agricultural Education in the 
School of Agribusiness and Agriscience at Middle Tennessee State 
University. Dr. Ricketts has designed and built engines powered from a 
variety of sources including ethanol, methane, soybean oil, and 
hydrogen.

Dr. Danilo Santini is a Senior Economist in the Energy Systems Division 
of Argonne National Laboratory's Center for Transportation Research, as 
well as a former Chair of the Alternative Fuels Committee of the 
National Academy of Sciences' Transportation Research Board.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1.  What major research, development, and demonstration work 
        remains on plug-in hybrid electric vehicle technologies? How 
        should this work be prioritized?

        2.  What are the largest obstacles facing the widespread 
        commercial application of plug-in hybrid electric vehicles and 
        what steps need to be taken to address these hurdles? 
        (batteries, infrastructure, consumer preference, automotive 
        inertia, cost-competitiveness, etc.)

        3.  How does the Federal Government support the development of 
        plug-in hybrid electric vehicle technologies? What can the 
        Federal Government do to accelerate the development and 
        deployment of plug-in hybrid electric vehicles?

        4.  Does the discussion draft of the Plug-In Hybrid Vehicle Act 
        of 2006 address the most significant technical barriers to the 
        widespread adoption of plug-in hybrid electric vehicles?

4. Brief Overview

        <bullet>  Hybrid vehicles, such as the Toyota Prius or the Ford 
        Escape, combine batteries and an electric motor, along with a 
        gasoline engine, to improve vehicle performance in city driving 
        conditions and to reduce gasoline consumption.

        <bullet>  Plug-in hybrid vehicles are a more advanced version 
        of today's hybrid vehicles. They involve larger batteries and 
        the ability to charge those batteries overnight using an 
        ordinary electric outlet.

        <bullet>  Unlike today's hybrids, plug-in hybrids are designed 
        to be able to drive for extended periods solely on battery 
        power, thus moving energy consumption from the gasoline tank to 
        the electric grid (batteries are charged overnight from the 
        grid) and emissions from the tailpipe to the power plant 
        (where, in theory, they are more easily controlled).

        <bullet>  Plug-in hybrids could significantly reduce U.S. 
        gasoline consumption because most daily trips would be powered 
        by a battery. The potential for oil savings is related to the 
        length of time, or the distance, that a plug-in hybrid can 
        travel solely on battery power.

        <bullet>  President Bush, as part of his Advanced Energy 
        Initiative, has established the goal of developing technology 
        that would enable plug-in hybrids to travel up to 40 miles on 
        battery power alone. Plug-in hybrids that could operate for 40 
        miles on an overnight charge from the electrical grid could 
        offer significant oil savings because most Americans commute 
        less than 40 miles a day. The electricity used to charge the 
        batteries overnight would be generated from domestic sources 
        (only three percent of the electricity used in the United 
        States is generated from oil) and that electricity would 
        primarily be consumed at night when demand is low.

        <bullet>  Plug-in hybrids could benefit consumers because of 
        their greater fuel economy and the relatively low cost of 
        energy from the electric grid. Fuel economy in hybrid vehicles 
        is related to the degree to which engine load can be carried by 
        the electric motor (powered by batteries). Because plug-in 
        hybrids have large batteries and are designed to operate for an 
        extended period on battery power alone, they offer the 
        potential of significantly greater fuel economy. Some 
        proponents of plug-in hybrids claim that consumers will be able 
        to recharge their batteries overnight at gasoline-equivalent 
        cost of $1 per gallon.\1\
---------------------------------------------------------------------------
    \1\ Plug-In Partners website. Date accessed--May 12, 2006. See 
http://www.pluginpartners.org/plugInHybrids/economicBenefits.cfm

        <bullet>  While plug-in hybrid vehicles offer many advantages, 
        a number of technical barriers must be overcome to enable their 
        development and widespread commercial application. Although 
        specialty conversion kits are available (in very limited 
        quantities and at high cost) to upgrade an ordinary hybrid to a 
        plug-in hybrid, many component technologies, particularly 
        battery technology, must be advanced before plug-in hybrids can 
        be made available to consumers, at mass-market scale, and at 
        reasonable cost and reliability. R&D is needed to increase the 
        reliability and durability of batteries, to significantly 
---------------------------------------------------------------------------
        extend their lifetimes, and to reduce their size and weight.

        <bullet>  In May 2006, Mr. Smith of Texas prepared a discussion 
        draft of legislation to conduct research and development (R&D) 
        on advanced plug-in hybrid vehicle technologies and to 
        demonstrate plug-in hybrid vehicles so as to promote their 
        commercial application in the consumer marketplace. (A section-
        by-section analysis of the bill is included later in this 
        charter.)

5. Background

    How would plug-in hybrid vehicles differ from today's hybrid 
vehicles? Plug-in hybrid vehicles would have a much bigger battery and 
motor, and thus could offset even more gasoline consumption than 
hybrids do by using more electric power. Unlike today's hybrid 
vehicles, the battery of a plug-in hybrid would be charged while parked 
using a standard 120-volt electrical outlet. (Additional technical 
information is available in the technical appendix to this charter.)
    How would plug-in hybrid vehicles promote energy independence? 
Plug-in hybrids could greatly decrease the need for petroleum by 
shifting the energy supply for vehicles from the gasoline pump to the 
electrical grid. Since only three percent of petroleum is used to 
generate electricity (a figure unlikely to increase due to poor 
economics associated with electricity from oil), an expansion in plug-
in hybrids would help decrease U.S. dependence on imported oil. Because 
of their greater ability to operate on electric power, plug-in hybrids 
have the potential for significantly greater fuel economy than 
currently-available hybrid vehicles. An entrepreneurial group in 
California (CalCars) has experimented with plug-in hybrids and claims 
to have achieved fuel economy in excess of 100 miles per gallon after 
converting a standard hybrid vehicle to a plug-in hybrid.
    How would plug-in hybrid vehicles affect the grid? Plug-in hybrids 
typically would be used during the daytime, when people commute to work 
or when businesses are making deliveries, and charged overnight, when 
the grid is running well below its peak load. The increased demand for 
electricity during overnight charging also would provide a load 
leveling effect--idle generating capacity would be brought into 
productive use during off-peak hours. Allowing plants to operate with 
less variability and closer to optimum output could enhance the overall 
efficiency of the electrical system.
    How would plug-in hybrid vehicles affect emissions? Plug-in hybrids 
shift much of the emissions from the tailpipe to the power plant. 
Proponents claim that the overall emissions level of the most common 
pollutants is lower from plug-in hybrids than from standard 
automobiles, even accounting for emissions at the power plant. The one 
exception is sulfur dioxide emissions in areas that utilize a great 
deal of coal-fired electricity.
    Widespread use of plug-in hybrids would enable metropolitan areas 
suffering from high air pollution concentrations during morning and 
evening commutes to shift those emissions away from city centers and to 
nighttime hours. This shift would reduce the exposure of high 
population density areas to harmful ozone levels and other tailpipe 
pollutants. Greenhouse gas levels could also be reduced, depending on 
the mix of energy sources used to generate electricity.
    What does the President's budget include for plug-in hybrid R&D? 
The President's fiscal year 2007 (FY07) budget submission requests $12 
million for R&D on plug-in hybrid vehicles, including an increase of $6 
million for R&D related to advanced battery development. The 
President's FY07 request also includes $51 million for R&D on related 
vehicle technologies, including advanced power electronics, simulation 
and validation, and vehicle test & evaluation.
    Addition details on the difference between plug-in hybrids and 
today's hybrids, along with details on the technical barriers to 
developing mass-market plug-in hybrid vehicles, are given in the 
technical appendix (section 8) of this charter.
    A description of Mr. Smith's discussion draft, as provided to the 
witnesses, is given below. The language describing the demonstration 
program in the discussion draft has been modified since it was sent to 
the witnesses.

6. Section-by-Section Description of the Discussion Draft

Sec. 1. Short Title.

    The Plug-In Hybrid Electric Vehicle Act of 2006.

Sec. 2. Near-Term Vehicle Technology Program

a. Definitions.
    Defines terms used in the text.
b. Program.
    Requires the Secretary of Energy to carry out a program of 
research, development, demonstration, and commercial application for 
plug-in hybrid electric vehicles and electric drive transportation 
technology.
    Requires the Secretary of Energy to ensure that the research 
program is designed to develop

        <bullet>  high capacity, high efficiency batteries with:

                  improved battery life, energy storage capacity, and 
                power discharge;

                  enhanced manufacturability; and

                  the minimization of waste and hazardous material 
                production throughout the entire value chain, including 
                after the end of the useful life of the batteries

        <bullet>  high efficiency on-board and off-board charging 
        components;

        <bullet>  high power drive train systems for passenger and 
        commercial vehicles and for non-road equipment;

        <bullet>  control systems, power trains, and systems 
        integration for all types of hybrid electric vehicles, 
        including:

                  development of efficient cooling systems; and

                  research and development of control systems that 
                minimize the emissions profile of plug-in hybrid drive 
                systems

        <bullet>  a nationwide public awareness strategy for electric 
        drive transportation technologies that provide teaching 
        materials and support for university education focused on 
        electric drive systems and component engineering.

c. Goals.
    Requires the Secretary of Energy to ensure that the program 
develops projects, in partnership with industry and institutions of 
higher education, which are focused on:

        <bullet>  innovative electric drive technology developed in the 
        United States;

        <bullet>  growth of employment in the United States in electric 
        drive design and manufacturing;

        <bullet>  clarification of the plug-in hybrid potential through 
        fleet demonstrations; and

        <bullet>  acceleration of fuel cell commercial application 
        through comprehensive development and demonstration of electric 
        drive technology systems.

d. Demonstration and Commercial Application Program.
    Requires the Secretary of Energy to develop a program of 
demonstration and commercial application for plug-in hybrid electric 
vehicles and flexible fuel plug-in hybrid electric vehicles.
    Requires the Secretary of Energy to award grants under this program 
on a competitive basis, but give preference to applications that are 
matched with state or local funds.
    Requires that grants awarded by the Secretary do not exceed the 
annual maximum per-vehicle amounts as follows:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


e. Merit based federal investments.
    Requires the Department of Energy to ensure that the funding for 
the activities in this section are awarded consistent with the merit 
based guidelines for federal investments established in the Energy 
Policy Act of 2005 (EPACT) (P.L. 109-58).
f. Authorization of Appropriations.
    Authorizes appropriations to the Secretary of Energy of $200 
million for each of fiscal years 2007 through 2016 to carry out the 
program of research, development, demonstration, and commercial 
application for plug-in hybrid electric vehicles and electric drive 
transportation technology.
    Authorizes appropriations to the Secretary of Energy of $50 million 
for each of fiscal years 2007 through 2016 to carry out the 
demonstration of plug-in hybrid electric vehicles and flexible-fuel 
plug-in hybrid electric vehicles.

Sec. 3. Lightweight Materials Research & Development.

a. In General.
    Requires the Secretary of Energy to create a lightweight materials 
research and development program. The program will focus on materials 
(for both light and heavy duty vehicles) that will reduce vehicle 
weight and increase fuel economy while maintaining safety. In addition, 
the program will investigate ways to reduce the cost and enhance the 
manufacturability of lightweight materials used in making vehicles.
b. Authorization of Appropriations.
    Authorizes appropriations to the Secretary of Energy of $50 million 
for each of fiscal years 2007 through 2012 to carry out this section.

7. Witness Questions

    In the letters inviting them to the hearing, each of the witnesses 
was asked to address the following questions in his testimony:

        <bullet>  What major research, development, and demonstration 
        work remains on plug-in hybrid electric vehicle technologies? 
        How should this work be prioritized?

        <bullet>  What are the largest obstacles facing the widespread 
        commercialization of plug-in hybrid electric vehicles and what 
        steps need to be taken to address these hurdles? (batteries, 
        infrastructure, consumer preference, automotive inertia, cost-
        competitiveness, etc.)

        <bullet>  How does the Federal Government support the 
        development of plug-in hybrid electric vehicle technologies? 
        What can the Federal Government do to accelerate the 
        development and deployment of plug-in hybrid electric vehicles?

        <bullet>  Does the discussion draft address the most 
        significant technical barriers to the widespread adoption of 
        plug-in hybrid electric vehicles?

8. Technical Appendix

What are the technological differences between plug-in hybrid vehicles 
        and the hybrid vehicles on the road today?
    The hybrid vehicles on the road today leverage the battery and 
electric motor at certain peak demand points during the drive cycle of 
the vehicle. The battery, generally nickel metal hydride (NiMH) 
technology, is replenished by occasionally transferring energy from the 
engine as well as from recovering energy expended in braking the 
vehicle (i.e., regenerative braking). The battery maintains a state of 
charge within a fairly narrow band, never gaining or losing a great 
deal of energy; this is known as shallow cycling or a ``sustained 
charge'' approach. Using the energy from NiMH battery to avoid gasoline 
consumption helps hybrid vehicles achieve increased fuel economy.
    Plug-in hybrid vehicles take advantage of the same fuel economy 
principle, only the goal is to use a better battery to avoid even 
greater amounts of gasoline. Lithium-ion (Li-ion) battery technology 
has been identified as the most promising candidate for plug-in hybrid 
electric vehicles. Li-ion batteries have greater energy density than 
NiMH batteries and greater power discharge, characteristics that would 
allow a vehicle to travel further using less gasoline and offer better 
performance than one with a NiMH battery.
    In addition, plug-in hybrid electric vehicles could offer long 
ranges of electric-only operation (also known as a ``ZEV'' range or 
Zero Emissions Vehicle range). This attribute is particularly desirable 
in congested metropolitan areas. If today's hybrid vehicles with a NiMH 
battery were available with an electric-only operation mode, they would 
be capable of only a one-two mile ZEV range. In comparison, experts 
familiar with battery technology claim that Li-ion batteries could 
achieve ZEV ranges of 20, 40, or even 60 miles.
    It is not clear whether plug-in hybrid vehicles would be 
manufactured with an option of driving in ``electric-only'' mode. 
Regardless, the overwhelming majority of the energy used in city 
driving would stem from the battery, given that the engine is 
inefficient in stop-and-go traffic. Thus, the long ZEV range figures 
associated with Li-ion batteries not only indicate the large quantity 
of electrical energy they contain, but also the potential to drive 
lengthy distances under city conditions using mostly electrical energy. 
With Americans commuting an average of 20-30 miles roundtrip each day, 
the plug-in hybrid vehicle with a Li-ion battery could greatly reduce 
petroleum consumption.
Why don't we use lithium-ion battery technology today given its 
        benefits?
    Li-ion batteries are not a new technology. They are used in cell 
phones and laptop computers. Scaling up Li-ion batteries for use in 
automobiles, however, is new territory and presents new challenges. 
Experts in the field estimate that the cost of Li-ion batteries is two 
to four times above the level needed to be commercially viable. Cost 
reductions are needed in the areas of raw materials and processing, as 
well as cell and module packaging.
    In addition, it is not clear if Li-ion batteries are capable of 
lasting 15 years, the average life of a vehicle. This issue is 
compounded by the fact that plug-in hybrid vehicles would use deep 
cycling, which shortens the life of the battery, over the course of its 
drive cycle. Unlike the sustained charge approach used in today's 
hybrid vehicles, the profile of plug-in hybrid is much different. Plug-
in hybrids would start the day at nearly 100 percent state of charge 
(SOC), having been charged overnight. To minimize use of gasoline, the 
battery would be depleted over the course of the day until the SOC 
reached about 20 percent; fully depleting the battery each day would 
severely limit its lifetime. At a SOC of about 20 percent, the plug-in 
hybrid would act like a hybrid vehicle and proceed with a ``sustained 
charge'' approach until the vehicle could be fully recharged again. 
Further testing is needed to determine whether Li-ion batteries could 
last the life of the vehicle under this combined deep/shallow cycling.
    Additional R&D is needed in other areas as well. There is 
uncertainly about the ability of Li-ion batteries to handle abuse and 
improper maintenance, such as crushing the battery or overcharging. 
Current Li-ion batteries require mechanical and electronic devices for 
protection against these abuses. Likewise, more work is needed to 
enhance Li-ion technology in colder temperatures. Under these 
conditions, Li-ion demonstrates a reduction in its ability to discharge 
power and its lack of tolerance for handling surges from regenerative 
braking. In addition, thermal management issues will need to be 
addressed, as long periods of continuous battery use can lead to a 
build up of heat. There are existing technologies that can be used that 
tolerate higher temperatures, but they would increase the cost of the 
battery.
What challenges inhibit the near-term introduction of plug-in hybrid 
        electric vehicles?
    As noted earlier, the battery technology for plug-in hybrids is not 
yet cost-competitive. Since the battery represents a large proportion 
of the incremental cost of plug-in hybrid over a conventional vehicle, 
R&D will likely be focused here. The issue of cost is further 
complicated by the deep discharges that are used in plug-in hybrids. If 
batteries do not last the lifetime of the vehicle, replacement 
batteries will make the plug-in hybrids even less attractive from a 
cost standpoint. The cost of a plug-in hybrid passenger vehicle with a 
20 mile ZEV is approximately $4,500 to $6,100 more than a conventional 
vehicle of comparable size, according to a 2002 report by the Electric 
Power Research Institute.
    Major manufacturers of today's hybrids have exerted a great deal of 
effort to educate consumers that hybrid vehicles differ from all-
electric vehicles of the past in that they do not need to be plugged 
in. The plug-in hybrid would be a new technology, also using the word 
``hybrid'' in its label, but will require customers to plug into an 
electrical outlet in their home or garage. Even if customers understand 
this distinction, they may not be willing or able to conform to a new 
norm. Plug-in hybrids may provide the convenience of reducing the 
number of trips to gas stations, but consumers must become comfortable 
with and accustomed to the idea of plugging in their vehicle. Other 
customers may be interested in plug-in hybrids, but currently may live 
in a dwelling without a plug-in infrastructure or otherwise not 
conducive to vehicle charging. Responding to all of these challenges 
will likely require outreach and education.
    Chairwoman Biggert. The hearing of the Energy Subcommittee 
of Science will come to order.
    Before we begin, I ask unanimous consent that my colleague, 
Mr. Smith from Texas, be allowed to join the Energy 
Subcommittee for this hearing. If there are no objections, so 
ordered.
    I would like to welcome everyone to this Energy 
Subcommittee hearing on the many potential contributions that 
plug-in hybrid electric vehicles could make to our energy 
security.
    Last year, if somebody had asked me if I had any plans to 
chair a hearing on plug-in hybrids in 2006, my response would 
have been: ``What is a plug-in hybrid?'' Yet here we are today 
examining a discussion draft of legislation that will be 
introduced by a senior Member of this committee, Congressman 
Lamar Smith, to promote the development and use of plug-in 
hybrids. I want to thank Mr. Smith for introducing me to plug-
in hybrids.
    What is so special about a plug-in hybrid? Well, in a 
nutshell, average Americans who drive their cars or trucks 
between 25 and 30 miles a day could complete their commute and 
run some errands without burning a drop of gasoline. That is 
good for energy security, not to mention the pocketbook.
    Furthermore, the technology to make this happen is an 
improvement upon existing technology in the market today. 
Unlike hydrogen fuel cells, which are still very much in the 
research and development stage, and by some estimates, still 20 
years from reaching the market, conventional or traditional 
hybrids can be found in dealership lots across the country and 
are growing in popularity. With research, I hope this 
transition from conventional hybrids to plug-in hybrids can 
proceed quickly.
    And there is nothing like a $3 gallon of gasoline to help 
get us thinking about new and creative ways to diversify the 
fuel supply and use anything besides gasoline to power our 
vehicles. As I have said many times before, I do not believe 
that there is a single solution to our energy problems. Plug-in 
hybrids would allow us to power our cars with clean energy, 
including from renewable sources, such as solar and wind. They 
can also be fueled by other clean and abundant sources, like 
nuclear and even coal, preferably from power plants employing 
advanced clean coal technologies that I hope will soon be the 
norm.
    The fact of the matter is that all Americans, including 
those in my suburban Chicago district, want to hop into their 
cars and go. Very few care what makes their car go. They simply 
want it to be inexpensive and easy to get. Again, the consumer 
is pointing us in the right direction. We should be working 
towards cars that can run on whatever energy source is 
available at the lowest cost: be it electricity, gasoline, 
biofuel, or some combination of these.
    That brings me to my final point on the potential benefits 
of the plug-in hybrid. They do not require a whole new 
``refueling'' infrastructure. To think that you could pull into 
your garage at the end of the day and ``fill 'er up'' just by 
plugging your car into a regular 110-volt socket in the garage 
is very appealing. Imagine the convenience of recharging your 
car just as you recharge your cell phone, blackberry, or laptop 
every evening, by simply plugging it in. The next morning, 
unplug it, and you are ready to go.
    That is not to say there aren't challenges to realizing the 
potential benefits of plug-in hybrid electric vehicles. Our 
purpose here today is to identify the most significant 
obstacles facing the widespread commercial availability of 
these vehicles. Are there technical or cost-competitiveness 
issues with important components, such as batteries or power 
electronics? Do consumer preferences or auto industry inertia 
present high hurdles? Our witnesses today can help us 
understand what additional steps the Federal Government can 
take to address these barriers and accelerate the development 
and deployment of plug-in hybrids.
    And I, again, would like to thank Mr. Smith for bringing 
this to our attention.
    [The prepared statement of Chairman Biggert follows:]

              Prepared Statement of Chairman Judy Biggert

    Good morning. On behalf of Ranking Member Honda and myself, I want 
to welcome everyone to this Energy Subcommittee hearing. We are 
examining the potential contribution that plug-in hybrid electric 
vehicles can make to the energy security of this nation. We also want 
to obtain feedback on a discussion draft of legislation Representative 
Lamar Smith has developed to promote the use of plug-in hybrids.
    Needless to say, energy security is a rather timely issue. 
Americans consume more than 20 million barrels of oil products every 
day, and 40 percent of that goes to fueling our cars and trucks. By the 
year 2020, more than sixty percent of our oil will come from foreign 
sources. If that comes true, we will face real and significant 
challenges to our efforts to maintain our security and fight terrorism. 
A major interruption in the supply chain, whether accidental--as we saw 
with Hurricanes Katrina and Rita--or intentional could have enormous 
impacts on our economy.
    As our economy grows and our population prospers, our demand for 
oil and other sources of energy will only increase. But continuing on a 
business as usual path is risky not only for our security and for our 
economy but also for our environment. The carbon dioxide, particulates 
and ozone-forming emissions from cars and trucks contribute to both 
global climate change and localized urban air pollution. Not only is 
urban air pollution correlated with high levels of asthma, lung cancer 
and other devastating illnesses, but it reduces the quality of life for 
those who live in and around cities. I can assure you none of my 
constituents are demanding more smog!
    As I have said many times before, I do not believe that there is a 
single solution to our energy problems. We need to use the resources we 
do have more wisely, and we need to expand domestic sources of clean 
energy, including both renewable sources, such as solar and wind, and 
nuclear energy.
    Some technologies that we hope will be a part of the solution--such 
as hydrogen fuel cells--are still largely in the research and 
development stage. They are likely to be many years off. There are 
other technologies that may be economically deployed on a large scale 
in the near term. We are looking to you, our witnesses, to tell us 
whether you believe plug-in hybrid vehicles are in this category.
    Personally, I hope they are. I find the concept of plug-in hybrids 
fascinating. To think that I could pull into my garage at the end of 
the day and ``fill 'er up'' just by plugging my car in to a socket is 
very attractive. Imagine how convenient that would be: Recharge my car, 
walk in the house, recharge my cell phone. The next morning, unplug and 
be ready to go. I'd only have to go to the gas station before road 
trips!
    I also think it is important--exciting is probably not the word--
that plug-in hybrids offer the chance to diversify the fuel supply for 
our transportation sector. Plug-in hybrids would allow us to power our 
cars with coal--I hope that will soon be clean coal--nuclear or some 
combination of renewable resources. Here in D.C., we have the oil 
lobby, the switch grass lobby, the corn lobby, the coal lobby, the wind 
and solar lobby. In my district in suburban Chicago, my constituents 
want to hop in their cars and go. Very few of them care what makes 
their car go. Consumers may be pointing us in the right direction. We 
should be working towards cars that can run on what ever energy source 
is available at the lowest cost: be it electricity, gasoline, or some 
biofuel.
    In our hearing today, we will examine the major research and 
development questions facing plug-in hybrid technologies and try to 
understand how this work should be prioritized. We want to be able to 
identify the most significant obstacles facing the widespread 
commercial availability of plug-in hybrid electric vehicles. Are there 
technical or cost-competitiveness issues with important components, 
such as batteries or power electronics? Do we lack essential 
infrastructure? Do consumer preferences or auto industry inertia 
present high hurdles? Our witnesses today can help us understand what 
additional steps the Federal Government can take to address these 
barriers.
    I don't want to presume to speak for my colleagues on this 
subcommittee, but I think all of us would like to see the development 
and deployment of plug-in hybrid electric vehicles accelerated. I know 
my constituents think plug-in hybrids sound exciting when they hear 
about the technology. They want to know when they will be able to buy 
them, and--to be honest--so do we.
    I would like to thank each of our witnesses for taking the time to 
educate us about this important subject and to comment upon our draft 
legislation. I would like to thank Representative Smith of Texas for 
the leadership he has taken on this issue. We greatly appreciate the 
opportunity to provide input on his draft legislation, and we hope to 
see it move expeditiously towards enactment.
    Finally, I would like to mention that at the conclusion of our 
hearing, we have an opportunity to see two plug-in hybrids by CalCars 
at noon at the corner of New Jersey Avenue and C Street Southeast, 
courtesy of Representatives Jack Kingston and Elliot Engel. Begging 
everyone's apologies, this really is a technology right around the 
corner.
    And now, I want to welcome my colleague Mr. Honda and recognize him 
for his opening remarks.

    Chairwoman Biggert. And I would recognize the Ranking 
Member, Mr. Honda, for his opening statement.
    But before I recognize him, I just want to make a quick 
announcement and recognize a couple of folks from CalCars who 
have a special treat for us this morning. At the conclusion of 
our hearing, we have an opportunity to see two plug-in hybrids 
by CalCars on the corner of New Jersey Avenue and C Street 
Southeast, courtesy of Congressman Jack Kingston and 
Congressman Eliot Engel. And begging everyone's apology, this 
really is a technology right around the corner, so I hope 
everyone here will join us. If you would like to stand up and--
so with that, I recognize Mr. Honda for five minutes.
    Mr. Honda. Thank you, Madame Chairwoman.
    I guess that infrastructure, if you don't have one, you can 
congratulate yourself for not having one.
    I want to thank the Chairwoman for holding this important 
hearing today and thank all of our witnesses for being here to 
share their expertise with us. You have come from all across 
the country. And let me just say to the Honda dealer--the Honda 
folks that there is no relationship, and when I mentioned 
Prius, it is only because they had the hybrid out, the first 
one. I was looking for one, and then you came right after that.
    As you may know, I do drive a Prius hybrid, and I have 
asked my poor staffers to hook up a server cell to my Prius, 
because when I left my car at the airport for a week or so, the 
starting battery would die out, and I couldn't figure it out, 
and so I decided to try to add a little bit more technology and 
have a trickle charge hooked up to the back of my car.
    So I think it is fair to say that you can count me in among 
the converted on this technology.
    As gasoline prices have skyrocketed in recent weeks, there 
seems to be more of a sentiment, fortunately, among us policy-
makers to support the development of more efficient vehicles. 
Consequently, 75 percent of the energy consumed in 
transportation is provided by petroleum. Of that 75 percent in 
2004, nearly 63 percent came from foreign sources. The trend 
indicates that this will only get worse if the United States 
does not make significant strides towards reducing consumption 
in the transportation sector.
    Small steps can make a big difference. A 10 percent 
reduction in energy use from cars and light trucks would result 
in a savings of nearly--approximately 750,000 barrels of 
petroleum per day. Today's electric hybrids are a step in the 
right direction to reducing our dependence on petroleum with 
the Prius traveling about 42 to 50 miles per gallon of 
gasoline. But because the only source of energy for today's 
hybrids is gasoline, some of that energy must go into charging 
the batteries, limiting the overall vehicle efficiency. I am 
excited about the prospect of plug-in hybrids because they are 
able to store more electrical energy on-board, meaning that 
they can travel further on their initial charge than the 
gasoline carried on-board.
    Plug-ins can also reduce the overall amount of pollution, 
because the power plants are more efficient at controlling 
combustion emissions than the vehicles are.
    One question I do have, however, is that what impacts 
would--plug-in hybrid use will have on the Nation's electricity 
grid if we are successful in convincing hundreds of millions of 
Americans to purchase and use plug-in vehicles. And that is a 
question. In California, we don't have a whole lot of 
electricity to spare. Advocates for plug-in hybrids say that we 
will recharge these cars at night when most of the demand is 
baseload, so it won't be a problem. But if we get enough people 
to adopt plug-in hybrid technology, will we exceed the capacity 
of a baseload generation and need to use more power plants, 
ones that use natural gas as fuel? If so, then I fear we would 
just be shifting our addiction from one petrochemical to 
another.
    Hopefully, the witnesses will address this in their 
testimony or in the question-and-answer period.
    Now please let me apologize in advance. I may need to leave 
early to go to a markup in another committee, but rest assured 
that I share the Chairwoman's enthusiasm for this technology, 
and I look forward to hearing the testimony. Again, I thank the 
witnesses for being here, for your knowledge, and for your 
enthusiasm.
    I yield back.
    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    I thank the Chairwoman for holding this important hearing today, 
and thank all of our witnesses for being here to share their expertise 
with us.
    As you may know, I drive a Prius hybrid, and I've asked my poor 
staffer about hooking up a solar cell to keep the starting battery 
charged for those times when I've left the car at the airport for a few 
weeks. So I think it's fair to say that you can count me among the 
converted on this technology.
    As gasoline prices have skyrocketed in recent weeks, there seems to 
more sentiment among policy-makers to support the development of more 
efficient vehicles.
    Approximately 75 percent of the energy consumed in the 
transportation is provided by petroleum. Of that 75 percent, in 2004 
nearly 63 percent came from foreign sources. The trend line indicates 
that this will only get worse if the U.S. does not make significant 
strides towards reducing consumption in the transportation sector.
    Small steps can make a big difference. A 10 percent reduction in 
energy use from cars and light trucks would result in the savings of 
nearly 750,000 barrels of petroleum per day.
    Today's electric hybrids are a step in the right direction to 
reducing our dependence on petroleum, with the Prius traveling about 50 
miles per gallon of gasoline. But because the only source of energy for 
today's hybrids is the gasoline, some of that energy must go into 
charging the batteries, limiting the overall vehicle efficiency.
    I'm excited by the prospect of plug-in hybrids because they are 
able to store more electrical energy on-board, meaning they can travel 
farther on their initial charge and the gasoline carried on board. 
Plug-ins can also reduce the overall amount of pollution because power 
plants are more efficient at controlling combustion emissions than 
vehicles are.
    One question I do have, however, is what impact plug-in hybrid use 
will have on our nation's electricity grid if we are successful in 
convincing hundreds of millions of Americans to purchase and use plug-
in hybrid vehicles. In California, we don't have a whole lot of 
electricity to spare.
    Advocates for plug-in hybrids say that we will recharge these cars 
at night, when most of the demand is base load, so it won't be a 
problem. But if we get enough people to adopt plug-in hybrid 
technology, will we exceed the capacity of the base load generation and 
need to use more power plants, ones that use natural gas as a fuel?
    If so, then I fear we would just be shifting our addiction from one 
petrochemical to another. Hopefully the witnesses will address this in 
their testimony or in the Question and Answer period.
    I share the Chairwoman's enthusiasm for this technology, and I look 
forward to hearing the testimony. Thanks again to the witnesses for 
being here, and I yield back the balance of my time.

    Chairwoman Biggert. Thank you, Mr. Honda.
    Any additional opening statements submitted by Members may 
be added to the record.
    [The prepared statement by Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss a draft of legislation sponsored by 
Representative Smith, to promote research and development (R&D) on 
plug-in hybrid electric vehicles.
    Plug-in hybrid electric vehicles are hybrid cars with an added 
battery. As the term suggests, plug-in hybrids--which look and perform 
much like ``regular'' cars--can be plugged in each night at home, or 
during the workday at a parking garage, and charged. Plug-ins run on 
the stored energy for much of a typical day's driving--depending on the 
size of the battery up to 60 miles per charge. When the charge is used 
up, the car automatically keeps running on the fuel in the fuel tank. 
Therefore, plug-in hybrids can deliver dramatic improvements in fuel 
economy by driving their first 25 to 50 miles on clean renewable 
electric fuel for about one-fourth the price of gasoline before turning 
on the combustion engine. Many experts contend that widespread use of 
plug-in hybrids could significantly contribute to the reduction of 
emissions and dependency on foreign oil.
    While hybrid-plug in cars could benefit consumers because of their 
greater fuel economy and the relatively low cost of energy from the 
electric grid, I am interested in learning what are the largest 
obstacles facing the widespread commercialization of plug-in hybrid 
electric vehicles and what steps need to be taken to address these 
hurdles. In addition, I look forward to hearing from the witnesses on 
their assessment of the discussion draft. Thank you.

    [The prepared statement by Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Madam Chair and Ranking Member. We have a number of 
witnesses here today to discuss the feasibility of plug-in hybrid 
vehicles and how they can help America lessen its dependence on foreign 
fossil fuels.
    I would like to provide a special Texas welcome to Mr. Roger 
Duncan, who is the Deputy General Manager of Austin Energy and a fellow 
Texan.
    Madam Chair, I am pleased to see this Subcommittee focused on the 
issue of energy as it relates to this nation's transportation needs.
    Gas prices continue to escalate, especially in Texas. Pair that 
with the issue of urban sprawl, what we're seeing is an energy crisis 
that experts predict will affect American's spending and vacation plans 
this coming summer.
    Congress must provide strong leadership to spur research and 
development in the areas of energy efficiency and alternative fuels.
    Again, I am pleased we are having this discussion today and welcome 
the witnesses.
    Thank you, Madam Chair. I yield back.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

    Madame Chairman, I appreciate the opportunity today to explore the 
development and relevance of plug-in hybrid technology, and to discuss 
the merits of legislation that promotes research and development of 
plug-in hybrid electric vehicles.
    As we are all aware, this country faces both short-term and long-
term energy crises, most immediately evidenced by gas prices that creep 
higher every day. Our dependence on oil, and the negative consequences 
inherent in this dependency, is well documented and one of the few 
policy issues over which there is no partisan dispute.
    The plug-in technology combines a significantly more powerful 
battery with gasoline fuel, with the added benefit of being able to 
plug in the vehicle to an electricity outlet and recharge the battery. 
At this time, the batteries last for approximately 20 to 30 miles, 
which is, coincidentally, the average American commuting distance. 
Imagine spending money only to fuel long-distance drives, and 
recharging your car completely every night!
    The fuel economy and energy efficiency of plug-in hybrid vehicles 
could benefit consumers and the economy as a whole. The legislation 
directs the Secretary of Energy to pursue further research on 
technology such as high capacity and high efficiency batteries, as well 
as research into lightweight materials, which can also affect the 
efficiency of the car.
    One of the many reasons I enjoy sitting on this subcommittee is the 
frequent exposure and discovery of innovative policy options. I am so 
pleased today to have the opportunity to discuss one consumer option 
that appears feasible and practical, and that is likely to prove its 
worth in the marketplace. I applaud all of the witnesses for their 
efforts in making electric vehicles even more of a reality.
    Thank you Madame Chairman, and I yield back the remainder of my 
time.

    Chairwoman Biggert. And at this time, I would like to 
introduce our witnesses and thank you all for coming this 
morning.
    First, we have Dr. Andy Frank. He is a Professor in the 
Mechanical and Aeronautical Engineering Department at the 
University of California, Davis, and the Director of the UC 
Davis Hybrid Electric Vehicle Research Center. Welcome.
    I would now like to recognize my colleague, Mr. Smith, to 
introduce the next witness.
    Mr. Smith. I thank you, Madame Chairman.
    First of all, let me thank you for having this hearing on 
the general subject of hybrid vehicles and more specifically on 
the discussion draft of the bill ``The Plug-In Hybrid Electric 
Vehicle Act of 2006,'' which I expect to introduce in a few 
days with your good support as an original co-sponsor, and I 
thank you for that.
    I would like to introduce Roger Duncan, who is from my home 
state of Texas and also from Austin, which is a city that is in 
my Congressional district. He is here to share his knowledge of 
plug-in hybrid electric technology.
    Mr. Duncan has been a leader in energy conservation and 
environmental policy for over 20 years. He is the Deputy 
General Manger of Austin Energy, which is the Nation's tenth 
largest community-owned electric utility.
    Since joining the City of Austin's management staff in 
1989, he has overseen the development and implementation of 
water and air quality programs, environmental reviews, and 
energy and water conservation programs.
    Prior to his service in city management, he served four 
years as a city council member. So, Madame Chair, I think we 
should probably call him honorable today, among other terms.
    He also serves as a board member of the Electric Drive 
Transportation Association and is the campaign coordinator for 
Plug-In Partners.
    He has been recognized by BusinessWeek Magazine as one of 
the 20 top leaders of the decade in the effort to reduce gases 
that cause global warming.
    So I am pleased to introduce him today to our fellow 
colleagues on this committee, but I also have to say, Madame 
Chairman, that because of a markup on the Homeland Security 
Committee on which I also sit, I am going to need to leave 
after his testimony, but I do intend to stay at least for that 
amount of time.
    And thank you again for the privilege of introducing a 
constituent.
    Chairwoman Biggert. Thank you.
    It must be Wednesday morning. We seem to have a lot of 
hearings every Wednesday. We are all trying to be in three 
places at once.
    Next, Dr. Duvall, is a Technology Development Manger for 
Electric Transportation & Specialty Vehicles in the Electric 
Power Research Institute's, or EPRI, Science & Technology 
Division. He currently oversees EPRI's Grid-Connected Hybrid 
Electric Vehicle Working Group and is EPRI's technical lead for 
the DaimlerChrysler-EPRI Plug-in Hybrid Electric Sprinter Van 
Program. Welcome.
    And next we have Dr. John German. He is a Manager of 
Environmental and Energy Analyses for American Honda Motor 
Company. Mr. German is the author of a variety of technical 
papers and a book on hybrid gasoline-electric vehicles 
published by the Society of Automotive Engineers. Welcome, Mr. 
German.
    Mr. Gordon, our Ranking Member on the Science Committee, is 
here to introduce the next witness.
    Mr. Gordon. Thank you, Madame Chair.
    I am pleased to have the opportunity to introduce one of my 
home boys. Dr. Cliff Ricketts is one of the most innovative 
individuals I know. He has held the land speed record for 
hydrogen vehicles at the Bonneville Salt Flats for 15 years and 
has experimented with a variety of electric hybrid and 
biodiesel fuel vehicles in his 30 years at my alma mater, 
Middle Tennessee State University. He has also worked with 
solar energy and has a 10-kilowatt solar unit that banks 
electricity with the local electric supplier to charge his own 
hybrid vehicle and hybrid--and produce hydrogen from water 
through electrolysis to operate his own internal combustion 
automobile. The only two sources of energy that runs his 
vehicles are sun and water.
    But I think the importance of Dr. Ricketts being here today 
is he represents a cadre of hundreds, maybe thousands, of 
garage innovators all around this country that are working with 
virtually no resources but only their own innovation. And it is 
my hope that we are going to be able to find them ways to get 
the resources so that we can spark a new technology here. I am 
convinced that there are Orville and Wilbur Wrights in our 
midst, and we just have to go out and find them. And Dr. 
Ricketts, I think, is at the head of that stream.
    So thank you, Dr. Ricketts, for being here today.
    Chairwoman Biggert. Thank you, Mr. Gordon.
    And last, but not least, we have Dr. Dan Santini. He is a 
senior economist in the Energy Systems Division of Argonne 
National Laboratory's Center for Transportation Research as 
well as the former Chair of the Alternative Fuels Committee of 
the National Academy of Sciences' Transportation Research 
Board. Thank you very much for being here.
    As I am sure the witnesses know, spoken testimony will be 
limited to five minutes each, after which the Members will have 
five minutes each to ask questions. So try and keep somewhat 
near to that limit. I know you have a lot to say, and I really 
look forward to hearing from you.
    And we will begin with Dr. Frank.
    Dr. Frank, could you turn on the microphone, please, and 
pull it a little bit closer?

  STATEMENT OF DR. ANDREW A. FRANK, PROFESSOR, MECHANICAL AND 
AERONAUTICAL ENGINEERING DEPARTMENT, UNIVERSITY OF CALIFORNIA, 
                             DAVIS

    Dr. Frank. Okay. Here we go.
    I am going to waste a minute of my precious time right 
here, but I will play this little clip from----
    [Video.]
    Okay. Now I am going to address some questions that I think 
Mr. Honda had just started, but here are some questions.
    What major R&D work remains for plug-in hybrids technology 
and what needs to be prioritized?
    I think the most important thing is: a lot of the R&D has 
been done by many of us sitting here at the table, but the most 
important thing is it is not ready for production. Pre-
production vehicles and demonstrations are really needed. And 
we have got to develop a supply chain. There are pieces of the 
supply chain not completed, and that is one of the reasons why 
car companies say, ``Well, we can't put these in production 
tomorrow.''
    But in terms of the priorities for a demo fleet, I think we 
would have to focus on the most important, the mid-sized, high-
volume car and then the minivan and small SUVs. I think Ford 
has already started that. And we need to go to compact cars, 
like Prius. But we have to convert these to plug-ins.
    Finally, the objective is to obtain feedback from customers 
and the manufacturing of the structure with the supply chain 
development, and then, of course, how much are we going to 
charge for these.
    And then, most important is to integrate with the electric 
utilities, and Dr. Duvall will talk about that and what we 
should do.
    But beyond the utilities, we need to consider wind and 
solar.
    So do the feds support plug-in hybrids now? Well, we have 
had some support in the past, but my support has primarily come 
from student competitions, surprisingly enough, from the U.S. 
DOE, so I have to thank people for that. But it is really, and 
as I think the chairperson said this morning, they didn't hear 
about it last year. Anyway, government support is needed today 
to build a fleet of, I think, 100 advanced, fully-engineered, 
plug-in hybrids just to demonstrate.
    But the--one of the big issues is electric range. How far 
should these things go? Ten or sixty miles? What I have done is 
I have demonstrated that 60 miles is possible, but it may not 
be economically feasible. So OAMs are talking about that.
    How much is it going to cost? Well, I don't know, but I 
think $50 million or so would get us started.
    Convincing the oil companies--and what technical and social 
barriers are needed in convincing the auto and oil companies? 
You know, when you introduce these to the oil companies, they 
say, ``You mean, you want to support something that is going to 
reduce the use of oil? That doesn't help our business.'' But in 
actual fact, it does. And the reason why is oil is a world 
market, and what oil we don't use in this country at a low cost 
will sell in the world market at a higher cost. So they will 
make more money rather than less. So it will--it behooves them 
to support this as well. And I know they haven't supported it 
in the past.
    Auto companies, it is the same thing. If we, in our 
American auto companies, don't do something, foreign car 
companies will jump in immediately.
    Ethanol. You know, the problem with ethanol is--we have 
cars that will burn ethanol, but we don't have an ethanol--we 
don't have an infrastructure to make ethanol. With a plug-in 
hybrid, we have infrastructure to--for electricity, but we 
don't have cars that use electricity. So what we really need to 
do is to marry these two concepts with the largest and quickest 
impact on oil reduction.
    Use of plug-in hybrids to integrate rooftop solar and wind. 
I am not talking about big solar and wind, in other words, 
vehicle home office systems with rooftop solar can be all 
integrated. And what this will do is create new industries and 
jobs for Americans. And so anyway--and it will improve and move 
us towards a zero CO<INF>2</INF> emission society.
    What is, as pointed out by the Chairperson, the most 
important thing is the cost of fuel. Fuel using electricity--
using gasoline is about 15 cents per mile, but using 
electricity from the power plants is around three cents per 
mile. So you know, that is a major difference. Of course, using 
solar, you drive that even--down lower. What we don't want to 
do is step back in technology.
    What are our technical and social barriers to the 
widespread adoption to PHEVs? We have an acceptance of home 
fueling, and I--by the way, you can't just plug these things 
into any old plug. You really need to have properly installed 
electric plugs in garages and so on. You see, the City of Davis 
has already passed an ordinance that every garage, new 
construction garage, has to have an EV-charging plug in the 
garage, so that is the kind of thing that has to be done.
    We change our habits a little bit, because, as you point 
out, you plug it into the house and the most important thing is 
by fueling at home, you reduce your trips to the gas station 
from 35 times a year to about five times a year.
    And for the electric grid, on the electric grid size, you 
really--you know, there is always the question that Mr. Honda 
pointed out. Okay, what is going to happen to the grid? We have 
all of these hundreds of millions of cars plugged in. 
Eventually, we are going to have to go to something like the 
grid-wise system of the U.S. DOE where you only get a charge 
when the power company has it.
    All right. So I think--am I running out of five minutes? 
Yeah. Okay. I will skip to the conclusion here.
    I made this chart here, which shows the gasoline--gallons 
of gasoline saved per year for all electric ranges, ranging 
from zero range, so that is a regular hybrid, up to 40 miles. 
So when the President said all electric cars--plug-in hybrids 
with 40 miles range is kind of an optimum, he was right. Forty 
miles--beyond forty miles of all electric range, there isn't 
much gain, because you don't save much more gasoline after 
that.
    Okay. Conclusions. R&D for plug-in hybrids has been done 
and ready for pre-production. We need 25 to 50 pre-production, 
completely engineered, properly integrated systems on existing 
cars to show that mass manufacturing can be done. And we need 
standards for design and tests by SAE and EPA and CARB, because 
at this current time, the standards for testing cars don't 
apply to plug-in hybrids. It is very important to redevelop 
that. And then finally, we need to integrate plug-in hybrids 
with small solar, wind, and ethanol and move towards--move the 
United States towards zero oil, coal, and CO<INF>2</INF>. In 
the end, we can end up with an improved lifestyle and a much 
more energy-efficient society without any change in 
infrastructure.
    [The prepared statement of Dr. Frank follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                     Biography for Andrew A. Frank

    Professor Frank received a Ph.D. in Electrical Engineering in 1967 
from the University of Southern California, he has a Master's and 
Bachelor's degree in Mechanical Engineering, 1955 and 1957 from UC-
Berkeley. He worked in the aerospace industry for over ten years on 
such projects as the Minute Man Missile, and the Apollo space craft to 
the Moon. He holds patents on helicopter stability systems from this 
period.
    After his Ph.D. from USC in 1967, he became a Professor at the 
University of Wisconsin. While there, his research turned toward 
advance transportation systems for much higher fuel efficiency. A goal 
of developing cars with 100 mpg and 0 to 60 mph in six seconds or less 
was set then. He began research on the hybrid electric drive train to 
improve fuel efficiency. He received nine patents in the next 18 years 
on various flywheel and electric drive systems for automobiles. He left 
Wisconsin for his present position at the University of California-
Davis in 1985.
    Since coming to UC-Davis, he has continued research into super fuel 
efficiency. In 1992 he and his student team set the world record in 
super fuel efficiency by constructing a car with his students that 
achieved 3300 mpg on gasoline and another car at 2200 mpg on M-85. 
These vehicles set the boundary of what is possible but are not real 
practical cars since they weigh less than 100 lbs.
    Since then he and his students have been designing and constructing 
plug-in hybrid electric vehicles which have the capability of using 
electric energy from the utility system and ordinary gasoline. All this 
research is being done in the U.S. DOE GATE Center for Hybrid Electric 
Vehicle Research. Recent studies from the Center show that such cars 
will reduce gasoline consumption by 75 percent or more, and provide two 
times the energy efficiency while providing zero emission driving 
capability with no change in the energy infrastructure. As part of this 
research program a large amount of effort is also being spent on 
Continuously Variable Transmission design development and theory. The 
research in the CVT allows vehicles to be either a conventional vehicle 
or a hybrid with no change in the power train. The CVT systems designed 
by Dr. Frank and associates have no power or torque limitations and are 
over 95 percent efficient. At the Center, we have developed world class 
research in these areas.
    Professor Frank is the author of over 120 publications and 
currently holds 27 patents with many more pending.
    Professor Frank has worked as a consultant on patent problems, 
electrical accidents, and design defect cases for the last 30 years.

    Chairwoman Biggert. Thank you, Dr. Frank.
    Mr. Duncan, you are recognized.

 STATEMENT OF MR. ROGER DUNCAN, DEPUTY GENERAL MANAGER, AUSTIN 
                        ENERGY IN TEXAS

    Mr. Duncan. Madame Chairman and Members of Congress, thank 
you for inviting me today to give testimony on the proposed 
legislation regarding plug-in hybrid vehicles. We have several 
expert witnesses today to speak to the technical aspects of how 
a flexible fuel plug-in hybrid vehicle works, and the state of 
research and development of such a vehicle.
    In my opinion, any obstacles in research and development 
will be met by the proposed legislation. I believe that the 
battery issues can be rather easily addressed, and I do not 
think that there are any major infrastructure issues to 
overcome, because the infrastructure is the existing electric 
grid.
    The main obstacle I see to widespread commercial 
application of these vehicles is automotive industry inertia 
based on a perception that there is not a commercially viable 
market. So today, I will focus on customer acceptance and the 
potential market for these vehicles, specifically the Plug-In 
Partners campaign currently being conducted by the City of 
Austin.
    We became very excited in Austin when we found out about 
plug-in hybrid electric vehicles. These vehicles can reduce 
America's reliance on foreign oil, decrease greenhouse gas 
emissions from automobiles, and help Americans save on fuel 
costs.
    In Austin, citizens could charge their vehicles overnight 
and then drive around town the next day on the electric 
equivalent of 75-cents-a-gallon gasoline. The equivalent cost 
of electricity in our nation anywhere is under a dollar a 
gallon. And we were also very excited in Austin when we 
realized that we could use our Green Choice renewable energy 
program, which is primarily wind-based, as a transportation 
fuel.
    Our Mayor, Will Wynn, now proudly tells people that in 
Austin we intend to replace Middle Eastern oil with West Texas 
wind. And the fueling infrastructure is already in place. In 
fact, we have an alternative vehicle fueling station in this 
hearing room today: the electric wall socket.
    Last August, our city, county, chamber of commerce, and 
local environmentalists joined together to kickoff the Plug In 
Austin campaign. Our utility is setting aside $1 million in 
rebates for the first plug-in hybrids in our service area. And 
we came up with the idea of ``soft'' fleet orders, asking our 
partners to seriously consider purchasing such vehicles if they 
became available.
    We realized, however, that the automakers were not going to 
make these vehicles just for Austin, Texas, even though we are 
the home of the national champion Texas Longhorns.
    So my Mayor and Council said to take this campaign to the 
50 largest cities in the Nation, and we launched the Plug-In 
Partners campaign here in Washington four months ago.
    Today, we are proud to be joined in this effort by cities 
such as Los Angeles, Chicago, Phoenix, Philadelphia, Baltimore, 
Dallas, Fort Worth, Memphis, Denver, Salt Lake City, Kansas 
City, San Francisco, Seattle, Boston, and many other cities and 
counties.
    Since we are promoting a flexible-fuel plug-in hybrid, the 
American Corn Growers Association and the Soybean Producers of 
America have joined us.
    Our broad-based coalition now has over 200 partners 
throughout state and local governments, non-profit 
organizations, including environmental and national security 
organizations, public and private utilities, and businesses.
    We already have ``soft'' fleet orders for over 5,000 
vehicles.
    But almost all of our partners ask me the same question: 
where can I get one? The proposed legislation will be very 
helpful in this regard. The demonstration program in this 
legislation will directly address our most pressing need, 
providing demonstration vehicles to the state and local 
governments, businesses, and other Plug-In Partners. We will 
help in matching the great consumer demand that we are 
uncovering with the demonstration program proposed in this 
legislation.
    The only additional recommendation I have is to consider 
federal fleet commitments. The diversity of federal vehicles 
would provide a wonderful testing and demonstration platform 
for this new technology. We would also ask you to encourage the 
Postal Service to transition their neighborhood delivery 
vehicles to plug-in hybrids and to perhaps provide incentives 
to the post office for that transition. This type of vehicle is 
perfect for this technology, and it would show everyone in the 
country what they are.
    In conclusion, we believe the proposed legislation is a 
very important step in addressing the energy crisis facing this 
nation and encourage you to move forward with it.
    Thank you.
    [The prepared statement of Mr. Duncan follows:]

                   Prepared Statement of Roger Duncan

    Madame Chairman and Members of Congress, thank you for inviting me 
today to give testimony on the proposed legislation regarding plug-in 
hybrid vehicles. Solving the energy crises that America faces today 
requires new and innovative thinking and I am glad to see that this 
committee has focused on what I consider to be one of the prime 
solutions.
    You have several expert witnesses today to speak to the technical 
aspects of how a flexible fuel plug-in hybrid vehicle works and the 
state of research and development of such a vehicle. In my opinion, any 
obstacles in research and development will be met by the proposed 
legislation. I believe that the battery issues can be easily addressed 
and I do not think there are any major infrastructure issues to 
overcome--because the infrastructure is the existing electric grid.
    The main obstacle I see to widespread commercial application of 
these vehicles is automotive industry inertia based on a perception 
that there is not a commercially viable market. So today I will focus 
on customer acceptance and the potential market for these vehicles--
specifically the Plug-In Partners campaign currently being conducted by 
the City of Austin.
    We became very excited in Austin when we found out about plug-in 
hybrid electric vehicles. These vehicles can reduce America's reliance 
on foreign oil, decrease greenhouse gas emissions from automobiles, and 
help Americans save on fuel costs.
    Also, plug-in hybrid vehicles can also be built with flexible fuel 
engines, magnifying the national security, environmental and economic 
benefits while also increasing business for American agriculture.
    In Austin we are particularly interested in electricity because if 
an Austin citizen could charge their vehicle overnight, they could 
drive around town the next day on the electric equivalent of 75 cents a 
gallon gasoline. As we checked utility rates around the country, we 
realized that the equivalent cost of electricity anywhere in our nation 
is under a dollar a gallon. And we were also very excited in Austin 
when we realized that we could use our Green Choice renewable energy 
program, which is primarily wind-based, as a transportation fuel.
    Our Mayor, Will Wynn, now proudly tells people that in Austin we 
intend to substitute West Texas wind for Middle Eastern oil. And the 
fueling infrastructure is already in place. In fact, we have an 
alternative vehicle fueling station in this hearing room today, the 
ordinary electric wall socket.
    Our Mayor and Council launched Plug-in Austin last August. The 
city, county, chamber of commerce, and local environmentalists joined 
together to kick off the campaign. Austin Energy, the City of Austin's 
public utility, is setting aside a million dollars in rebates for the 
first plug-in hybrids in our service area. And we came up with the idea 
of ``soft'' fleet orders, asking our partners to seriously consider 
purchasing such vehicles if they became available.
    We realized, however, that the automakers were not going to make 
these vehicles just for Austin, Texas--even though we are the home of 
the national champion Texas Longhorns.
    So out Mayor and Council said to take this campaign to the 50 
largest cities in the Nation and we launched the Plug-In Partners 
campaign here in Washington four months ago.
    Today we are proud to have been joined in this effort by cities 
such as Chicago, Los Angeles, Phoenix, Philadelphia, Dallas, Fort 
Worth, Memphis, Denver, Salt Lake City, Kansas City, San Francisco, 
Seattle, Boston, and many other cities and counties.
    Since we are promoting a flexible-fuel plug-in hybrid, the American 
Corn Growers Association and the Soybean Producers of America have 
joined the coalition.
    Our broad based coalition now has over 200 partners throughout 
State and local governments, non-profit organizations--including 
environmental and national security organizations, public and private 
utilities, and businesses. We already have ``soft'' fleet orders for 
over 5,000 vehicles. A complete list of our partners had been provided.
    But almost all our partners ask me the same question--where can I 
get one? And this is one place where I think the proposed legislation 
will be very helpful. The demonstration program proposed in the 
legislation will directly address our most pressing need--providing 
demonstration vehicles to the State and local governments, businesses 
and other Plug-In Partners. We will help in matching the great consumer 
demand that we are uncovering with the demonstration program proposed 
in this legislation.
    If I were to recommend that anything at all be added to the 
legislation, it would be consideration of federal fleet commitments. 
The diversity of federal vehicles would provide a wonderful testing and 
demonstration platform for this new technology. We would also ask you 
to encourage the Postal Service to transition their neighborhood 
delivery vehicles to plug-in hybrids and to perhaps provide incentives 
to the Post Office for that transition. These types of vehicles are 
perfect for this technology, and it would show everyone in the country 
what they are.
    In conclusion, we believe the proposed legislation is a very 
important step in addressing the energy crises facing this nation and 
encourage you to move forward with it. Thank you.

                       Biography for Roger Duncan

    Roger Duncan is the Deputy General Manager of Austin Energy, the 
Municipal Utility for Austin, Texas. He manages Strategic Planning, 
Government Relations, On-site Generation, Demand-side Management, and 
Green Building for the Utility. Prior to joining Austin Energy, Mr. 
Duncan was Director of the Environmental Department for the City of 
Austin and was elected to two terms on the Austin City Council.
    Mr. Duncan is currently Co-chair of the Urban Consortium 
Sustainability Council and serves on the Board of Directors of the 
Environmental and Energy Study Institute and the Electric Drive 
Transportation Association. He also is a member of the Western 
Governor's Association Committee on Energy Efficiency and was appointed 
by the Secretary of Energy to the Federal Energy Management Advisory 
Council.
    Mr. Duncan holds a B.A. degree with a major in Philosophy, 
University of Texas at Austin.

    Chairwoman Biggert. Thank you, Mr. Duncan.
    I have to say that you did forget one city when you were 
mentioning all of those, and that is Naperville, Illinois, 
which is the largest city in my suburban Chicago district, but 
they are a Plug-In Partner and one of the campaign's founding 
members. I am not sure if the campaign has switched to--from 
cities to individuals yet, but if it has, that makes the list. 
I would buy a plug-in hybrid if they were available today.
    Thank you.
    Dr. Duvall, you are recognized for five minutes.

    STATEMENT OF DR. MARK S. DUVALL, TECHNOLOGY DEVELOPMENT 
MANAGER, ELECTRIC TRANSPORTATION & SPECIALTY VEHICLES, SCIENCE 
& TECHNOLOGY DIVISION, ELECTRIC POWER RESEARCH INSTITUTE (EPRI)

    Dr. Duvall. Thank you, Chairman Biggert, for the 
opportunity to address your committee.
    I would like to briefly highlight a few key points of the 
written testimony I have submitted in response to questions 
posed by the Committee, and I look forward to any additional 
inquiries you have.
    In 2000, EPRI created a Hybrid Electric Vehicle Working 
Group. It was a collaboration with Ford, General Motors, 
several of our utility members, some state and local agencies, 
and two National Laboratories, Argonne National Lab, and the 
National Renewable Energy Laboratory, and others. This group of 
stakeholders completed the first comprehensive study on the 
benefits, costs, technical challenges, and market potential of 
conventional hybrid and plug-in hybrid electric vehicles.
    EPRI used this study as a roadmap to guide research and 
development activities over the past six years on battery 
technology, control system development, infrastructure, and 
also on environmental analysis. While the R&D continues, EPRI 
has worked with others to inform federal and State policy-
makers about the energy security benefits of plug-in hybrids, 
reducing U.S. dependency on petroleum while maintaining the 
usefulness and utility of conventional automobiles.
    During this work, we found that the cost and durability and 
safety of advanced battery technologies were high-priority 
development issues, followed closely by other overall electric 
drive system development and integration issues. Our current 
experience suggests that these technologies are sufficiently 
well developed to move plug-in hybrid technology to the market 
for early entry. It further suggests that continuing R&D on key 
component technologies is critical and has the potential to 
significantly improve the performance of the technology, 
especially with respect to advanced batteries.
    I would like to highlight three important actions that can 
dramatically improve near-term prospects for plug-in hybrid 
vehicles, and which I believe are also supported well by the 
draft legislation.
    The first is to establish programs with automotive 
manufacturers to develop production prototype plug-in hybrid 
vehicles and to demonstrate them with private and public 
fleets. One example of this type of program is a collaboration 
between EPRI and DaimlerChrysler with several electric 
utilities and the South Coast Air Quality Management District 
in southern California to test a fleet of plug-in hybrid 
delivery vans with advanced battery technology. These 
prototypes are currently undergoing extensive testing in 
Germany and Los Angeles and currently demonstrating excellent 
performance with the potential to provide long-term durability 
in a demanding application.
    The second is to develop a plan for acquiring and deploying 
larger fleets of plug-in hybrid vehicles in various vehicle 
platforms and configurations for multiple locations across the 
United States. Plug-in hybrid vehicles have a wide variety of 
application to different platforms. We should not assume that 
they are only for small passenger cars. They can serve many 
different needs. One example is that EPRI and some of the 
utilities are working with a major hybrid drive system 
manufacturer to develop a plug-in hybrid electric utility 
vehicle that can go and repair distribution lines in 
neighborhoods using only electricity, without exposing the 
operator to harmful diesel emissions, and while providing 
backup power to customers during some outages.
    There are always additional costs and risks associated with 
the development of new technology, and large scale fleet 
demonstrations help to minimize these issues and build market 
familiarity with plug-in hybrids and create a minimum level of 
certainty for the first-to-market manufacturers.
    Finally, the creation of national research programs focused 
on increasing the overall performance of batteries, electric 
drive systems, and power electronics. The Department of Energy 
recently held a meeting to define key plug-in hybrid research 
challenges, and this effort should be fully supported as much 
and as soon as possible.
    One of the most important benefits of plug-in hybrid 
vehicles is the ability to diversify our transportation energy 
sources by displacing a portion of the sector's petroleum 
consumption with electricity. At high levels of market 
penetration, PHEVs can achieve dramatic reductions in petroleum 
consumption with a modest increase in the nationwide 
electricity demand. The electric sector has a large capacity to 
provide for electricity for transportation uses with minimal 
adverse impact and several significant potential benefits to 
the electric grid as a whole.
    The effort to move PHEVs into commercialization must be a 
serious one, given the current status of the technologies. And 
this is an achievable near-term objective with enormous 
potential to reduce national petroleum consumption, to lower 
transportation fuel costs, to diversify and secure 
transportation energy sources, and to reduce vehicle emissions.
    In closing, I would like to thank Chairman Biggert and the 
Members of Congress for your attention, and I look forward to 
your questions.
    [The prepared statement of Dr. Duvall follows:]

                  Prepared Statement of Mark S. Duvall

    On behalf of the Electric Power Research Institute, I appreciate 
the opportunity to address your committee. My remarks will offer a 
brief history of plug-in hybrid electric vehicle development, the 
current status of the technology and answers to some questions posed by 
Committee staff.

Recent History of Plug-in Hybrid Electric Vehicle Development

    In 2000, EPRI created a Hybrid Electric Vehicle Working Group 
(HEVWG) in conjunction with Ford, General Motors, Argonne National 
Laboratory, National Renewable Energy Laboratory, New York Power 
Authority, Southern Company and Southern California Edison. The HEVWG 
was supported by a consulting team with a strong background in 
marketing, emissions, and cost analysis.
    The resulting study that compared the benefits, costs and 
challenges between conventional vehicles, hybrid vehicles and plug-in 
hybrid vehicles (PHEV) set the stage for additional research over the 
past six years on battery technology, control system development, 
infrastructure, and environmental analysis. While R&D continues, EPRI 
has worked with other advocates to inform federal and State policy-
makers about the energy security benefits of plug-in hybrids--reducing 
U.S. dependency on petroleum while maintaining the usefulness and 
utility of conventional automobiles.
    This R&D work identified the challenges facing plug-in hybrid 
commercialization. We found that the cost and durability of advanced 
battery technologies was the highest priority, followed closely by 
battery system and drive system vehicle integration and coordinated 
energy management. The analysis to date suggests that the technology, 
control systems and advanced battery systems are sufficient to move 
plug-in hybrid technology to the market at an early entry level. It 
further suggests that continued R&D on key component technologies is 
critical, especially advanced batteries. Additional analysis and 
experience with the vehicle and systems can lead to further 
optimization as test data is applied to the design of motor and engine 
systems, and engine/motor coordination strategies are further refined.

Current Status

    At this time, plug-in hybrid technology is at the prototype stage, 
although with excellent prospects for near-term commercial development. 
As one example, EPRI and DaimlerChrysler are working with several 
electric utilities and the South Coast Air Quality Management District 
to test a small fleet of PHEVs with advanced battery technology. These 
prototypes are undergoing testing in Germany and Los Angeles. They are 
demonstrating excellent performance, and have the potential to 
demonstrate long-term durability.
    Current battery technology is also proceeding well. The most recent 
batteries demonstrate excellent safety, power performance, and 
laboratory life. Future challenges will include verifying lifetime 
testing in field testing, and developing production facilities to ramp 
up the availability of this technology.

Questions

What major research, development, and demonstration work remains on 
plug-in hybrid electric vehicle technologies? How should this work be 
prioritized?

What are the largest obstacles facing the widespread commercial 
application of plug-in hybrid electric vehicles and what steps need to 
be taken to address these hurdles (batteries, infrastructure, consumer 
preference, automotive inertia, cost-competitiveness, etc.)?

    There are three main technical challenges which will need to be 
addressed in the commercialization of plug-in hybrid electric vehicles: 
first, proof of concept of high performance energy batteries capable of 
PHEV operation; second, the development of a robust supplier base for 
automotive electric motors and hybrid vehicle components; third, the 
coordination of a safe and usable set of charging standards.
    The first and primary challenge is the validation of batteries 
capable of meeting PHEV operation requirements. This is a considerable 
challenge which has been under evaluation for many years, but this work 
has made tremendous progress and the batteries which are currently 
available in prototype form are capable of meeting PHEV requirements. 
Although more basic research can always be helpful, the best way to 
address the battery challenge is to increase testing of current pre-
production technology and push forward towards meeting the production 
challenges.
    The development of a robust supplier base is an important second 
step. Plug-in hybrid vehicles are generally similar to conventional 
hybrid vehicles, so an important first step is increasing the potential 
pool of component users and component suppliers so that economies of 
scale can be generated as quickly as possible. This is a broad effort 
that will have to be addressed on a nationwide basis.
    The third challenge is the coordination of a safe and usable set of 
charging standards. Americans need to know that charging their vehicles 
is as safe and easy as charging their cell phones. This is the easiest 
challenge to meet from a technical standpoint, but it will require 
active participation from regulators, the automotive industry, and the 
electric power industry.

How does the Federal Government support the development of plug-in 
hybrid electric vehicle technologies? What can the Federal Government 
do to accelerate the development and deployment of plug-in hybrid 
electric vehicles?

    The most important question is what the Federal Government can do 
to help. The primary hurdle to plug-in hybrid development is the 
uncertainty of the market for electric transportation. In order to 
build batteries and components at a reasonable cost, considerable up-
front capital investment is required. Although public comments by 
national leaders in support of PHEVs have been tremendously helpful, 
government can help further address this challenge by sending a clear 
signal that it supports this technology in the future. The following 
measures can be an important first step:

        <bullet>  Establish a program with the automotive manufacturers 
        to create prototype demonstrations with a focus on near-term 
        applications.

        <bullet>  Develop a plan for acquiring a fleet of plug-in 
        hybrid electric vehicles in various configurations to be 
        operated in multiple locations across the United States.

        <bullet>  As fleet data becomes available, collect and share 
        the operating data to appropriately inform consumers and fleet 
        operators about the benefits of plug-in hybrid technology.

        <bullet>  Direct the appropriate regulators to develop a 
        certification test protocol for plug-in hybrid drive systems to 
        maximize the benefits received by the manufacturer and 
        consumer.

        <bullet>  Create an education program that informs the general 
        public on the attributes of plug-in technology. In addition, 
        create a program which reaches into the university level to 
        educate science and engineering students on all types of 
        electric-drive technology.

        <bullet>  Direct the national research programs to focus 
        development on increasing the performance of batteries, 
        electric drive systems, and power electronics. The Department 
        of Energy recently held a summit laying out the research 
        challenges; this effort should be fully funded and expanded as 
        much and as soon as possible.

Does the discussion draft address the most significant barriers to the 
widespread adoption of plug-in hybrid electric vehicles?

    EPRI has reviewed the discussion draft and is of the opinion that 
it addresses the most critical technical challenges to the development 
and adoption of plug-in hybrid vehicles. There is a high degree of 
correlation between the discussion draft and the six priorities listed 
by EPRI in response to the previous question.

How much additional energy demand could the electricity grid and 
utilities absorb if PHEV users decided to charge their vehicles in the 
middle of the day during peak power demand?

    It is important to place the energy requirements of plug-in hybrids 
in perspective with current and projected U.S. electrical energy 
demands. A typical battery charger for a plug-in hybrid will draw about 
1400 watts of power from a 120 volt outlet and be active for about two 
to eight hours per day. This is roughly equivalent to an electric space 
heater. Several analyses by EPRI or the DOE estimate the energy demand 
of plug-in hybrids, even at 50 percent market penetration, at between 
four and seven percent of total U.S. electricity demand. By 2050, total 
U.S. electrical demand is projected by the EIA to grow by almost 100 
percent, 200 million plug-in hybrids (with an equivalent of 20 miles of 
electric range), driven and charged daily by their owners, would be 
responsible for approximately four to seven percent of this growth.
    It will take many years to reach even this level of electrical 
energy consumption--the charging load from PHEVs will grow slowly and 
predictably. The total PHEV charging load is anticipated to be 
relatively consistent and electric utilities and system operators will 
be able to accurately monitor and react to the adoption of the 
vehicles.

What would be the likely net impact in criteria pollutant emissions and 
greenhouse gas emissions with the commercialization of PHEVs?

    There are two primary components to the criteria pollutants of 
PHEVs--upstream emissions--produced by the refineries that produce the 
gasoline or diesel fuel and power plants that generate the electricity 
to recharge the batteries--and tailpipe emissions produced when driving 
the vehicles.
    Utilities today operate under a number of different compliance 
requirements for criteria emissions. In many cases key pollutants are 
capped. The recent EPA Clean Air Interstate Rule (CAIR) has established 
new, lower limits on the emissions of SOX and NOX. The Clean Air 
Mercury Rule (CAMR) will set a strict limit on mercury emissions. When 
these federal regulations are combined with State and local 
requirements, the general result is that each year utilities must 
generate more and more energy while decreasing the total amount of 
pollutants generated. A historical review of electric sector emissions 
in the U.S. shows a steady growth in demand (typically one to two 
percent per year) alongside a steady decline in emissions.
    There is significant potential for PHEVs to improve urban air 
quality by the elimination of a portion of the tailpipe emissions. 
PHEVs with a moderate ability to operate in an all-electric driving 
mode can reduce the emissions associated with ``cold starts'' of the 
combustion engine. These vehicles can also operate using only 
electricity for extended stop-and-go driving in cities or other 
congested areas.
    The greenhouse gas emissions of a plug-in hybrid are the sum of 
tailpipe emissions from the combustion of fuel, refinery emissions, and 
power plant emissions. Plug-in hybrids use less hydrocarbon fuel and 
have lower refinery and tailpipe greenhouse gas emissions than either 
conventional vehicles or non-grid hybrids that are commercially 
available today. PHEVs have the added greenhouse gas emissions produced 
by generating electricity to recharge the battery.
    Plug-in hybrids that are recharged from today's national electric 
grid will have 37 percent fewer GHG emissions than conventional cars 
and 13 percent fewer than comparable hybrids. However, it is more 
useful to look at the future characteristics of electricity in the U.S. 
when there would be significant numbers of PHEVs in the market.
    The carbon intensity of the electric sector is declining year-over-
year. This is due to several factors, including the retirement of old, 
inefficient fossil plants (many of which are more than 50-70 years 
old), construction of new more efficient power plants, and introduction 
of renewables and other non-emitting technologies. As the utility 
sector reduces carbon intensity, the greenhouse gas emissions of PHEVs 
that are recharged from this electricity will also decline.
    The degree to which the electric sector reduces carbon intensity 
depends on a number of factors, including the rate of introduction and 
cost of new technologies, cost of different energy feedstocks, and 
governmental policy. EPRI has simulated a number of future cases for up 
to 200 million PHEVs in the U.S. by the year 2050 as part of our 
current work characterizing the emissions characteristics of plug-in 
hybrids. Each of these cases, including a ``worst case'' scenario of 
minimum technology introduction and no downward drivers on 
CO<INF>2</INF>, resulted in a minimum GHG reduction of 44 percent 
compared to a conventional car.

                      Biography for Mark S. Duvall

    Mark S. Duvall is the Manager of Technology Development for 
Electric Transportation at the Electric Power Research Institute 
(EPRI), a non-profit organization whose mission is to provide 
collaborative science and technology solutions for the electric power 
industry.
    Dr. Duvall conducts research and technology development efforts in 
advanced transportation, including hybrid system design, advanced 
energy storage, vehicle efficiency, systems modeling, and environmental 
analysis. His primary focus is plug-in hybrid electric vehicles and he 
oversees a number of EPRI research partnerships and collaborations with 
the automotive industry, State and federal agencies, national 
laboratories, and academic research institutions.
    Dr. Duvall holds B.S. and M.S. degrees in Mechanical Engineering 
from the University of California, Davis and a Ph.D. in Mechanical 
Engineering from Purdue University.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairwoman Biggert. Thank you very much, Dr. Duvall.
    Mr. German, you are recognized for five minutes.

STATEMENT OF MR. JOHN GERMAN, MANAGER, ENVIRONMENTAL AND ENERGY 
           ANALYSES FOR AMERICAN HONDA MOTOR COMPANY

    Mr. German. Yes. Good morning, Madame Chairman and Members 
of the Subcommittee.
    Honda thanks you for the opportunity to provide our views 
on the subject of plug-in hybrid electric vehicles.
    However, before beginning my testimony, I want to share 
with the Subcommittee several energy announcements Honda is 
making this morning.
    First, Honda has established a goal to increase its 
industry-leading corporate average fuel economy by five percent 
from 2005 to 2010, resulting in a combined car and light truck 
CAFE fleet average of about 30.6 miles per gallon.
    Second, we will introduce new diesel technology that 
achieves tier 2 bin 5 emission levels within the next three 
years without using Urea.
    Third, we will introduce an all new and more affordable 
dedicated hybrid car with a goal of 100,000 sales in North 
America in 2009. These new commitments are part of our 
company's ``2010 Vision: Commitment for the Future.''
    The automotive industry is in a period of unprecedented 
technology development. Gasoline development is still 
proceeding rapidly. The manufacturers are working hard on 
diesels that can meet the U.S. emission standards. Honda is 
producing third-generation hybrid electric vehicles, and most 
other manufacturers have also, or will be introducing hybrid 
electric vehicles.
    Honda continues to make a dedicated compressed natural gas 
vehicle, the Civic GX, and a number of manufacturers are--
produce flexible-fuel vehicles that run on gasoline or E-85.
    Fuel cells are being heavily researched and developed, and 
plug-in hybrids are yet another advanced technology that merits 
further examination.
    The development of all technologies is accelerating in 
response to growing concerns about energy security and global 
warming. Global demand for transportation energy is so immense 
that no single technology can possibly be the solution. There 
is no ``magic bullet.'' We are going to need rapid development 
and implementation of as many feasible technologies as 
possible. But what is cutting-edge one day can quickly become 
outdated. And Honda, as well as other manufacturers, is 
constantly exploring a variety of technologies to achieve 
energy sustainability.
    Thus technology-specific mandates cannot get us where we 
need to go. Performance requirements and incentives supported 
by research and development are much more effective.
    Plug-in hybrids have a lot of promise, especially to 
displace oil consumption. However, plug-in hybrids and advanced 
batteries are still in the early stages of development. In that 
regard, the thrust of the draft legislation on research and 
development makes a great deal of sense.
    The Subcommittee asked that I address the obstacles facing 
the widespread commercial application of plug-in hybrid 
vehicles and the steps that need to be taken. There are many 
issues that still need to be addressed. The extra batteries 
required for plug-in applications are heavy, decreasing 
performance, and take up valuable interior space. Plug-in 
systems must be safe and easy to use, and customer acceptance 
to plugging in the vehicle must be evaluated. Performance must 
be preserved, which means that either a larger, more costly 
electrical propulsion system must be installed, or the engine 
must be used for harder accelerations and higher speeds, which 
has potential emission implications.
    From a societal point of view, there are additional issues 
with criteria pollutants and CO<INF>2</INF> emissions. How the 
electricity is generated will have a significant impact on 
benefits other than energy security.
    While these are all legitimate issues that need further 
research, the issue of energy storage is much more significant. 
Although current hybrid vehicles have relatively small battery 
packs, the battery pack is still the largest single cost of the 
hybrid system. In addition, the energy flow in conventional 
hybrids is carefully monitored and controlled to ensure that 
the battery pack will last the life of the vehicle.
    The battery pack for a plug-in hybrid must be many times 
larger. This adds thousands of dollars to the initial price of 
the vehicle and detracts from performance and interior space. 
Further, the battery pack is routinely discharged during 
electric-only operation and is subject to higher temperatures 
and rapid energy draws to maintain performance. This would 
cause much faster deterioration of the battery pack and a 
shorter battery life.
    The lithium-ion battery is being promoted by some as the 
answer to these challenges. However, despite intense 
development of lithium-ion batteries for many years, durability 
has not been proven, they are more susceptible to damage than 
nickel metal hydride, and they do not perform well in cold or 
hot environments. End-of-life battery disposal may be a larger 
issue for lithium-ion than for nickel metal hydride, as the raw 
materials in the nickel metal hydride battery are much more 
valuable.
    Cost effectiveness is the major issue. Even at $3 per 
gallon and including the cost of electricity to recharge the 
battery pack, adding plug-in capacity to a conventional hybrid 
car would initially cost about $3,000--I am sorry, would save 
about $3,000 over the vehicle lifetime. These energy savings 
would likely be offset just by the initial incremental costs of 
the additional batteries, even in high-volume applications. If 
you add in the costs of shorter battery life, lower 
performance, less interior space, off-board charging systems, 
plus the customer discounting of fuel savings, customer 
acceptance is going to be a major challenge unless fuel prices 
rise to substantially more than $3 per gallon, fuel shortages 
occur, plug-in hybrids are heavily subsidized, or there is a 
breakthrough in energy storage.
    Thus, by far, the most important action the government can 
take is research into improved energy storage. Honda strongly 
supports the research program outlined in the House plug-in 
discussion draft. Hybrids, including plug-in hybrids, have a 
great deal of promise, and the potential issues should be 
adequately investigated for solutions, especially energy 
storage. Until improved batteries can be developed, there is 
little need to assess customer acceptability or conduct vehicle 
demonstration projects.
    As Dr. Duvall mentioned, the Department of Energy held a 
workshop on plug-in hybrid electric vehicles on May 4-5. This 
was an excellent workshop, and I request that the paper be used 
as the basis for the workshop you submitted for the record. The 
Department of Energy's work in this area should be supported 
and funded by Congress.
    I appreciate the opportunity to present Honda's views, and 
I would be happy to answer any questions.
    [The prepared statement of Mr. German follows:]

                   Prepared Statement of John German

    Good morning Madam Chairwoman and Members of the Subcommittee. My 
name is John German and I am Manager of Environmental and Energy 
Analysis with American Honda Motor Company. We thank you for the 
opportunity to provide Honda's views on the subject of plug-in hybrid 
electric vehicles.
    The automotive industry is in a period of unprecedented technology 
development, encompassing everything from gasoline engines and 
transmissions to diesels, hybrid-electric vehicles, fuel cells, and 
vehicles powered by alternative fuels. The efficiency of the 
conventional gasoline engine has improved by 1.5 to two percent per 
year for the last 20 years, although these gains have largely gone into 
features more highly valued by customers than fuel economy, such as 
performance, utility, luxury, and safety. Gasoline technology 
development is still proceeding rapidly, with variable valve timing, 
direct fuel injection, variable cylinder displacement, and turbo-
charging all on the horizon. Diesel engines have also seen dramatic 
improvement in recent years and manufacturers are working hard to meet 
the U.S. emission standards. Hybrid-electric vehicles are in their 
second and third generation at Toyota and Honda and most other 
manufacturers have also or will be introducing hybrid-electric 
vehicles. Honda continues to market a dedicated compressed natural gas 
vehicle, the Civic GX, and is backing it with development of a home 
natural gas refueling system developed by Fuelmaker, called PHILL. A 
number of manufacturers produce flexible-fuel vehicles that run on 
gasoline or E-85. Development of battery-electric vehicles continues 
and they have found a niche in neighborhood vehicles for closed 
communities. And, of course fuel cells are being heavily researched and 
developed. Different companies are working on different technologies, 
which is the optimal way and makes good use of competition.
    Development of all technologies is accelerating in response to 
growing concerns about energy security and global warming. Global 
demand for transportation energy is so immense that no single 
technology can possibly be the solution. Fuel cells might be the final 
solution someday, but the challenges of hydrogen production, transport, 
and storage will take a long time to solve and implement, especially on 
the volume demanded for transportation worldwide. Biofuels are 
promising and can replace some fuel use, but even development of 
cellulosic ethanol only has the potential to displace, at most, 10 to 
20 percent of the world's oil demand. The point is that there is no 
magic bullet--we are going to need rapid development and implementation 
of as many feasible technologies as possible. Honda is developing 
technology that meets both the needs of our customers and those of 
society. What was cutting edge one day can quickly become out dated. 
Thus we are constantly exploring a variety of technologies to achieve 
energy sustainability.
    Given the rapid changes in technology, performance-based incentives 
are the best way to move the ball forward. It is impossible to predict 
the pace of technology development and when breakthroughs will or will 
not occur. Accordingly, technology-specific mandates cannot get us 
where we need to go. In fact, previous attempts to mandate specific 
technologies have a poor track record, such as the attempt to promote 
methanol in the 1990s and the California electric vehicle mandate. The 
primary effect of technology-specific mandates is to divert precious 
resources from other development programs that likely are much more 
promising. If there are to be mandates, they should be stated in terms 
of performance requirements, with incentives and supported by research 
and development.
    With respect to plug-in hybrids, it is really too early in the 
development of hybrid vehicles and advanced batteries to predict 
whether plug-in vehicles will reach their hoped-for potential. Plug-in 
hybrids have a lot of promise, especially to displace oil consumption. 
They need and deserve further research and development. In that regard, 
the thrust of the draft legislation makes a good deal of sense. Before 
plug-in vehicles can be viable, however, there are a number of 
technology, consumer acceptance, environmental and cost issues that 
still need to be addressed.

A. Battery Weight and Size and Motor Performance Demands

    The extra batteries add 175 to 500 pounds to the vehicle, which 
decreases performance, and it is difficult to find space for the extra 
batteries without detracting from the utility of the vehicle. Systems 
to plug the vehicle in to the electric grid must be safe and easy to 
use. Customer reaction to having to plug in the vehicle is largely 
unknown. Performance must be preserved, which means that either the 
electric motor and energy storage must provide performance equivalent 
to the engine; or the engine must be started and used with the electric 
motor for harder accelerations and higher speeds.
    If the engine is not turned on for high accelerations, the vehicle 
is entirely dependent on the electrical system for acceleration. This 
requires a much larger electric motor and power electronics, which adds 
cost and weight and requires more cooling. The high electrical demand 
during high accelerations also generates high battery temperatures and 
accelerates battery deterioration. Adding an ultra-capacitor to handle 
the high loads might solve the battery problem, but this adds yet more 
cost and takes up additional space.
    If the engine is turned on only during high accelerations, 
emissions become a major issue. Catalytic converters are used to reduce 
most of the harmful emissions from the engine. However, these 
converters must be at least 350 degrees Centigrade (660 degrees 
Fahrenheit) to function properly. If the engine is off most of the 
time, catalyst temperatures will drop well below the level needed for 
conversion of emissions and tailpipe emissions will be orders of 
magnitude higher. Also note that current emission and fuel economy test 
procedures are not designed to accurately measure emissions from these 
types of vehicles and would have to be revised.

B. Energy Storage

    However, while these are all legitimate issues that need further 
development, the issue of energy storage is the most significant. Some 
industry analysts have been critical of hybrids because they cost more 
and the fuel savings are not recoverable in the short term. Although 
current hybrid vehicles have relatively small battery packs, the 
battery pack is still the single largest cost of the hybrid system. 
Further, energy flow in conventional hybrids is carefully monitored and 
controlled to ensure maximum battery life. The battery state-of-charge 
is never allowed to rise above about 80 percent or drop below about 20 
percent, where more deterioration occurs. Battery temperatures are 
carefully monitored at many points inside the battery pack and battery 
assist and regeneration is limited when necessary to keep the 
temperature at levels that ensure low deterioration. Also, the duty 
cycle of a conventional hybrid usually just changes the battery state-
of-charge by a few percent of the total energy capacity. As a result of 
these efforts, the NiMH battery packs in current hybrid vehicles are 
expected to last the life of the vehicle.
    The battery pack must be many times larger for a plug-in hybrid, 
even with just a 20-mile electric range. This adds thousands of dollars 
to the initial price of the vehicle, not to mention the impact the 
extra batteries have on weight and interior space. Further, the battery 
pack is now subjected to deep discharge cycles during electric-only 
operation and to much higher electrical loads and temperatures to 
maintain performance. This will cause much more rapid deterioration of 
the battery pack, likely requiring replacement of the battery pack at 
least once during the vehicle life.
    The lithium-ion battery is being promoted by some as the answer to 
these challenges. Lithium-ion has the promise to increase energy and 
power density compared to NiMH, perhaps by as much as 100 percent, 
which would reduce the weight and size impacts. However, despite 
intense development of Lithium-ion batteries for many years, durability 
has not been proven, they are more susceptible to damage than NiMH, and 
they do not perform well in cold or hot environments. Additionally, 
Lithium-ion batteries are expensive and may not offer significant cost 
savings compared to NiMH batteries.

C. Cost Effectiveness Challenge

    Let's examine the real world economic problem posed by the battery 
storage issue using a specific example to help illustrate the issues. 
According to statements made by Mark Duvall of EPRI at the SAE 
Government/Industry Meeting on May 10, about 40 percent of the duty 
cycle of a plug-in hybrid should be electric-only operation. For a 
typical vehicle lifetime of 150,000 miles, this means that about 60,000 
miles will be accumulated while the battery is being charge depleted. 
For a vehicle with an all-electric range of 20 miles, this requires 
that the battery pack be able to tolerate 3,000 deep discharge cycles 
without significant energy or power storage deterioration. Note that 
assumptions about the proportion of operation in charge-depleting mode 
directly affect the number of deep discharge cycles that the battery 
pack must be able to tolerate. For example, if the vehicle operates in 
charge-depleting mode 60 percent of the time, the battery pack will be 
used for 90,000 miles and it must be able to tolerate 4,500 deep 
discharge cycles or it will need to be replaced. 3,000 deep discharge 
cycles is the current goal for Lithium-ion batteries, but it has not 
been proven yet, especially under the range of temperatures and 
operating conditions experienced in the real world.
    For our example, let us assume that the starting point for a plug-
in hybrid is the Toyota Prius. Real world fuel economy for the Prius is 
in the 45-50 mpg range. To be conservative, we will assume 45 mpg. 
Thus, for 150,000 miles, the Prius will use 3,333 gallons of fuel. If 
40 percent of the mileage on the Prius is in charge-depleting mode, 
then the fuel savings will be 40 percent of 3,333 gallons, or 1,333 
gallons.
    Even at $3 per gallon, the fuel savings for a plug-in vehicle like 
the Prius is only $4,000 over the average vehicle lifetime. After 
factoring in the electricity cost to recharge the battery pack, which 
would be at least $1,000, the net savings to the consumer is less than 
$3,000. Even if the Lithium-ion battery meets all of its targets, the 
incremental cost of just the additional batteries in high volume 
applications would be close to the lifetime fuel savings. This ignores 
the tradeoff between electric motor size and emissions, the performance 
penalty from the additional weight of the batteries, the space needed 
for the batteries, the higher deterioration rate and increased risk of 
battery replacement due to the deep discharge cycles, and the cost of 
safe off-board charging systems. From a manufacturers' and customers' 
point of view, there is no business case unless fuel prices rises to 
substantially more than $3 per gallon, fuel shortages occur, plug-in 
hybrids are heavily subsidized, or there is a breakthrough in energy 
storage. By far the most important action the government can take is 
research into improved energy storage.
    Until improved batteries can be developed with lower cost and 
better durability, there is little need to assess customer 
acceptability or conduct vehicle demonstration projects. However, 
customer discounting of fuel savings is a potential long-term barrier 
that eventually will need to be overcome. While some customers value 
fuel savings more highly, the average new vehicle customer only values 
the fuel savings for roughly his or her period of ownership, or about 
50,000 miles. This means that, at $3 per gallon, the average new 
vehicle customer would only value a plug-in hybrid at about $1,000. Of 
course, this would change dramatically if fuel shortages were to occur. 
The government may also wish to explore ways to incentivize the full 
useful life savings to manufacturers or customers.

D. Environmental Considerations

    From a societal point of view, there are additional issues with 
criteria pollutants and CO<INF>2</INF> emissions. How the electricity 
is generated will have a significant impact on benefits other than 
energy security. If coal is the primary source of the energy, criteria 
pollutants and CO<INF>2</INF> emissions will be higher with the plug-in 
hybrid. If renewable sources of energy are used to generate the 
electricity, plug-in hybrids can offer benefits for clean air and 
global warming. Another societal issue is end-of-life battery disposal. 
This is not likely to be a problem for NiMH batteries, as the raw 
materials are very valuable and recyclers will be active in setting up 
systems to recycle the batteries. However, it may be a problem for 
Lithium-ion batteries, where the raw materials are far less valuable. 
These are all additional areas for research.

E. Additional Research Is Needed

    Honda strongly supports the research program outlined in the House 
discussion draft of the Plug-In Hybrid Electric Vehicle Act of 2006. 
Hybrids, including plug-in hybrids have a great deal of promise and 
their potential issues should be actively investigated for solutions, 
especially energy storage. The outlined research program is the best 
way for the Federal Government to accelerate the development and 
deployment of plug-in hybrid electric vehicles.
    Fortunately, the Department of Energy is already developing plans 
to identify plug-in hybrid research needs and solutions. The Department 
of Energy held a Workshop on Plug-in Hybrid Electric Vehicles on May 4-
5, 2006 to discuss issues and questions on plug-in hybrid research 
needs. The paper issued in advance of the workshop presented an 
excellent outline of the advantages of plug-in hybrids, the challenges 
faced, especially energy storage, the technical gaps, and the questions 
that need to be answered. The paper is an excellent resource for 
planning future research and development for plug-in hybrids and should 
be read by everyone interested in promoting plug-in hybrid vehicles. 
The Department of Energy's work in this area should be supported and 
funded by Congress.
    I appreciate the opportunity to present Honda's views and would be 
happy to address any questions you may have.

                       Biography for John German
    John German is Manager of Environmental and Energy Analyses for 
American Honda Motor Company. His responsibilities include anything 
connected with environmental and energy matters, with an emphasis on 
being a liaison between Honda's R&D people in Japan and regulatory 
affairs.
    Mr. German has been involved with advanced technology and fuel 
economy since joining Chrysler in 1976, where he spent eight years in 
Powertrain Engineering working on fuel economy issues. Prior to joining 
Honda eight years ago, he spent 13 years doing research and writing 
regulations for EPA's Office of Mobile Sources' laboratory in Ann 
Arbor, MI. Mr. German is the author of a variety of technical papers 
and a book on hybrid gasoline-electric vehicles published by SAE. He 
was the first recipient of the recently established Barry D. McNutt 
award, presented annually by SAE for Excellence in Automotive Policy 
Analysis.
    He has a Bachelor's degree in Physics from the University of 
Michigan and got over halfway through an MBA before he came to his 
senses.

    Chairwoman Biggert. Thank you very much, Mr. German.
    Dr. Ricketts, you are recognized.

STATEMENT OF DR. S. CLIFFORD RICKETTS, PROFESSOR, AGRICULTURAL 
   EDUCATION, SCHOOL OF AGRIBUSINESS AND AGRISCIENCE, MIDDLE 
                   TENNESSEE STATE UNIVERSITY

    Dr. Ricketts. Thank you for the opportunity to be here 
today.
    I want to focus my comments on flex-fuel. It was mentioned 
in the draft legislation, but it--and you mentioned it, I 
think, once in your opening statement, so all the things that I 
say today is going to pyramid in to flex-fuel.
    I believe the help with the high fuel costs lies in plug-in 
flex-fuel, and I emphasize flex-fuel hybrid vehicles. I believe 
the legislation is on track, but I believe it can do more.
    Now let me explain my rationale.
    I have been working with alternative fuel since 1978. In 
the early 1970s and 1980s, we did an ethanol engine, ran 
ethanol from corn. Our whole objective was to make the American 
farming energy independent in the time of a national crisis. 
That is why an ag. boy is here against these heavyweights today 
from the agricultural production point of view.
    After we ran an engine off of corn, our next endeavor was 
to run engines off cow manure. Well, that was from methane. 
That actually led to my next goal, and that was running engines 
off of water. On October 14, 1987, we ran our first engine for 
eight seconds off of hydrogen from water. Four years later, we 
set the land speed record at the Bonneville Salt Flats with our 
hydrogen vehicle and held it for several years. Then we ran an 
engine off soybean oil, now called soy diesel. And actually, I 
didn't know it was called that in 1991, but we had a flex-fuel 
vehicle in 1991 that ran off hydrogen, propane, and gas, or a 
combination of any of those fuels. And then one of our latest 
things was to run an electric vehicle.
    However, my ultimate goal has always been to run engines 
off water, specifically sun and water.
    Now that brings us up to where we are today, and let me 
talk about the plug-in flex-fuel vehicle, because I think this 
legislation, from a personal point of view, brings my research 
into focus from the last 25 to 30 years. Everything that we 
have done so far can be pyramided into this flex-fuel plug-in 
hybrid vehicle. I believe we can have some legislation, again, 
by beefing up the flex-fuel part. It was only eluded to in a 
couple of places, so let me briefly say that what we are doing 
now, my vision for the future and why flex-fuel is important to 
be added to this legislation.
    Now Representative Gordon mentioned earlier that we are 
running engines off of sun and water. Let me tell you how we 
are doing this.
    We installed a 10-kW cylinder unit through the Green Switch 
program with Tennessee Valley Authority. It goes into the 
Murfreesboro Electric Gridline, which is under the umbrella of 
TVA. Now with the aide of automatic readings and computers and 
calculations and so forth, all of the electricity is monitored. 
Since the unit was started March 9, 2004, that little unit has 
produced over 28,000 kilowatts. The system works analogous to 
the banking system. The energy is stored in the bank for use at 
any time, day or night, sunny or cloudy. And when the electric 
component plug-in of the electric hybrid is charged, the 
kilowatts used are counted through another meter. So in other 
words, the electricity is taken from the bank, and an immediate 
balance is also available by comparing the difference in the 
input meter and the output meter. The present kilowatt balance 
is 24,000.
    Now, when I am starting to do this, I wanted to run the 
electric component directly off the solar unit. I wanted to run 
the hydrogen component directly off the solar unit, but I was 
talked out of it, and I am glad I was. I would have lost 90 
percent efficiency.
    Chairwoman Biggert. Dr. Ricketts, your microphone seems to 
be cutting out. Maybe if you could just turn it, this part of 
it, up a little bit more. No, like this. Yeah, and then pull it 
a little bit closer to you.
    Dr. Ricketts. Okay.
    Chairwoman Biggert. Okay.
    Dr. Ricketts. How are we doing now? Okay.
    People think you have to have a solar panel on a vehicle 
for it to be a solar vehicle. Actually, you don't. As explained 
earlier, once you bank it into the grid, once the vehicle is 
charged, the electricity is taken from the bank. Let us say we 
have to travel to an adjoining county that has a different 
electric co-op. This hasn't been developed. This is creative 
stuff. By using a barcode system, the electric charge of 
kilowatts could be used to transfer the visited electric co-op 
to your home-based co-op. The amount would be charged against 
you, or taken from your bank. Now this can work for solar. It 
can work for wind. It can work for some other alternative 
fuels.
    Now the same process works with the hydrogen or water 
component. A similar procedure occurs when the hydrogen is 
produced. The kilowatts needed to power the electrolysis is 
metered. The banked electricity powers the electrolysis unit 
which separates the hydrogen from the water. It goes through 
several processes that I won't bore you with, but eventually, 
it is compressed and fills an on-board 5,000 psi carbon wrapped 
tank.
    So by using the system described above, vehicles are driven 
only with sources of sun and water.
    So in conclusion, by adding the flex-fuel part of the 
legislation to the plug-in, we could use gasoline, that is what 
we are trying to get away from obviously, a plug-in, a solar, a 
wind, or ethanol, or hydrogen with this legislation that we are 
proposing. The thing that I couldn't figure out was how to run 
an internal combustion spark-ignited engine off soy diesel. So 
with the flex-fuel hybrid technology in place as our near 
innovative technologies come on of sun and hydrogen, and as 
they continue to gain momentum, the infrastructure, the vehicle 
technology will already be in place.
    Thank you.
    [The prepared statement of Dr. Ricketts follows:]

               Prepared Statement of S. Clifford Ricketts

              Alternative Fuel: Past, Present, and Future

              (Plug-in Flex-Fuel Hybrid Electric Vehicles)

PAST

    Work on alternative fuel began at Middle Tennessee State University 
(MTSU) in 1979. The work was spurred by the fact that the Iranians had 
taken hostages, and OPEC was attempting to control the world's fuel 
(petroleum) supply. Out of frustration, the author and his students 
started the conquest for the American farmer to be energy independent 
in the time of global crisis.
    Running an engine off corn (ethanol) was the first challenge. 
Although many other persons or groups were doing similar research 
making ethanol, it was the persistency of the MTSU team that eventually 
led to the building and running of an ethanol-powered truck that ran 
over 25,000 miles on pure ethanol. Presentations were made at the 1982 
World's Fair and TVA's 50th Anniversary Barge Tours.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Having succeeded in building an ethanol-powered vehicle, the next 
challenge was to run an engine off cow manure (methane). Once hydrogen 
sulfide and carbon dioxide are removed, the gas which remains is 
CH<INF>4</INF> (natural gas). Natural gas engines were fairly common, 
and several engines were reviewed that ran off methane. It was found 
that methane production was viable and methane digesters were available 
in selected large dairy farms.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The knowledge gained in the study of methane production lead to the 
ultimate challenge; to run an engine off hydrogen from water. On 
October 14, 1987, the MTSU team ran an engine for eight seconds off 
hydrogen from water. The next day they ran the eight horsepower engine 
for two minutes.
    Since that time, the author and his students have run tractors, 
cars, trucks, and stationary engines off hydrogen. The MTSU team was 
invited to the world's first hydrogen race at the 1991 Bonneville Speed 
Trials at the Great Salt Flats in Wendover, Utah, where they set the 
world's land speed record (timed only) for a hydrogen vehicle. 
Researchers at MTSU proceeded to build another engine to run off pure 
hydrogen. The MTSU team entered the vehicle in the Southern California 
Timing Association (SCTA) World Finals on October 18, 1992, at the 
Bonneville Salt Flats in Wendover, Utah, and set a new world land speed 
record for pure hydrogen-fueled vehicles. The record stood for several 
years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The next fuel to be tested was soybean oil. An Allis-Chambers 
diesel tractor engine was placed in a 1975 Corvette. The author and his 
students placed fourth of 40, behind two entries by NASA and one from 
American Honda, in an alternative fuel road rally sponsored by the 
Florida Solar Energy Commission and others. The rally started at Cape 
Canaveral and ended at Disney World. A clogged fuel line resulted from 
the decomposition of soybean oil. Soybean oil breaks down after six 
months.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


PRESENT

    The lifetime goal of the MTSU research is to run engines off sun 
and water (hydrogen from water). This is presently happening at Middle 
Tennessee State University. An electric/hydrogen hybrid truck is 
presently being developed. The electric component (plug-in) is 
complete, and the internal hydrogen combustion engine generator set is 
complete. The range and on-board charging system is in the process of 
being tested.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The following explains how to run engines off sun and water.
Sun
    A 10-kilowatt unit was installed. The unit was installed by Big 
Frog Mountain Energy. Through the Green Power Switch program with the 
Tennessee Valley Authority (TVA), the electricity produced by the solar 
array goes into the Murfreesboro Electric Grid Lines within TVA. With 
the aid of automatic computer readings and calculations, all the 
electricity produced is monitored. Since the 10-kilowatt solar unit was 
started March 9, 2004, over 28,000 kilowatts have been produced.
    The system works analogously to the banking system. The energy is 
stored in the ``bank'' for use at any time--day or night, sunny or 
cloudy. When the electric component (plug-in) of the electric hybrid 
truck is charged, the kilowatts used are counted through another meter. 
In other words, the electricity is taken from the bank and an immediate 
balance is also available by comparing the difference in the input 
meter and output meter. The kilowatt balance is presently over 24,000. 
This is enough stored kilowatts to drive from New York City to Los 
Angeles, approximately four road trips. The ``plug-in'' component of 
the hydrogen/electric hybrid truck uses approximately one kilowatt per 
mile.
Water (Hydrogen)
    A similar procedure occurs when the hydrogen is produced. The 
kilowatts needed to power the 40 cubic foot per hour electrolysis unit 
is metered. The unit is a Proton 40 electrolysis unit from the Proton 
Energy Company. The banked electricity powers the electrolysis unit 
which separates the hydrogen and oxygen from the water. The hydrogen is 
then temporarily stored in two 500-gallon tanks at 200 psi. Another 
system, constructed by General Hydrogen, Gallatin, Tennessee (U.S. 
headquarters), compresses the hydrogen to fill the 4-K cylinders at 
6,500 psi. Using a cascading system, a 5,000 psi (4.2 kilogram) 
hydrogen tank is filled on-board the hydrogen electric/hybrid truck. 
(NOTE: We also have three hydrogen internal combustion engine cars 
which can run off sun and hydrogen from water.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    By using the system just described, vehicles are being driven with 
the only power sources being sun and water. Please note that both the 
electric component of the truck and the hydrogen component of the truck 
could be powered directly from the solar unit. However, approximately 
90 percent of the electricity produced would be lost. By banking the 
electricity through the grid, the solar unit is working and saving any 
time the sun is shining and somewhat when it is cloudy. Time has not 
permitted energy cost calculations as of today.

FUTURE

    I believe the alleviation of the future U.S. energy crisis lies 
within Plug-in Flex-Fuel Hybrid Vehicles. I will explain my rationale. 
At Middle Tennessee State University, as mentioned before, we are 
running engines off sun and/or water. We are working on a vehicle that 
runs off most any fuel. The vehicle is a plug-in hybrid but not in the 
sense that modern hybrids are once they have the proper adaptation 
kits. Here is my vision for the future, with the versatile use of 
PHEVs.

    *Option 1 (Plug-in wall outlet)--The plug-in hybrid can be driven 
on short trips of 20-40 miles simply by plugging into either a 110- or 
220-watt outlet. You get a quicker and deeper charge with 220 current.

    *Option 2 (Make it a solar car)--We are doing this at Middle 
Tennessee State University. People think that you have to have a solar 
panel on a vehicle for it to run off the sun. This is not true. As 
explained earlier, the 10-kilowatt solar unit that we have installed at 
MTSU produces electricity and stores it (``banks it'') into the 
electric grid. Once the vehicle is charged, the stored electricity is 
taken from the ``bank.'' Let us say that we have to travel to an 
adjoining county that has a different electric cooperative. By using a 
bar code system, the electrical charge or kilowatts used could be 
transferred from the visited electric cooperative to your home-based 
electric cooperative. The amount would be charged against, or taken 
from, your ``banked'' amount. For example, the University is a member 
of the Murfreesboro Electric Cooperative, but my home residence is 
served by Middle Tennessee Electric. Nashville (32 miles away) is a 
part of Nashville Electric Service. Electric plug-ins could be 
installed in selected parking lots with the appropriate bar code 
system. This way, people could drive their cars off solar energy 
without having a solar unit on board the vehicle. Obviously, the same 
principle would work with wind generators.

    *Option 3 (Gasoline)--For trips with a range over 20-40 miles, the 
internal combustion engine starts charging the system and the vehicle 
works like a normal hybrid. Even though we are using gasoline, our 
electric utilities are saying the electricity to move a plug-in hybrid 
electric vehicle (PHEV) down the road costs about one-third the cost of 
the equivalent gasoline at today's prices.

    *Option 4 (Ethanol--E-85)--A flex-fueled vehicle that uses spark 
plugs can run off practically anything except diesel fuel and any oil-
based alternative fuels (soybean oil, cooking oil, etc.). Ford Motor 
Company has the Ford F-250 Super Chief that can run off hydrogen, 
gasoline, or E-85 ethanol fuel. Option 4, ethanol, would be used as an 
alternative to gasoline.

    Using E-85 instead of gasoline is also good for the environment 
because it generates 30 percent less carbon monoxide and 27 percent 
less CO<INF>2</INF> than a comparable gallon of gasoline, and most of 
that CO<INF>2</INF> is carbon cycle neutral because it is derived from 
plants which need CO<INF>2</INF> to grow. (E-85 generates 17.06 pounds 
of CO<INF>2</INF> to create 15,500 BTUs compared to the 23.95 pounds 
for gasoline.) (www.evworld.com/electrichybrid.cfm)

    *Option 5 (Hydrogen from water, separated by the sun)--This process 
was explained earlier. I really believe that the fuel of the future is 
hydrogen and sun. (NOTE: From an agriculture point of view, I am for 
ethanol from corn and soybean oil as fuels. However, realistically, I 
believe they are only short-term solutions. I believe the price of corn 
and soybeans in five to ten years will become so expensive due to 
agriculture economics (supply and demand) that these products will be 
cost prohibitive as a fuel stock. I don't have a ``handle'' on the 
potential of switch grass and other cellulose materials.)
    With the flex-fuel hybrid, the automotive technology will already 
be in place while the hydrogen technology continues to gain momentum. 
Realistically, sun and water are the most viable fuel alternatives. 
Once they are gone, we will have no need for fuel anyway.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Answers to Specific Questions About PHEVs

1.  What major research, development, and demonstration work remains on 
plug-in hybrid electric vehicle technologies? How should this work be 
prioritized?

    The biggest obstacles are conversions of the existing hybrids to 
become plug-in hybrids. The cost of most conversions listed on the 
Internet was approximately $10,000. It seems reasonable that if the 
automotive companies engineered the cars as PHEVs, the cost should not 
be much more than the price of conventional hybrids currently coming 
off the assembly line.
    I believe the priority on PHEVs should be developing flex-fuel 
PHEVs. The rationale for this was given earlier. There are so many 
options on alternatives to the purchase of foreign oil with flex-fuel 
PHEVs. There are also environmental and other implications.

2.  What are the largest obstacles facing the widespread commercial 
application of plug-in hybrid electric vehicles, and what steps need to 
be taken to address these hurdles (batteries, infrastructure, consumer 
preferences, automotive inertia, cost-competitiveness, etc.)?

    Three issues need to be mentioned:

    First, the development of the perfect battery is always an issue 
and a challenge. If the perfect battery had already been developed, it 
would have a range of 300-350 miles with a 15-minute charging time at 
an affordable cost. Obviously, we are not there. However, nickel 
cadmium, nickel-metal hydride batteries, and lithium-ion are very 
adaptable and would work quite well with PHEVs. One battery engineer 
told me to give him the range needed and he could build the battery. On 
the other hand, the cost would probably be prohibitive.
    The second issue would be cost competitiveness. Presently, hybrids 
are around $4,000 more than an equal counterpart. A PHEV would be 
around $6,000 more than a regular car. It seems that a flex-fuel PHEV 
would be even higher, but I have no data for proof.
    The third issue would be infrastructure. Charging at home would not 
be a problem; but charging at work, while shopping, or while on simple 
leisure trips could pose a problem. Coin-operated charging meters would 
need to become commonplace. While visiting the University of Alaska at 
Fairbanks last summer, I noticed the electrical outlets at nearly every 
parking spot. These were a necessity for block heaters on the vehicles 
with the ^50<SUP>+</SUP> temperatures in the winter. Yet, it was a part 
of the infrastructure in Fairbanks, Alaska.

3.  How does the Federal Government support the development of plug-in 
hybrid electric vehicles technologies? What can the Federal Government 
do to accelerate the development and deployment of plug-in hybrid 
electric vehicles?

    I am not aware of any direct federal funding of plug-in electric 
hybrids. Indirectly, converted PHEVs have been at U.S. Energy 
Department-sponsored ``Future Truck'' competitions. Also, General 
Dynamics built the U.S. Marine Corps' diesel-electric PHEV-20 HUMVEE.
    The Federal Government can offer grants to develop a more economic 
conversion kit. Secondly, automotive companies need some incentive to 
build PHEVs. Thirdly, customers that buy PHEVs or flex-fuel PHEVs could 
be offered a tax credit between the difference in cost of a regular 
automobile and a PHEV or flex-fuel PHEV.

4.  Does the discussion draft address the most significant technical 
barriers to the widespread adoption of plug-in hybrid electric 
vehicles?

    Yes. However, I do not believe we should overlook the internal 
combustion engine for hydrogen. Hydrogen can work with a flex-fuel 
vehicle. Fuel cells are great, but the cost makes them a non-issue for 
several years. The minimum cost for any fuel cell strong enough to 
power a highway vehicle would be $55,000 plus the price of the vehicle. 
Presently, the cost of construction for a fuel cell is around $700 per 
kilowatt (1.2 horsepower) compared to $50 per kilowatt for an internal 
combustion engine.

5.  Would commercial applications of PHEVs be delayed by incorporating 
flexible fuel capabilities?

    I suspect that the commercial applications of PHEVs might be 
delayed a year or two. As stated earlier, Ford Motor Company already 
has a flex-fuel vehicle and a hybrid. I suspect other manufacturers are 
close behind. Since the present hybrids have to be redesigned and 
engineered to offer the plug-in options, it may take the same amount of 
time to develop their flex-fuel vehicle hybrids.

                   Biography for S. Clifford Ricketts

    Dr. S. Cliff Ricketts is a Professor of Agricultural Education and 
Acting Director in the School of Agribusiness and Agriscience at Middle 
Tennessee State University, Murfreesboro, Tennessee.
    Dr. Ricketts has been involved with alternative fuel research since 
1978. He and his students have designed and built engines powered from 
a variety of sources, including ethanol, methane, soybean oil, 
hydrogen, solar/electric, and hydrogen/electric hybrid.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairwoman Biggert. Thank you very much, Dr. Ricketts.
    Now Dr. Santini, who--are you still living in Downers 
Grove?
    Dr. Santini. I am in Westmont now.
    Chairwoman Biggert. Okay. You are still in my district, 
so----
    Dr. Santini. Right.
    Chairwoman Biggert.--I am glad for that.
    Thank you.
    You are recognized for five minutes.

 STATEMENT OF DR. DANILO J. SANTINI, SENIOR ECONOMIST, ENERGY 
 SYSTEMS DIVISION, CENTER FOR TRANSPORTATION RESEARCH, ARGONNE 
                      NATIONAL LABORATORY

    Dr. Santini. Thank you.
    Madame Chairwoman, Representative Honda, Members of the 
Subcommittee, thank you very much for your invitation to 
testify.
    I respond to your request to answer several questions and 
discuss the draft bill the Plug-In Hybrid Electric Vehicle Act 
of 2006.
    Your first question was what major research, development, 
and demonstration work remains on plug-in hybrid electric 
vehicle technologies, and how should this be prioritized.
    I believe that the highest priority is that Congress and 
the Department of Energy make a long-term commitment to 
research and development of lithium-ion batteries, in 
particular, and energy storage, in general, with the focus on 
needs of plug-in hybrids. The ``Discussion Issues and 
Questions'' white paper distributed at the Department of 
Energy's May 4-5 workshop on plug-in hybrid electric vehicles, 
which I have included with my written testimony, stimulated 
discussion of plug-in priorities. The participating national 
and international experts have provided excellent guidance on 
research priorities. The consensus view of participants was 
that plug-in hybrids belong in the research portfolio of the 
Federal Government.
    The second question was what are the largest obstacles 
facing the widespread commercial application of plug-in hybrid 
electric vehicles, and what steps need to be taken to address 
these hurdles.
    I quote the DOE workshop white paper ``battery technology 
could be a showstopper for plug-in hybrids.'' Lithium-ion 
batteries are superior to nickel metal hydride in terms of 
specific energy and specific power, but are not yet competitive 
in cost per kilowatt hour per unit of energy. Because of 
increasing materials cost for nickel metal hydride batteries 
and steady power increases and cost per kilowatt reductions, 
lithium-ion batteries may soon be used in hybrids, but low 
costs per kilowatt hour are needed for plug-in hybrids to 
succeed. Simple adaptation of current parallel hybrids will not 
allow consumers to drive all electrically with performance 
suitable for universal use. Top all-electric operation speeds 
would not match current urban and highway test speeds. The need 
to fully deplete batteries will reduce battery life relative to 
conventional hybrids. There are multiple component alterations 
and control systems adaptations possible to eliminate or reduce 
these limitations but at a cost. Perhaps these would increase 
marketability, perhaps not.
    A key question is whether we should ever expect or require 
a plug-in hybrid to operate all electrically on current test 
cycles. If a lesser capability satisfies consumers and 
significant oil savings and environmental benefits could be 
realized, then regulation and legislation should be adapted to 
allow this to happen. DaimlerChrysler and the Electric Power 
Research Institute plan to evaluate intermittent engine 
operation accompanying electric charge depletion, which would 
allow electricity to replace gasoline and diesel fuel without 
sacrificing vehicle performance. Perhaps this type of charge 
depletion strategy with top all-electric speeds below 55 miles 
an hour would be the most attractive approach to cost-
effectively achieve oil savings nationwide.
    But this option cannot meet present California Air 
Resources Board minimum zero-emissions vehicle emissions credit 
requirement that vehicles operate all electrically for 10 or 
more consecutive miles on the federal-city test--cycle test. 
That test requires a top all-electric speed of 55 miles an 
hour.
    Representative Honda had a question that my next paragraph 
addresses.
    For decades, infrastructure will be adequate to support a 
far larger market penetration to plug-in hybrids than is 
likely. Interim reports by colleagues at three National 
Laboratories and Mark's work at the Electric Power Research 
Institute all imply that national electric infrastructure, both 
power plants and grid, has overnight charging capacity far in 
excess of plausible near-term needs.
    When this eventually changes, the industry can easily and 
smoothly adapt. There may be some regional exceptions, but not 
many. Hypothetical mass success of plug-ins has been estimated 
by two National Labs to increase electric generation needs only 
a few percent and also by colleagues of Mark's at the Electric 
Power Research Institute.
    However, it is desirable for utilities everywhere to 
promptly adopt overnight charging rate options for plug-ins. 
Automakers need and deserve this reassurance.
    The problem for domestic automakers will be scarcity of 
resources, not resistance to plug-in research, development, and 
demonstration. They will want to see evidence of success in 
battery technology. If they see it, with rate structure 
encouragement from electric utilities, I believe they would 
develop plug-in hybrids. I believe that initial development of 
plug-in hybrids should focus on switching from nickel metal 
hydride to lithium-ion battery packs in existing and eminent 
full hybrids, providing 10 to 20 miles of urban electric range. 
Chargers should allow inexpensive plugging in using 110-volt 
circuits, which are standard in modern houses. Regulations or 
incentives requiring significantly more electric range could 
delay development.
    The third question is how does the Federal Government 
support the development of plug-in hybrid electric vehicle 
technologies and what can the Federal Government do to 
accelerate the development and deployment of plug-in hybrid 
electric vehicles.
    The authorizations of spending and directions to include 
research on plug-in hybrids contained in last year's Energy 
Policy Act were an excellent first step. Appropriation of funds 
to allow the work authorized is desirable. I anticipate, as 
mandated plug-in studies are completed, the wisdom of a 
significant plug-in program will be demonstrated. Studies being 
promoted by the Energy Policy Act can prove very valuable by 
validating potential plug-in benefits. Proponents see promising 
implications for oil savings, greenhouse gas reductions, zero-
emissions capability, energy savings, electric utility system 
efficiency, and emergency services. I expect careful 
documentation of reasons for these implications to accelerate 
emergence of consensus and development and deployment.
    The fourth question is does the ``Discussion Issues and 
Questions'' paper in the prior DOE meeting address the most 
significant technical barriers to the widespread adoption of 
plug-in hybrid electric vehicles.
    I do believe that the Department of Energy's workshop 
``Discussion Issues and Questions'' paper and affiliated 
morning presentations properly identified the most significant 
technical and cost barriers. However, a number of excellent 
comments and suggestions were developed by experts there, which 
will lead to desirable modifications and refinements.
    Question five is if a standard zero----
    Chairwoman Biggert. Dr. Santini, if you could, sum up. I am 
sure we will get to those other questions.
    Dr. Santini. Okay.
    Chairwoman Biggert. Thank you.
    Dr. Santini. I will move to my comments on the Plug-In 
Hybrid Electric Vehicle Act of 2006.
    I provided some suggestions on wording and several 
instructions on plug-in grants. I like the overall content and 
structure of the bill. I recommend that plug-ins be allowed to 
qualify with less than 20 miles of all-electric range. I 
recommend rewording to allow flexibility in establishing the 
all-electric driving schedule required to qualify at the 
minimum range. I like the decline of per-vehicle grants over 
time. I suggested that per-vehicle grants in any given year be 
altered to create a sliding scale, increasing in magnitude with 
increasing all-electric range capability. I suggested much 
higher per-vehicle grants through about 2010 with the limit of 
50 prototype vehicles per manufacturer, and then after 2010, I 
suggested that grants be provided to individual manufacturers 
only if 10,000 or more plug-ins were produced. I noticed that 
the funding authorization level of $200 million per year is 
comparable to the President's Hydrogen Fuel Initiative, but I 
defer to battery and electric drive experts concerning 
judgments on how much money is necessary.
    I do understand the desire to authorize a prompt 
significant expansion in plug-in research, development, and 
demonstration, and since I believe results of ongoing studies 
will be quite positive, I am not inclined to ask the 
Subcommittee to await further study.
    [The prepared statement of Dr. Santini follows:]
                Prepared Statement of Danilo J. Santini

Introductory remarks

    Madame Chairwoman, Representative Honda, and Members of the 
Subcommittee, it is my pleasure to submit this written testimony in 
support of my more brief oral testimony concerning plug-in hybrid 
electric vehicles. I respond to the questions posed in your letter of 
invitation and provide requested discussion of a draft of the bill 
``Plug-In Hybrid Electric Vehicle Act of 2006.'' I believe that my 
comments on the discussion draft bill will be more clearly understood 
if they come after my responses to the questions. Note that the 
substance of my answers to the questions was developed before I saw the 
draft legislation.

1.  What major research, development, and demonstration (RD&D) work 
remains on plug-in hybrid electric vehicle technologies? How should 
this work be prioritized?

    In recent presentations at meetings organized by the Society of 
Automotive Engineers in January and May, I included very similar lists 
of major research needs, without providing an explicit priority 
ordering. However, it was not a coincidence that lithium ion battery 
research and development was first on the list. In my latest 
presentation, I listed lithium-ion battery cost, longevity, and safety 
as the key priorities.
    Concerning the setting of priorities, I participated in the May 4-5 
Workshop on Plug-in Hybrid Electric Vehicles at the Department of 
Energy. This workshop's purpose was to provide expert guidance to DOE 
on the priorities for the planned plug-in hybrid research program. 
Before that workshop a ``Discussion Issues and Questions'' paper was 
circulated to participants to stimulate discussion. I enclose that 
document as supporting written testimony. Although results of that 
workshop remain to be documented, I think the consensus view of 
participants was that plug-in hybrids belong in the research portfolio 
of the Federal Government and Department of Energy. I also anticipate 
that the well-chosen national and international experts will provide 
excellent guidance on research priorities.
    I am confident enough about the potential of plug-in hybrid 
technology to recommend that Congress and DOE make a long-term 
commitment to research and development of lithium-ion battery chemistry 
R&D in particular, and energy storage in general, with a focus on needs 
of plug-in hybrids. I am also optimistic that the workshop participants 
will agree with my opinion that a second high priority is the conduct 
of a comprehensive assessment to determine where plug-in hybrid 
technology should be in the current RD&D portfolio of federally 
supported advanced 21st Century transportation powertrain and fuel 
options. Included in this assessment must be an examination of 
continuation along the present path. Costs and environmental effects of 
such options as oil shale, coal-to-liquids, natural-gas-to-liquids, 
heavy oil, deepwater oil, and arctic oil should be compared with those 
of improved conventional powertrains, hybrids, plug-in hybrids, and 
fuel cell hybrids. Ethanol and hydrogen should be evaluated as possible 
fuels for any of these powertrain options.
    In my professional judgment ``demonstration'' is a very important 
part of RD&D. Sustained, but steadily declining real subsidies for 
critical technologies are very valuable in creating a ``learning-by-
doing'' cost reduction path that cannot be obtained any other way. I 
believe that plug-in hybrids should remain on the Nation's list of 
critical transportation energy technologies for a long while. In 
effect, what government researchers think of as ``demonstration'' is 
often in reality the proper handing over of research and development to 
the private sector.

2.  What are the largest obstacles facing the widespread commercial 
application of plug-in hybrid electric vehicles and what steps need to 
be taken to address these hurdles? (batteries, infrastructure, consumer 
preference, automotive inertia, cost-competitiveness, etc.)

Batteries
    I quote the aforementioned white paper ``battery technology could 
be a show-stopper for plug-in hybrids.'' In fact, value to the customer 
is the crucial hurdle. Lithium-ion batteries have swept past nickel 
metal hydride battery technology in consumer electronics. This could 
happen in hybrid vehicles, but the challenges are great. Lithium-ion is 
clearly superior to nickel metal hydride in terms of gravimetric and 
volumetric specific energy and specific power, features that have 
allowed the packs to be ``dropped into'' spaces developed for less-
capable batteries and thereby enhance value to the consumer by 
extending operating time. ``Time is money'' as they say, so even though 
the cost per unit of energy stored ($/kWh) is presently higher for 
lithium-ion than nickel metal hydride, it is the runaway winner in 
consumer electronics. For plug-in hybrids, optimism about lithium-ion 
competing with nickel metal hydride batteries arises in part because 
the costs per unit of energy of nickel metal hydride batteries have 
gone up, as a result of rising materials costs. Switching battery 
chemistry because of increasing battery cost is not the way to build a 
quick mass market for hybrids, but may get potentially more attractive 
long-term battery chemistry into the plug-in hybrid market, which would 
be beneficial.
Cost-competitiveness
    The fundamental battery discoveries that enabled today's hybrids 
were achievement of specific power and longevity far in excess of the 
expectations of all battery experts that we surveyed in the mid-1990s. 
Further, the parallel hybrid powertrain allowed effective use of much 
less electric energy storage for hybrids than the 1990s experts 
anticipated. Effective use of very small amounts of energy allowed a 
narrow state-of-charge swing, which allows battery life to be extended 
dramatically. The experts we surveyed had anticipated a series hybrid 
powertrain that would cost more than an electric vehicle. Instead, the 
technology commercialized by the Japanese that succeeded was a parallel 
hybrid powertrain that costs far less than a comparable electric 
vehicle, and also costs less than a series hybrid. This commercial 
hybrid succeeds economically in part because there is no attempt to 
make the electric drive suitable for all-electric operation serving 
universal customer needs.
Consumer acceptance
    Therein are problems limiting consumer acceptance of the plug-in 
hybrid. Adaptation of current parallel hybrids will not allow consumers 
to drive all-electrically with performance suitable for universal use. 
The need to fully deplete batteries should reduce battery life relative 
to conventional hybrids. Top all-electric operations speeds would not 
match required current urban and highway test speeds. There are 
multiple ways to deal with these limitations, too numerous to mention 
here. All will add cost, but if adopted successfully could add 
significant consumer value and marketability to a plug-in hybrid 
concept.
    Nevertheless, a key question is whether we should ever expect or 
require a plug-in hybrid to operate all-electrically on our current 
test cycles. It may be far more cost effective to recognize that we 
cannot afford this capability and develop new test cycles legitimate 
for a totally new kind of vehicle. Test cycles are, after all, a 
reflection of the behavior of the technology being tested. If a 
combination of attributes of plug-in hybrids can be found that makes 
consumers more satisfied, then regulations and legislation should be 
adapted to allow this satisfaction to be realized.
    In the short-run, DaimlerChrysler is not attempting to make its 
plug-in hybrid Sprinter serve all needs when operating all-
electrically. Selection of the plug-in option by customers using all-
electric operation in slow stop-and-go driving may create a profitable 
niche market.
An alternative battery charge depletion strategy
    DaimlerChrysler and the Electric Power Research Institute also plan 
to evaluate intermittent electric operation with charge depletion, 
which would allow electricity to replace gasoline or diesel fuel use 
without sacrifice in vehicle performance. But this option cannot be 
guaranteed to provide the extremely low emissions that California Air 
Resources Board (CARB) regulators originally hoped for when creating 
its first emissions credit system for plug-in hybrids required to 
operate continuously in all-electric mode for 20 miles or more. Note 
that CARB has since modified the credit system to allow plug-in hybrids 
with 10 miles of all-electric range on the city test cycle to obtain 
credits. A sliding scale of increasing credits as range increases 
remains in CARB's plug-in credit system. I recommend a sliding scale of 
grants increasing with range in the draft legislation.
    For the Nation as a whole, where all-electric operation may seldom 
be needed for air quality purposes (many hybrids are already among the 
cleanest light duty vehicles), charge depletion with intermittent 
engine operation might be the most attractive approach to consumers. 
Such hybrids would still have to have emissions as low as for 
conventional vehicles. Charge depletion with intermittent engine 
operation could be implemented in places and at times when emissions 
would be low enough to cause no air quality deterioration.
Infrastructure
    Infrastructure is adequate to support a far larger market 
penetration of plug-in hybrids than is likely to be seen for decades. 
Interim reports from ongoing analyses by colleagues at Argonne National 
Laboratory, the National Renewable Energy Laboratory, Pacific Northwest 
National Laboratory and the Electric Power Research are all highly 
supportive of the argument that the electric infrastructure--both power 
plants and grid--is adequate on a national average basis to serve any 
plausible plug-in hybrid market for many years. There are likely some 
regional exceptions, but not many. Avoiding charging at times when the 
grid is at peak load is important, but I am confident that creative 
minds will readily determine how to avoid charging at critical times 
and places. I am also confident that such restrictions will prove 
quantitatively paltry relative to annual hours of charging and 
operation of plug in hybrids and to total national electricity 
generation.
    To enable any automakers to take advantage of the capability of our 
infrastructure we need to develop economically legitimate model off-
peak incentive rate structures and encourage utilities and Public 
Utilities Commissions across the Nation to adopt such rates. This is a 
critical path item that should be done as rapidly as possible; to 
assure automakers that the national power generation and distribution 
industry does support the introduction of plug-in hybrids. Commitment 
to retention of the rate structures for a long period is highly 
desirable.
Automotive inertia
    In my opinion, under the current fuel price environment, and given 
the level of political as well as geological uncertainty about 
availability of oil supplies, automotive inertia is no longer the 
primary problem constraining the development of plug-in hybrids. Time 
and scarce resources are now a problem. For U.S. motor vehicle 
manufacturers, the traditional preference of consumers for large 
vehicles means that a shift in oil and gasoline prices has a larger 
effect on U.S. producers than on vehicle manufacturers in competing 
nations. Losses of market share for large domestically produced 
vehicles occur at the same time that investment in production of more 
fuel efficient technology becomes increasingly desirable to U.S. 
consumers. This puts U.S. producers in a bind with respect to 
profitability and capability to develop new technology, even if they 
are willing.
    Because of limited resources, it seems less likely that U.S. 
automakers will be less likely to develop a plug-in hybrid in new 
purpose-built platforms such as the Prius. Instead, if trying to get a 
plug-in hybrid vehicle to market promptly, they would be likely to try 
to adapt the coming full hybrid powertrains and a vehicle containing 
them. DaimlerChrysler is adapting an existing vehicle platform's 
powertrain its plug-in Sprinter program. Adapting existing vehicle 
models implies limitations on battery space and all-electric range that 
could be provided. One recent paper study by Siemens implied that a 
lithium ion battery pack option in place of a nickel metal hydride pack 
could lead to a hybrid with between 10 and 20 miles of all-electric 
range, which is comparable to the expectations for the plug-in 
Sprinter. Such a capability would be consistent with adoption of cheap 
120V overnight charging, with little or no modification of the wiring 
in most modern houses, at least for the first plug-in hybrid in the 
household. Promotional information on a SAAB hybrid show-vehicle 
indicated that if a breakthrough in lithium-ion batteries were achieved 
in the next few years, their vehicle could use such a battery and 
operate all-electrically at speeds up to about 30 mph and travel 6-12 
miles in all-electric mode under those conditions.
    These are the kinds of plug-in hybrids that I would expect to 
initially emerge in the market. They may not pass the current 
California Air Resources Board's test to allow plug-in hybrid emissions 
credits, but they could offer many consumers in the United States the 
opportunity to decide whether they would like to have a capability to 
save gasoline by using electricity and perhaps drive to nearby 
destinations all-electrically.
    Consistent with my professional judgment that demonstration in 
market niches is a critical path step to widespread market success for 
a technology, I am encouraged by the possibility that such plug-in 
hybrids produced by original equipment automakers will emerge within a 
few years. An obstacle would be for the government to try to alter this 
evolutionary path and push the industry to develop plug-in hybrids with 
so much range and/or all-electric operations capability that major 
redesigns of vehicle platforms would be required to accommodate large 
enough battery packs to comply, and/or powerful enough electric motors.

3.  How does the Federal Government support the development of plug-in 
hybrid electric vehicle technologies? What can the Federal Government 
do to accelerate the development and deployment of plug-in hybrid 
electric vehicles?

    The authorizations related to research on plug-in hybrids contained 
in the Energy Policy Act of 2005 (EPACT05) are an excellent first step. 
Funds should be allocated to allow the work. Although I may be 
premature in saying this, since I'm a scientist committed to the value 
of peer review, I do believe that as mandated studies of plug-in 
hybrids called for in Section 705 are completed, the wisdom of focusing 
on plug-in hybrid vehicles will be strongly supported.
    In trying to prepare summaries of ongoing activities by the Federal 
Government and private sector for the recent meeting at DOE, I have 
been very encouraged by the response to EPACT05. From my perspective as 
an analyst EPACT05 appears to have caused a shift in thinking and 
priorities among the many key parties that must work cooperatively to 
make plug-in hybrids succeed. I have found the recent dialogue very 
valuable, in that it answers a lot of my questions and strengthens my 
opinion that this technology deserves a high priority in a portfolio of 
options to ensure that U.S. consumers continue to enjoy a high level of 
transportation services in the 21st Century, with far less 
environmental damage.
    I believe that the studies that EPACT05 is promoting can be very 
valuable by illustrating the potential benefits of plug-in technology. 
In the white paper we mentioned that the enthusiasm for plug-in hybrids 
that caused the legislation in EPACT05 arises from promising 
implications for oil savings, greenhouse gas reductions, timely and 
well placed zero emissions capability, energy savings, improvement in 
electric utility system efficiency, and provision of emergency 
services. In my opinion, comprehensive confirmation and testing of 
existing and emerging estimates, with thorough peer review, will 
reassure the public, electric utilities, automakers, government 
employees, elected representatives and the scientific community that 
there is significant merit to steady, deliberate pursuit of success for 
this technology. Although the process is often slow, I have always been 
optimistic that careful technology assessment can result in the most 
desirable technologies, and eliminate those that lack merit.
    Thus, I believe that Congress should allow RD&D to proceed for a 
while and then review the plug-in hybrid RD&D programs for a more 
detailed needs assessment, in light of the evolution of events (and 
battery technology) over the next few years.
    I am concerned about EPACT05 Sec. 706 (b) (2). Requiring a minimum 
of 250 miles per gallon of petroleum consumption to provide funding for 
plug-in hybrid demonstrations could cause adversely affect RD&D. In my 
view, for near-term technology, the only way to meet this requirement 
would be for the plug-in hybrid to also be able to run primarily on 
ethanol, probably as E-85.
    Emissions with charge depletion and intermittent engine operation 
may involve difficulties for current hybrid emissions control systems 
running on gasoline, much less E-85. Our experience with flex-fuel 
gasoline/ethanol vehicles whose emissions control system was originally 
designed for gasoline was that when adapted for E-85 they generally had 
higher emissions running on E-85 than on gasoline. Thus, forcing plug-
in hybrids to simultaneously develop an ability to use both electricity 
and E-85 might create a major ``show slowing'' impediment to 
implementation, requiring far more costly emissions control and 
implementation delays. I would emphasize that a plug-in hybrid is a 
multi-fuel vehicle, even if it does not have the ability to run the 
engine on an alternative fuel. Further, for many years hence the E-85 
fueling capability of conventional powertrain flex-fuel vehicles 
already in and entering the market will greatly exceed the quantities 
of E-85 available. Thus the EPACT Section 705 (b) (2) requirement 
satisfies no useful near-term commercialization need. In my opinion, 
this requirement should be repealed. I am pleased to see that this 
requirement does not carry over into the present draft of the Plug-In 
Hybrid Electric Vehicle Act of 2006.

4.  Does the ``Discussion Issues and Questions'' paper address the most 
significant technical barriers to the widespread adoption of plug-in 
hybrid electric vehicles?

    I believe that the ``Discussion Issues and Questions'' paper and 
the affiliated morning presentations did properly address the most 
significant technical and cost barriers, identified opportunities, and 
educated participants concerning important considerations outside their 
field of expertise. However, the reasons for the workshop were to 
assure that we had not missed anything, confirm that our best judgment 
was legitimate, and help set priorities among items on our list. Based 
on my recollection of the reports of the breakout sessions on May 5, 
the discussion paper did set the stage well, but a number of excellent 
comments and suggestions were developed by the experts, which will lead 
to desirable modifications and refinements.

5.  If a standard ZEV range was needed to facilitate the commercial 
application of PHEVs, what would be the optimal ZEV range that would 
still allow users to meet their driving needs? What would be the likely 
impact on fuel economy and oil savings?

    One point made at the DOE meeting is that there is no single ZEV 
range that will suit all consumers. The ideal range will vary by 
consumer, depending upon driving patterns. According to the Electric 
Power Research Institute's 2001 study Comparing the Benefits and 
Impacts of Hybrid Electric Vehicle Options, consumers with relatively 
short commutes would always prefer a plug-in hybrid with a relatively 
short all-electric range, while consumers that had a long commute 
became more interested in plug-in hybrids with a lot of all-electric 
range as the theoretical cost of the plug-in powertrains came down. 
Since batteries will probably always be relatively expensive, it will 
always be smart to only purchase as much electric range as you can use 
in everyday travel. So, just as consumers have a choice of engines in 
most vehicle models, the participants thought that consumers should be 
given options in battery size and electric range capability. In one 
trade-off analysis by scientists at the National Renewable Energy 
Laboratory, if a single range were picked, a range between 10 and 20 
miles seemed most likely to be cost-effective to the largest number of 
consumers. If the range of the plug-in hybrid were 20 miles, then those 
who only needed 10 miles might not benefit. However, of those being 
able to use perhaps 15 miles or more, all were estimated to benefit 
from a plug-in hybrid with 20 miles of all-electric range.
    Effects of plug-in hybrids on oil savings will depend dramatically 
on future oil prices and on regulatory priorities with regard to all-
electric operation. Although the vehicles have so far been evaluated 
under the assumption of one or less charges per day, this perspective 
is too narrow. Possibly a more important question is what is the 
plausible range of electricity substitution for gasoline in the event 
of a range of gasoline prices? What is the degree of resilience of our 
economy that would be provided by the flexibility of consumers owning 
plug-in hybrids to shift from less than one charge per day to more than 
two per day? Could such an increase in charging frequency be 
accomplished with battery life remaining proportional to total energy 
throughput?
Oil Savings
    The total national benefits depend on two interacting factors--how 
many vehicles can be sold, and once they are sold, how much oil each 
vehicle can save (a variable quantity, as discussed in the prior 
paragraph). While plug-in hybrids with a lot of all-electric range 
could save more oil per vehicle than plug-in hybrids with only a small 
amount of electric range, we don't know if enough of the vehicles with 
a lot of range would be sold. The short term risks to the automobile 
industry of ``jumping'' to plug-in hybrids with a lot of all-electric 
range instead of making less-challenging adaptations of existing 
powertrains has not been evaluated in prior studies, but this would 
also be a factor to consider.
    I believe we should start with plug-in hybrids with an ``electric 
equivalent'' range between 10 and 20 miles, try to learn to use them as 
cost-effectively as possible to reduce oil consumption, and hope that 
RD&D can lead to a steady sequence of battery improvements and cost 
reductions that allow platform changes to be planned in advance to take 
advantage of emerging battery improvements. Perhaps the number of 
electric range options available to customers in a single vehicle 
platform could thereby be expanded.
    I am familiar with one idea that might nearly double the energy 
storage capability of a lithium-ion battery pack of a given amount of 
material, if successful. If such a development were to occur, we could 
nearly double the range of a plug-in hybrid model by simply switching 
to a new battery technology, with minimal adaptation of the vehicle. 
Admittedly, this may not happen, and it may be that the only way to 
extend range would be with physically larger batteries. Nevertheless, 
the possibility does illustrate that early emphasis on 10-20 miles of 
all-electric range may not be inconsistent with a long-term R&D effort 
whose goal is to achieve double that range.

6.  How large an impact could PHEVs have in reducing oil consumption 
over the next 10 years?

7.  How long will it take before we begin to see PHEVs in the 
marketplace?

    The impact on oil consumption is unlikely to be large in the next 
decade because the plausible market share of new plug-in hybrids would 
be hard pressed to exceed one to two percent at the end of the next 
decade, with essentially no significant penetration early in the 
decade.
    To help understand how long it takes for a more efficient, but 
significantly more costly vehicle to affect total fleet fuel 
consumption, consider hybrids. Hybrids, available for about a decade, 
have only reached a little over one percent of the new light duty 
vehicle market in 2005. At this rate, to reach one percent of the total 
fleet of cars on the road (the vehicle stock) would take nearly one 
more decade, at which time hybrids might reduce light duty vehicle oil 
consumption by about one third of one percent. Since light duty vehicle 
oil consumption is about half of total national oil consumption, this 
would be one sixth of one percent of national oil consumption.
    However, since hybrids are expanding their share of the new light 
duty vehicle market, and since consumers drive new vehicles more miles 
per year, the reality will be better than this. Nevertheless, this 
discussion demonstrates limitations involved in turning over the 
vehicle stock. Successfully penetrating the new vehicle market is the 
first step, but it takes several years of continued success to affect 
the entire fleet and its oil consumption.
    EPACT05 calls for plug-in hybrid commercialization within five 
years. If the Prius history is used as a model, the first Prius factory 
produced 30,000 commercial vehicles per year in 1997. The 2004 Prius 
comes from a new factory that can produce well over 100,000 per year. 
It took over five years to ``mass market'' sales of Prius hybrids, 
after the first model was commercialized. Thus, the Prius path to 
commercialization implies at least a decade before a tiny fraction of 
national oil consumption reduction could result from plug-in hybrids. 
The point is that the process will be slow during a peaceful, 
deliberate expansion of the technology.
    During a true international crisis with oil supplies restricted for 
long periods, the contributions could be far more significant. Though 
subject to verification in the market, it does appear that retrofit of 
a Prius to become a plug-in hybrid is possible. If research promoted by 
EPACT05--or by private sector innovators--suggests that simple plug-in 
retrofits of several existing and coming hybrids would be possible, 
then an option would be to provide incentives for manufacturers to 
allow for such retrofits when they produce and sell hybrids, so that 
such retrofits could be accomplished in the event of a prolonged 
emergency, or--more optimistically--in the event of battery 
breakthroughs during the life of the vehicle.
    Alternatively, if the plug-in option becomes ``fashionable'' to 
consumers for reasons other than just saving fuel, the technology could 
``take off'' within the hybrid powertrain category. My opinion is that, 
if battery technology does improve enough, switching from a focus on 
hybrids to a focus on plug-in hybrids would be a far less daunting step 
than was switching from conventional powertrains to hybrids. Further, 
we must acknowledge that the sense of urgency about reducing oil use is 
greater now than in the 1990s when the Prius was developed, so the 
level of effort on plug-in hybrids across automobile manufacturers 
could be significantly greater in the next decade than for hybrids in 
the last.

Comments on the draft ``Plug-In Hybrid Electric Vehicle Act of 2006''

    While I have emphasized that a focus on lithium ion batteries is 
desirable, it is wise to allow administrative flexibility for energy 
storage research, as has been done in the legislation. This flexibility 
could be extended even further by deleting the word ``electrochemical'' 
in Sec. 2 (1), or substituting ``electrical.''
    It is good that hybrid fuel cell vehicles are included. For Sec. 2 
(a) (7) (A) I suggest ``provides motive power by converting either 
liquid or gaseous fuel to power and/or uses electric power extracted 
from an on-board battery.'' I recommend this or a similar change to 
make it clear that a hybrid fuel cell vehicle capable of using hydrogen 
is included in the umbrella definition of a hybrid electric vehicle.
    For Sec. 2 (a) (5) (B) I suggest ``that uses a fuel cell and stored 
battery energy for motive power.'' It is fair to call this a flexible 
fuel vehicle because there are a number of possible original fuels from 
which hydrogen can be derived.
    In Sec. 2 (a) (8) I suggest a bit of ``word engineering'' to allow 
the flexibility that I suggested is desirable in my prior answers to 
questions. Recall that CARB will now provide credit for 10 miles of 
all-electric range on the city cycle. If the types of plug-in hybrids I 
discussed are to be allowed under this bill's research umbrella, I 
suggest that a lesser range and less difficult driving cycle be allowed 
for. I recommend that you change ``20 miles under city driving 
conditions'' to ``15 miles under most urban driving conditions.'' Note 
that average daily miles driven are about 30 miles. Based on EPRI's 
preferred estimate, if a plug-in hybrid with 15 miles of range were 
charged once a day, gasoline use would be reduced by 31 percent. This 
would be equivalent to a miles per gallon increase of 45 percent.
    I like the sliding subsidy scale in Sec. 2 (d). Consistent with the 
argument that multiple plug-in hybrid ranges should ultimately be 
offered to consumers, I suggest a tiered subsidy. If we think about 
evolution from 15 to about 40 miles of range, it is likely that one 
would go from congested urban driving for the 15-25 mile range, to 
relatively free flowing, higher speed suburban cases with 40 miles of 
range. I expect that, as range goes up, top electric-only speed to 
cover usual trips would also increase. To illustrate, for the initial 
$10,000 per vehicle from 2007 to 2009, one might allow $3000 for a 
plug-in hybrid with 15 miles of urban range, $5000 for a plug-in with 
20 miles of city test cycle range, and $8500 for a plug-in with 40 
miles of highway test cycle range. If any of these vehicles were flex-
fuel vehicles the subsidy could be increased by $1500. This would allow 
an automaker to take advantage of up to $10,000 of subsidy per vehicle. 
If this idea were acceptable, then similar allocations could be made 
for remaining years.
    Concerning the funding levels that are to be authorized if the 
draft bill becomes law, I note that if these funds were appropriated, 
expenditure on the plug-in program would be comparable to the 
President's Hydrogen Fuel Initiative. I also note that by including 
fuel cell hybrids the draft bill supports the Hydrogen Fuel Initiative 
and may enhance the odds of success of that program. I like the fact 
that the funds would do ``double duty'' providing another path away 
from oil dependence via plugging into the grid, for either combustion 
engine or fuel cell motive power. Our ongoing R&D on pathway energy use 
and greenhouse gases indicates that this may be a desirable combination 
even if hydrogen fuel cell breakthroughs are realized. There are some 
pathways where generation and use of electricity for a plug-in hybrid 
will be a better choice than producing hydrogen for a fuel cell, 
whether or not the plug-in hybrid uses a fuel cell or combustion 
engine.
    It is quite difficult when attempting to cause technological 
breakthroughs to know the probability of success as a function of the 
amount of money assigned to the task. I defer to battery and electric 
drive experts with respect to judgment on how much money is necessary 
to cause needed breakthroughs. With regard to oil prices and energy 
security, concerns are greater today than when the hydrogen fuel 
initiative started, and the circumstance of domestic automobile 
manufacturing is more precarious. Due to a scarcity of automaker 
resources and a greater national need, and due to a degree of optimism 
about plug-in-hybrids which started several years ago and which has 
increased significantly over the last several months, I am supportive 
of a very significant increase in funding for plug-in hybrid research, 
development and demonstration.
    As I have stated, I believe that learning-by-doing is critical, so 
I support the grants provision.
    It is possible that the allocation of funds might be better tilted 
toward production subsidies. $50,000,000 per year, if allocated at 
$10,000 per plug-in hybrid, would support only 5000 vehicles. On the 
other hand, if $3000 were to be adequate to create an incentive for a 
15 mile hybrid suitable to run electrically for most urban driving, 
then one manufacturer's production run of about 17,000 vehicles could 
garner the present draft's total subsidy for each vehicle produced. 
Most factories produce hundreds of thousands of vehicles, while the 
initial Prius factory produced 30,000 per year. So, if the intention is 
to cause multiple factories to produce plug-in hybrid powertrains, the 
incentives may not stretch far enough. One positive feature of 
incentives of this nature is that the government only has to pay them 
if vehicles are produced. If production capabilities with economies of 
scale are an intended outcome, I would suggest after 2010 that no 
manufacturer be allowed any subsidy unless a minimum of 10,000 plug-in 
hybrid powertrains were produced and sold per year. Total subsidies, 
which may need to be larger, could be allocated among all manufacturers 
meeting this criterion.
    The first steps toward mass production of plug-in hybrids are 
likely to involve limited runs of prototype vehicles. In its Sprinter 
program, DaimlerChrysler intends to follow a sequence from less than 
five vehicles to 30, then hopefully large fleet tests, and finally 
commercialization. This process was anticipated to take four years. 
Thus, it might be desirable to alter the subsidy authorization schedule 
to allow for significantly higher per vehicle subsidies in the first 
four years for prototype vehicles produced in the dozens. You might 
consider subsidies as high as $100,000 per vehicle, up to a total of 50 
vehicles per manufacturer from about 2007 to 2010. Thereafter, impose 
the 10,000 unit production volume requirement and a per vehicle maximum 
grant schedule similar to the present one for any further subsidy. This 
would be consistent with the Energy Policy Act goal of 
commercialization within five years.

                    Biography for Danilo J. Santini
Senior Economist, Section Leader, Technology Analysis, Center for 
        Transportation Research, Argonne National Laboratory

    Danilo Santini obtained his Ph.D. in Urban Systems Engineering and 
Policy Analysis from Northwestern University in 1976, a Master's in 
Business and Economics from the Illinois Institute of Technology in 
1972, and a Bachelor of Architecture from MIT in 1968. From 1968 to 
1970 he taught Physics and Math at George Washington High School in the 
Kanawha County school district in West Virginia. He worked at three 
Architectural firms over the period 1963-72. He began working at 
Argonne National Laboratory in 1974. Dr. Santini was Chair of the 
Chicago Chapter of the International Association of Energy Economists 
from 1985-86. From 1992-2004 Dr. Santini was section leader of the 
Technology Assessments section within the Center for Transportation 
Research at Argonne National Laboratory, and now is leader of the 
Technology Analysis section. He served as Chair of the Alternative 
Fuels Committee of the National Research Council's Transportation 
Research Board from 1996-2002. In 2003 he was awarded the title Senior 
Economist. Since May of 2001, he has been the Department of Energy's 
primary technical representative for the U.S. to the International 
Energy Agency Implementing Agreement on Hybrid and Electric Vehicles. 
In 2003 he became a member of the American Transportation Research 
Institute's Research Advisory Committee. Dr. Santini has authored, co-
authored or edited 150 articles, reports, and conference papers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairwoman Biggert. I thought we were going to have 
technical difficulties.
    Thank you very much.
    And now, at this point, we will open our round of--first 
round of questions.
    And I recognize myself for five minutes.
    My first question is that the legislation that we are 
considering has two major components. One is the research on 
batteries, the control systems, and the lightweight materials, 
and the second is a demonstration component that would add 
federal dollars to efforts to purchase plug-in hybrid vehicles. 
And right now, the research--right now, the ratio is $5 of 
research for every dollar of demonstration. Is this the right 
ratio and why? If anyone would like to start, take a stab on 
that.
    Mr. Duncan, you look like----
    Mr. Duncan. Thank you.
    I cannot say exactly whether it should be five-to-one or 
whatever. The people who are more technical and the research 
and development area can speak to that. I am just happy to see 
that the $50 million dedicated to demonstration vehicles 
because that is certainly--there is an overwhelming demand 
among the people who learn about plug-in hybrids to have some 
vehicles spread around the Nation. Right now, we have a couple 
of vehicles in California and some in New York and one in 
Kansas and trying to move those vehicles around the Nation to 
meet the demand of people who want to see one and drive one is 
tremendous. So we--I am very happy that we are providing some 
money. And I think the important thing is to get a number of 
vehicles in various states all at once. And I do not know if 
the five-to-one ratio is appropriate, but----
    Chairwoman Biggert. Okay. Thank you.
    Anybody have any information on that?
    Dr. Frank.
    Dr. Frank. I would like to say that, you know, the plug-in 
hybrid is--uses components developed by the hybrid cars, and so 
we are going just one step further. And while there are still 
things that have to be researched, of course, as pointed out by 
Mr. German at Honda, but really, I think, at this point, we 
should be spending more in demos and less in R&D, because this 
is near-term technology , and it is not something like the 
hydrogen program. So I would like to see the ratio closer to 
two-to-one.
    Chairwoman Biggert. Thank you.
    Let me just follow up with that, then.
    There seems to be some disagreement about how--just how far 
along these technologies are. And I think Dr. Frank and Dr. 
Duvall indicate that they are quite close to the market. And 
Mr. German, you seem to cite numerous difficulties. I think 
that you talk about the heating and longevity as the main 
issues with the batteries and--what has been the experience 
with batteries in transportation use, and why do you think 
these are disagreements? And then I think, Mr. German, you 
talked about storage, too, and also mentioned that--what are we 
going to do with these batteries when they wear out? And 
actually, if we have to replace them within, you know, 90,000 
miles, is this--how much of a cost is that going to be?
    Mr. German. Yeah, the--I think that our hesitation to 
launch immediately into demonstration fleets has to do with the 
previous demonstration program in California on battery 
electric vehicles, which was hugely expensive and did not 
succeed in advancing battery technology to the point where it 
could be commercial for battery electric vehicles. And what we 
are concerned is the same thing may be happening here is that 
the--you need a good battery, or a good source of energy 
storage of some kind in the system. And it is critical that we 
do the R&D on this, and this what we like about the House 
proposal. But there is no question that these plug-in batteries 
are going to be subjected to more severe operating conditions. 
They are not going to last as long. And they are very 
expensive. I haven't even talked about the current price, 
because that is just prohibitive. You know. We are trying to 
estimate where the price might be with further development, and 
there is a lot of uncertainty there, but even that price is 
potentially a problem with customer acceptance.
    Chairwoman Biggert. Thank you.
    Anybody else like to comment? Dr. Duvall, I think that you 
had a different point of view.
    Dr. Duvall. Well, I would present a different point of 
view, and that is that our experience has led us to believe 
that the current state-of-the-art for automotive batteries, 
particularly with lithium-ion, shows extremely good use--
durability in this application. We are not ready to say that 
they are ready for production, but they are certainly ready to 
move to the next stage, which is to be run in very rigorous, 
real-world demonstration programs and a certain number of them. 
When we started working on the battery electric vehicles, the 
first vehicles launched with very primitive, very short-lived 
batteries in the mid-1990s, but by the end of the decade, so 
before 2000, some of the best vehicles in class were tested by 
certain utilities up to 150,000 miles of battery life under 
extremely rigorous conditions with extremely hot weather 
charging. So the technology showed that it could dramatically 
improve year over year very quickly.
    And the same thing is happening now with lithium-ion 
batteries. There is a lot of activity. There are some startling 
innovations going on right now that show tremendous potential 
to improve the technology. And it is important to understand 
that a plug-in hybrid vehicle really relies on its battery, and 
the better that battery is, the more electric capability the 
vehicle has, the more range, the more petroleum you can 
displace.
    So to really state right now, we believe the best batteries 
are very good and good enough to really be run through their 
paces and attempt to really understand how long they can last. 
It is a different operating cycle than a hybrid, but I think it 
is unfair to say that it is directly more severe or less 
severe. It is different. That needs to be understood.
    Chairwoman Biggert. Thank you.
    My time has expired.
    Mr. Green from Texas, you are recognized.
    Mr. Green. Thank you, Madame Chairlady.
    And I would like to thank our Chairman and Ranking Member 
for having this hearing. I think the intelligence that we are 
acquiring is invaluable. And I also thank the members of the 
panel for participating.
    I attended a meeting this morning wherein our Speaker 
talked about the price of oil, in a sense, being a blessing in 
disguise. By going up to the extent that it has, it has caused 
us to focus on these various alternatives. But then he went on 
to make another comment, and that is that there are people in 
the world who are capable of manipulating the price of oil such 
that if we start to make an inordinate amount of progress, the 
price of oil can be brought back down. Now whether that is true 
or not is debatable.
    But first, I ask how important has the price of oil, the 
escalating of the price of oil, been to this process? And I see 
that Dr. Ricketts is prepared to answer, so why don't you take 
the first stab at it.
    I read faces quite well.
    Dr. Ricketts. Thank you.
    Necessity is the mother of invention. My rule of thumb, it 
seems to be $2.50. It seems like there is not much excitement 
until gas gets $2.50, and then once it gets over $2.50, people 
start going, ``Wow.'' Yeah, probably the best thing that could 
happen in this country is fuel to go to $5 a gallon and stay 
there for a year. We would be having committee meetings every 
months, we would get something done, and we will move on with 
it.
    Mr. Green. No disrespect, Dr. Ricketts, it may be the best 
thing, but I don't--I suspect some of us might not be sitting 
here if it happens.
    But given that high gas prices can be a benefit, sort of a 
blessing in disguise, what type of policies do you envision 
necessary to assist us such that we can make it through a 
crisis of $5-a-gallon oil? How would we work through that?
    Dr. Ricketts. I can't answer that question, but I was 
hoping you would ask me another question----
    Mr. Green. Okay.
    Dr. Ricketts.--and that was why--that is why I am so strong 
about flex-fuel. If gas goes back down to $1.50, then with the 
flex-fuel, we will just use the gas component. But if it gets 
to $5 a gallon, we will use the ethanol or whatever. So that is 
why I am so strong on the flex-fuel part of it.
    Mr. Green. With reference to the hydrogen that you talked 
about----
    Dr. Ricketts. Yes.
    Mr. Green.--is that technology, right now, in its infancy 
of course, but is it something that we can assume will, at some 
point, replace or will it become a substitute for other 
technology?
    Dr. Ricketts. In my opinion, the long-term future of this 
country, I am talking 30-plus years, is with hydrogen and the 
sun, because once they are done, we won't have any need for 
fuel anyway. I think--I am for ethanol. I am for soy diesel. I 
am an agriculturalist, but I believe, at best, they have got a 
five- to 10-year run, because just pure agricultural economics, 
supply and demand, I am afraid corn and soybeans both are going 
to go so high that we can't even feed the country or feed our 
cattle for our beef and so forth. Again, that is why I like the 
flex-fuel. You have got so many options to go. It is almost 
like we are playing the stock market. Which fuel am I going to 
use today? Which one is the best option?
    Mr. Green. Dr. Duvall, do you have an additional comment?
    Dr. Duvall. I think one of the keys is diversity. The--you 
have to have a diversity of fuels, which will allow you to 
address this issue, which right now is high fuel prices, or 
tomorrow's issue, which may be carbon management in the 
transportation sector, or it may be something else. And one of 
the key advantages to electricity, and possibly ultimately 
hydrogen, is that they are carriers, energy carriers, that can 
be generated with a number of--produces a number of different 
fuel sources. Also, this is one strength of biofuels. But I 
agree with Mr. German's statement that there is no silver 
bullet, that we have a very limited list of options, and we 
should explore all of them fully. And many of these, and 
especially, we believe, electricity, instantly brings you 
diversity and can be an instant, very secure component.
    Mr. Green. Will the additional use of the electricity, 
which is generated from sources other than oil--generally 
speaking, about three percent of our electricity comes from 
oil, as I understand it. With the additional, however, tax on 
electricity, will we have enough of our coal, the wind, and 
other forms of power, nuclear, to sustain us with the plug-in 
cars?
    Yes, Mr. Duncan?
    Mr. Duncan. There is a short-term and a long-term answer to 
that. And in the short-term, the answer is an unqualified yes. 
The extra capacity in the electric grid, particularly at night, 
is--as was addressed in other testimony, is very adequate. You 
could put millions of these vehicles on the road without having 
to build a new power plant of any type.
    In the long-term, however, if you are successful in 
transitioning a significant portion of our transportation 
sector over to the electric grid, you are going to have to 
build new power plants. And the questions remain the same, 
whether the plants are clean coal or nuclear or solar or wind 
or whatever, still have to be addressed, and in fact, in my 
opinion, this technology raises the stakes in those decisions. 
But in the short-term, there is certainly plenty of capacity 
for these vehicles without building new power plants.
    Mr. Green. Thank you, Madame Chairlady.
    I yield back the balance of my time.
    Chairwoman Biggert. Thank you.
    The gentleman from Michigan, Mr. Schwarz, you are 
recognized.
    Mr. Schwarz. Gentlemen, I am going to ask some pie-in-the-
sky questions, and you can give me pie-in-the-sky answers, if 
you want. But I just want to get a fix as to where we are with 
this technology. So just very briefly, I am going to throw 
these out.
    How much oil are we going to save if, for example, in 10 or 
15 years 10 or 15 percent of the vehicles on the road are 
hybrids?
    Secondly, I think I am getting some fix from you on what 
stage this technology is in right now. You talked about the 
supply chain is not ready. Is there interest, real interest, 
from American companies, like GM and Ford? I know--and I am 
from Michigan, but are they serious? In your opinion, are they 
serious about putting hybrid vehicles on the road as opposed to 
ethanol-burning vehicles, E-85 compatible vehicles, that sort 
of thing?
    And thirdly, you have got to convince me that hydrogen 
really is fuel X. Is there something else out there? Are your 
labs working on anything else? It costs money to produce 
hydrogen. And I am from Missouri a little bit on whether in the 
future it really is going to be hydrogen or not.
    So I free-associated a little bit with my questions, and 
you certainly have my permission to free-associate with your 
answers--with your responses.
    Thank you.
    Dr. Frank. Can I answer the first part?
    I have a slide on the--that I showed. If 10 percent of the 
cars were plug-in hybrid, you save about 4.5 percent oil per 
year, which is quite a bit, actually. That is enough to make a 
real dent. So of course, you have got--but to get to 10 percent 
plug-in hybrids, it is going to take five or 10 years, because 
you don't replace car fleet--but--the whole car fleet--new car 
fleet is only 10 percent of the fleet--the total fleet. So to 
get to 10 percent penetration within the entire car fleet, it 
is a 10-year program.
    So that answers that question.
    Dr. Santini. The thing that I like about the plug-in hybrid 
option is that it gives us--it is part of our research 
portfolio that would give us a significant amount of diversity 
of options. And with respect to hydrogen, the bill does allow 
for a hydrogen plug-in option to be researched. And some of the 
research that we see indicates that there could be pathways, 
solar and wind I have in mind, in particular, would be better, 
and Andy Frank has pointed this out, better to simply use the 
electricity in the plug-in mode rather than hydrogen under 
those circumstances. So it would add--it may make the hydrogen 
option even more efficient in the very long run.
    Another question on the long run, utilities, it--the 
paper--the presentation that I submitted into the record that 
was submitted at the May 4-5 workshop included analysis by the 
National Renewable Energy Lab and Argonne colleagues in which 
they evaluated the effect on the electric utility industry of 
massive increases of plug-in hybrids. We will be lucky if they 
are right, but going out to 2040 or 2050, and both of them were 
optimistic about wind. One of them estimated, under certain--
with the higher-range vehicle, that wind could actually 
increase in an amount that would be sufficient to cover the 
needs of the vehicles themselves, the other just a share. There 
is reason to believe that the movement would be toward clean 
technology, including coal. Actually, the scenarios accelerated 
the development of the--an implementation of the cleaner coal 
technology and market-shared ways that coal can evolve in a way 
that it could actually reduce net CO<INF>2</INF> emissions. 
Another thing I like about the technology is that there are a 
number of ways that it could be seen as a benefit, and so it 
may have staying power if oil prices drop. I mean, it may--
there may be markets where it would continue to be sold and 
used because of the air quality benefits. It--people might be 
interested because climate change is becoming more of an issue 
and they might buy it simply to show their commitment to that.
    So those are a few thoughts.
    Mr. Schwarz. Thank you, Madame Chair.
    I see that my time has expired.
    I have many questions left on this simply because, as 
someone who comes from an auto manufacturing state and has the 
biggest plant that General Motors has built in the last 50 
years in my district in Delta Township, just outside of 
Lansing. It is imperative that we know which way this is going 
to go. And I don't know yet whether the hybrid is the answer, 
whether ethanol is the answer. The capacity of ag. to make 
enough ethanol and soy product comes up in my district all of 
the time, so I am fascinated by your answers and by the 
questions.
    And I thank you, Madame Chair.
    Chairwoman Biggert. Thank you.
    The gentleman from Maryland, Dr. Bartlett.
    Mr. Bartlett. Thank you very much.
    The observation that when gasoline went up we could then 
switch to ethanol for a flex-fuel vehicle, I would like to 
suggest that ethanol prices are very likely to track gas 
prices, because it is unlikely that we will do better than 
three-fourths of a gallon of fossil fuel to produce a gallon of 
ethanol. So there will be an obligatory linkage between those 
two.
    Right now, coal provides a meaningful amount of our 
electricity. And the question is, would it be better to use 
this electricity to drive--of course, I am a big, big fan of 
plug-in hybrids. Or would it be more efficient simply to use 
the coal and produce coal oil? When I was a kid growing up, we 
didn't have kerosene lamps. We had coal oil lamps. I was born 
in 1926 and Hitler ran all of his country in World War II on 
coal oil, and South Africa did the same thing.
    So if we simply are using fossil fuels to produce the 
electricity, would--all of them could be converted into a fuel 
to run cars. I think that if we are going to go to plug-in 
hybrids, don't we have to have electricity produced by other 
than fossil fuels or we really aren't solving a fundamental 
problem?
    And then I have a question about how quickly we can get 
there. And I would like to be there tomorrow, but we have two 
variables here. And I know they trade off one against another. 
One is the price of oil. How expensive will gasoline have to be 
before people are serious about moving to plug-in hybrids? And 
secondly, how quickly can we develop batteries that are 
economically-acceptable? Of course, the higher gasoline prices 
go, the more expensive batteries can be and still be acceptable 
in the market. What is your best judgment as to--and I know it 
is anybody's guess what oil is going to do. I think it is up 
and up and ever up with saw teeth up and down, but more up than 
down. What is your best guess of how soon these two things are 
going to come together so that electric hybrids will be really 
competitive out there, that is the price of oil and improvement 
of batteries?
    Mr. Duncan. Well, I will start and address the first one, 
and I am not really the expert on the speed of battery 
adaptation here. The other speakers are.
    As far as using fuels other than fossil fuels, what really 
interested Austin in this initially is because we sell more 
wind power than any other utility in the Nation, and we saw a 
way to get wind in as a transportation fuel. And as--and the 
research that was addressed earlier by Dr. Santini, wind power, 
alone, has the capability, at least on paper, to meet this 
transportation need. But it--I mean, it is a fundamental 
decision that has to be made and as in relation to the other 
decisions on carbon that the Congress and the Nation need to 
make. I think there is no question that we have the technical 
capability to transition the transportation sector away from 
fossil fuels through the electric grid, which has the ability 
to take multiple fuels and combine them in any way that you 
want to provide a transportation fuel, if you use it that way. 
And it is not just the cost of gasoline itself. It is really 
the spread between the gasoline cost and other fuels. You 
mentioned how ethanol is starting to track and will track 
gasoline. That is not necessarily the case for the electric 
grid in comparison with gasoline, because you are dealing with 
totally different fuel structures and infrastructures. So the 
spread between the electric grid and the liquid fuel of 
gasoline and ethanol could grow to be quite great and quite 
rapidly.
    Mr. Bartlett. Mr. Duncan.
    Yes, sir. Go ahead.
    Dr. Duvall. One of the things that EPRI forecasts for the 
future in the electric sector is that we have a diversity of 
energy sources now, and we will continue to have a diversity of 
energy sources in the future. And we can provide some 
additional information in writing to show how these scenarios 
play out, depending on what the future looks like. There is an 
aggressive technology development roadmap for coal to be more 
efficient, to be cleaner, and to ultimately be low-carbon-
emitting at the plant level. So electricity from coal could 
ultimately be a very good source, very low-emitting source for 
transportation.
    This second comment is that, in general, batteries follow a 
very strict cost-volume relationship. And so when there is not 
much production volume, the costs are very high. And when we 
completely learn out the manufacturing techniques for batteries 
and we have high consistent volume and a lot of competitive 
choices in the marketplace, battery costs can be minimized. It 
is still an expensive component. But at today's current gas 
prices, life cycle cost studies done at EPRI show a variety of 
very favorable results for hybrid and plug-in hybrid vehicles 
of different configurations, and we can provide examples of 
those in writing now. So today's fuel prices really do, I 
think, incentivize alternatives and more efficient vehicles.
    Mr. Bartlett. Thank you.
    Madame Chairman, this is a great hearing. I wish that it 
occurred 10 years ago then we would still be behind the curve, 
actually. Thank you very much for holding the hearing. I think 
that plug-in hybrids are a great, great partial solution to the 
pending liquid fuels crisis that we are facing. And batteries 
are the pacing item, and any amount of money that it takes to 
infuse into that technology to make this happen sooner would be 
money well invested for our future.
    Thank you very much.
    Chairwoman Biggert. Thank you, Dr. Bartlett. And I couldn't 
agree more with you. I wish I had known about it 10 years ago, 
but since I didn't, I think that we really do have an 
opportunity right now to move forward with our main goal, 
really, which is to reduce our reliance on foreign oil, and 
this certainly is one means of doing that. And I think that the 
sooner that this can roll out, the better, as well as all of 
the other alternatives that we have talked about. And so I 
think that this is a real challenge. But we have the 
opportunity, and I think, as Mr. Honda had said earlier, that 
because of the spiraling of gasoline prices, that it calls our 
attention to it. What I hope, and what we can't let happen, is 
that we then let this slide when the gas--when the prices start 
going down again, as we have done so--in so many cycles before. 
And I think with the President's Advanced Energy Initiative and 
our looking at developing GNEP with the nuclear as well as the 
hydrogen, and I had an opportunity to drive the hydrogen car 
yesterday, thanks to Mr. Chairman's company. It was kind of 
scary to drive a $1.5 million car around the streets of 
Washington, but I made it without any damage, so--you know, and 
those things are on the way, but I think that we have to really 
take this very seriously and really do all that we can to--you 
know, to move us forward on that.
    And with that, Mr. Hall, do you have a question?
    Mr. Hall. Thank you, Madame.
    I am--inasmuch as I have not been here, I don't know the 
questions that have been asked. I am honored to have Mr. Duncan 
here and the knowledge that he brings and the history of 
success that he has known and all of them to give their time, 
travel time, and testimony time and all. I know that the 
Chairlady appreciates that, as I do.
    I will submit questions. I am sure you will get that 
unanimous consent at the end.
    Chairwoman Biggert. Yes.
    Mr. Hall. Thank you.
    Chairwoman Biggert. Yes. Thank you.
    All right. Then we will start the second round, and I will 
ask----
    Mr. Sherman. Madame Chair?
    Chairwoman Biggert. Yes.
    Mr. Sherman. I just came into the room for the first round.
    Chairwoman Biggert. Oh, I am sorry, Mr. Sherman.
    You are recognized for five minutes.
    Mr. Sherman. Well, I thank you.
    The big problem with electric cars, whether--and the reason 
why we are told that we need to put a gasoline engine is their 
limited range. And one would hope that we would see new 
developments in battery technology that would solve that 
problem. Another way to solve that problem, and I would like 
your comment on it, and my guess is it doesn't work because 
nobody is talking about it, and it is relatively obvious, is 
that we could have a system where, say, the major oil 
companies, who happen to already have an infrastructure of 
service stations, would own batteries of, say, 500 pounds, you 
would lease those, or--from the oil companies or the service 
station chain owners. You would drive in. Somebody would have a 
forklift. Imagine service at a service station. It once 
happened. And they would remove your depleted 500-pound 
battery, install a fully charged one, both of which are the 
property of the same oil or other company anyway, and you would 
drive off for another several hundred miles. But of course, 
when you use the car just for commuting, you would just plug it 
in at your home and recharge the existing battery, but you know 
that the car is great for commuting, say, 48 weeks a year and 
that you can drive across country, if you want to, on vacation 
as well.
    Put aside the governmental and societal problems of 
creating an infrastructure where there are thousands of 
stations across the country ready to install a battery that is 
fully charged and to charge--and to cause the customer to pay 
an appropriate amount, and deal with the technical problems of 
a battery-switching electric--a nationwide system of battery-
switching electric cars, knowing that most of the time they are 
going to be recharged by the consumer, but on cross-country 
trips or whatever, or you just happen to have a lot of driving, 
you can stop at a service station.
    Mr. Duncan. Congressman, two responses.
    The first is that that is why we were so excited about the 
plug-in hybrid is that it did not have the range limitation of 
the all-electric vehicle. It is truly a hybrid. If you don't 
plug it in or forget to plug it in, it still goes. So we didn't 
have the range limitation and it didn't require a special 
charging station. You could put it into an ordinary wall socket 
to charge it.
    As far as the second suggestion, I think it is a good 
suggestion, and actually, it is my understanding that the 
French utility EDF has the type of system that you are talking 
about where you can drive in and they will exchange a battery 
in your vehicle.
    Mr. Sherman. How much would a--using current or technology 
pretty well guaranteed to be available in the next couple of 
years, how much would a battery weigh that could get you 200 or 
300 miles?
    Mr. Duncan. I don't know the answer to that.
    Dr. Duvall. I think Mr. German and I can agree that it 
would weigh--it would still be a lot. I think maybe the more 
critical----
    Mr. Sherman. Excuse me. Can you--a lot is not the kind of 
specificity we are used to in the Science Committee.
    Dr. Duvall. Okay. It would be a minimum of a 50- to 60-
kilowatt hour battery, which would probably weigh somewhere 
around 300 to 600 kilograms, depending on how good the battery 
was. I think the major----
    Mr. Sherman. So you are talking over--well over 600 pounds, 
and I put forward the idea of a 500----
    Dr. Duvall. The more critical aspect would be the battery 
would be extremely expensive, and the architecture of a modern 
car is extremely complex and may not facilitate the 
installation. But it requires a lot of volume and a lot of 
packaging design work to integrate that battery into a vehicle 
and to integrate it to be easily removable. This is done very 
common--this is very common for electric material handling 
equipment. Forklifts with electric batteries are--often have 
the batteries changed so that you can run a two- or three-shift 
operation where you don't have time to stop the vehicles and 
charge. But actually, high-power fast charging is becoming an 
alternative even there, because there is a certain amount of 
time that if you actually did, maybe, the back of the envelope 
economics, that the labor required to change the batteries and 
the added cost, it might not work out as well.
    Mr. Sherman. With high-power recharging, how long would it 
take to recharge an automobile with a 200-mile range?
    Dr. Duvall. Twenty to thirty kilowatts of charge capacity 
is pretty common, and there are--is a possibility to make that 
greater in the future.
    Mr. Sherman. All right. Then I want to say how long would 
it take, using the technology available two or three years from 
now.
    Dr. Duvall. An hour to two hours to completely recharge a 
battery with significant range capable and, like, a five- to 
10-minute recharge.
    Dr. Ricketts. Mr. Sherman, I will tell you how far we have 
come with better technology. I am still using deep cycle lead 
acid. I have 26 batteries on my truck at 70 pounds a piece. 
That is 1,820 pounds of batteries. That will get you just 60 
miles. So these fellows with the lithium-ion, that is how far 
we have come.
    Mr. German. But you need to consider the interior space in 
a vehicle is extremely valuable.
    Mr. Sherman. But let me just ask one more question. The 
Chair has been very indulgent with time. And that is, let us 
say I just use the car for short range, so I am always home to 
plug it in. And I never actually turn on the gasoline engine. 
And let us say I happen to live in one of those very few 
American cities where they actually generate the electricity 
using petroleum. And so you have to burn a certain amount of 
petroleum to get a certain amount of kilowatts to charge my 
commuter car. How many miles per gallon or--am I getting? In 
other words, how much fuel do you have to burn at my local 
electric utility, assuming it is burning petroleum, and I 
realize most don't, but some do, in order to get me 100 miles 
or whatever the range is?
    Dr. Duvall. It would almost certainly be lower than if 
you----
    Mr. Sherman. I know, but is it three times lower, 10 times 
lower, or 20 times lower?
    Dr. Duvall. No, it would be a fraction lower. I can provide 
an answer later, but it would be some fraction lower. It 
wouldn't be double the fuel consumption. In most areas where 
there are still oil-fired power plants, they are primarily 
peaking plants, and so they only operate a very limited number 
of hours per year. So in general, the margin of electricity, 
wherever you are in the United States, is probably not 
petroleum unless there is some peak activity.
    Mr. Sherman. I yield back.
    Chairwoman Biggert. Thank you.
    We will start a second round, if we could go quickly, and I 
have just a couple of questions.
    Going back to the battery, some experts suggest that the 
lithium-ion batteries are the answer for the plug-in hybrid 
vehicles yet this battery type has been under development for 
many years and still presents challenges for use in the 
vehicles. So I would like just a quick answer from Dr. Frank 
and Dr. Duvall and Mr. Duncan and Mr. German. What is your view 
on the lithium-ion batteries? Just a very, very brief----
    Dr. Frank. Real quick, you--batteries for all of these cars 
are no longer benign things. They are all intelligent batteries 
with computer controls. And by the way, computer control is a 
very small marginal cost for the total battery system. The 
computer controlled batteries are what will make lithium even 
metal hydride now practical for these kinds of applications. 
And it changes the picture entirely. So it becomes very 
practical very quickly.
    Chairwoman Biggert. Thank you.
    Mr. Duncan.
    Mr. Duncan. I will defer to the other witnesses on the 
battery question. I am not----
    Chairwoman Biggert. Okay.
    Mr. Duncan.--the expert in this field.
    Chairwoman Biggert. Okay.
    Dr. Duvall.
    Dr. Duvall. I would like to share an opinion of a 
representative of one of the leading auto makers with respect 
to hybrid vehicle technologies who felt that we would see 
lithium-ion batteries introduced into commercial hybrid 
vehicles within three years and by 10 years, likely to dominate 
the market. So there--I think there is a strong undercurrent 
that believes that the technology is rapidly becoming ready for 
automotive application. And there are already at least one or 
two commercial applications of lithium-ion batteries in 
commercial hybrid vehicles.
    Chairwoman Biggert. Thank you.
    Mr. German.
    Mr. German. I think part of the problem here is that when 
people say lithium-ion, they have the connotation that you have 
a single battery. And the--part of the problem I had with 
lithium-ion is that the formulations, depending on anode 
materials and other things are tremendously variable. And what 
the industry has been--batteries have been doing is 
experimenting with all of these different combinations trying 
to come up with something that has both high energy and good 
durability and is robust and long-lasting. And it is very 
difficult. They are still working through this. As far as the 
lithium-ion batteries for conventional hybrids, that is 
actually a different formulation than you need for a plug-in. 
Plug-ins need to be lower power density, higher energy density. 
So even those might not be the optimum for plug-in. It is this 
complexity that is causing the problems, and they are still 
trying to find the right combination.
    Chairwoman Biggert. Okay. Can you estimate if it will be 
cost-effective?
    Mr. German. It depends on how you define cost-effective. 
The estimate--the targets I have seen for lithium-ion 
batteries, even in the future in high volume, are not going to 
be accepted by most customers. Certainly there can--might--may 
be a niche market. But it is very difficult to talk about the 
future price of lithium-ion because we don't know what the pace 
of development is going to be. That is why research and 
development is so important.
    Chairwoman Biggert. Dr. Santini.
    Dr. Santini. Lithium-ion has eclipsed nickel metal hydride 
in consumer electronics and at the advanced automotive battery 
conference last year, there was a presentation that indicated 
that a very large number of patents of lithium-ion batteries 
had been adopted by Nissan, Toyota, and Honda, not by the 
battery manufacturers. So obviously, the auto industry found 
the technology to be intriguing. So that is indirect evidence 
that it is a promising technology. John gave you a very good 
description of the difficulties and the fact that it is very 
complex, many alternatives. There is an alternative that my 
colleagues at Argonne have that they are hopeful would double 
the amount of energy storage per unit volume and per unit--per 
kilogram. If that would happen, that would be a great boom. 
So----
    Chairwoman Biggert. Well, I have been out to see your 
program at Argonne. You are doing a great job.
    And then just one other question. This really isn't--part 
of this--it is really not the jurisdiction of the Science 
Committee, because it has to do with tax relief and tax 
credits, but the hybrid cars right now, and under the energy 
bill that we passed in--last August, has a component in for tax 
credits for buying hybrid cars. And the companies are limited 
to 60,000 cars sold a year. And it--a question is, of course I 
think probably we would have to have something like that for 
hybrid plug-ins to have that, because what people tell me when 
they go to buy a hybrid is that they are so expensive that the 
tax breaks makes it--brings it down to about equal to a regular 
car. But they are also--they can't get them, that there is such 
a waiting list. And I see this happening, you know. I am 
certain--since I already want a plug-in, I am sure everybody 
else does, too, and it is going to be hard to get them, but--
and I think that Dr. Santini, you, in your testimony, said 
about 100,000 of the hybrid cars like the Prius had been sold, 
in the past year, it started out, you know----
    Dr. Santini. Per year.
    Chairwoman Biggert. Per year. Right. Is that holding up for 
most all of the hybrids? The SUVs and----
    Dr. Santini. We--sales showed some sensitivity to oil 
prices over the period--it looked like, anyway, from the 
Katrina, and then prices subsided. The sales came down a bit. 
And then, you know, when, more recently, the prices have 
spiked, and sales--the pressures took off. Toyota said that the 
Prius--there was actually a decline in Prius' monthly sales 
rate, but Toyota said it was due to availability and some 
glitches----
    Chairwoman Biggert. But why aren't these companies, then, 
making more of them when they are--you know, they are wanted by 
the public? Is there some reason why there is such a backlog 
when other--you know, other--the regular cars? Is it cost? Or 
does anybody know?
    Dr. Santini. Well, one thing I am--that I observed in 
studying the purchasers and the highest level of interest in 
hybrids was that high level of education explained it much 
better than annual driving, for example. So there are people 
that, I think, are probably a relatively significant market 
that are interested in the technology for many of its, sort of, 
own sake attributes.
    Chairwoman Biggert. So we probably need an education or a 
PR campaign as well about the benefits and the conservation 
that people would be making by driving these cars?
    Dr. Santini. That is why I think that the ongoing study is 
trying to cover all of the potential benefits look--that look 
promising for their ability to back up leaders.
    Chairwoman Biggert. So Mr. Duncan, with your demonstration 
project, is this something you think will help to--for 
individuals to realize the importance of conservation?
    Mr. Duncan. Oh, absolutely. As I have said, when fleet 
managers and ordinary individuals are explained this 
technology, they have the same reaction that you and others 
have had: ``Where do I get one?'' But a major hold-up is 
actually being able to see and drive one and see that it drives 
like an ordinary vehicle does and there is nothing you have to 
do. So that is why I am pressing so hard to get some spread 
around the country instead of--I will take the vehicle you are 
seeing here today, in order to get it here in time, had to be 
flown in, because there are so few around the country right 
now.
    Chairwoman Biggert. Thank you.
    Mr. Sherman.
    Mr. Sherman. Thank you.
    Chairwoman Biggert. I am sorry.
    Mr. Sherman.
    Mr. Sherman. Okay. The electric meter at my home is 1950's 
technology. It cannot distinguish whether I am buying the 
electricity at peak or non-peak hours. If I am going to 
recharge a car at home, I am going to be paying, say, 10 cents 
a kilowatt because the--that is a fair price if you are paying, 
sort of , a blend between peak and non-peak fair prices. Should 
we have a system whereby those who own plug-in hybrids are able 
to fill out a form saying, ``Look, this is how much electricity 
my car used. I only plug it in non-peak hours. Therefore, for 
that amount of electricity, cut me down to four cents or five 
cents a kilowatt.'' How much--this is something Congress could 
require. How much of an incentive will it be to getting plug-in 
hybrids accepted if people are able to pay a fair, non-peak 
cost for their kilowatts rather than having to pay the blended 
average rate that we all pay now?
    Yes. Mr. Santini.
    Dr. Santini. In my testimony, I mentioned that it is very 
important for the electric utility industry across the country 
to adopt, and I--in the written testimony, I used the word 
economically-legitimate off-peak rates as promptly as possible 
and show the auto industry that what they tell me and what I 
believe as an economist that there are good reasons for low 
marginal costs off peak. And I--it is a short-term benefit to 
the--not short-term, but it is a significant benefit to the 
electric utility industry, so the rates should be in place. Now 
whether Congress should require that or not, I didn't say that, 
but----
    Mr. Sherman. Well, it would need, almost, a consumer-
completed form. There--at a huge industrial facility, they can 
keep track of how many kilowatts are on-peak and how many are 
off-peak and how many--and at my home, there is no way to know 
when--which kilowatts are going to the TV I am watching during 
peak hours and which kilowatts are being used in--to recharge 
the car. But if you had a system by which, perhaps under 
penalty of perjury, the same way you sign a tax form, you are 
able to inform the utility how many recharge hours you used, 
and they were required to give you the same low rate that they 
give non-peak industrial customers, that would be a reduction 
in price. I am trying to get a handle on this from a consumer 
standpoint. I know what it costs to operate a regular car. I 
know what it costs to operate a hybrid car. And I know that a 
plug-in hybrid is going to be somewhere in between a purely 
electric car on the one hand and a hybrid non-plug-in car on 
the other. Let us say I buy one of these plug-in hybrids and I 
never have to turn on the electric--the gasoline motor, because 
I just use it for short distances. What is my fuel or energy 
cost per mile at 10 cents a kilowatt? How many miles can I go 
per kilowatt if I am just going short distances.
    Dr. Frank. Well, these cars have--I can answer that. Or 
maybe I can answer part of that. But these cars get about 250 
watt hours per mile, roughly.
    Mr. Sherman. Two hundred and fifty watt hours----
    Dr. Frank. Watt hours per mile.
    Mr. Sherman.--per mile. And at 10 cents a kilowatt, is----
    Dr. Frank. Well, there are two-tenths of a--0.2--a quarter 
of a kilowatt hour a mile.
    Mr. Sherman. A quarter of a kilowatt hour, so I am paying 
2.5 cents to go a mile----
    Dr. Frank. Yeah.
    Mr. Sherman.--for fuel costs?
    Dr. Frank. Right. That is about right. Yeah.
    Mr. Sherman. Whereas, at $3 a gallon, even if I am getting 
30 miles per gallon----
    Dr. Frank. It is about 12 cents kilowatt----
    Dr. Santini. The EPRI study had about 0.3 kilowatt hours 
per mile, and my colleagues are concerned about effects of air 
conditioning and auxiliary loads, so I use 0.38 in some of my 
most recent calculations. I am going to give you a range of 
values to think about.
    Mr. Sherman. Okay. So I am seeing one range here of a 
difference between 2.5 cents a mile and 12 cents a mile?
    Dr. Frank. That is about right.
    Mr. Sherman. That is about right?
    Dr. Frank. Right.
    Mr. Sherman. Okay. And that is at--that is paying the 
regular cost for electricity rather than non-peak cost?
    Dr. Frank. Right. Right.
    Mr. Sherman. So that could come down----
    Dr. Frank. Even more than that.
    Mr. Sherman. Okay. The other problem I----
    Mr. German. Keep in mind that even if you drive, I am 
sorry, 800 miles a month just on the battery alone, that is 
going to work out to $20 a month on your electric bill. Getting 
this low rate is going to cut it from $20 to $10. And I am not 
sure how much of an impact it is going to have on the 
customers.
    Mr. Sherman. Got you. So what you are saying is that the 
technology--the fuel usage economy is already so good----
    Dr. Frank. Yeah.
    Mr. Sherman.--that you don't need to pay a fair price for 
the electricity? The other thing that is missing, of course, is 
places to plug it in.
    Dr. Frank. That is an incentive right there to plug it in.
    Mr. Sherman. Well, no, what I mean--what we have not done, 
as a society, is require every garage owner to have places you 
could plug it in, whether it be three or whether it be--or 
whether you would, you know, be coin-operated or whatever, the 
most important thing that would make my vehicle more efficient 
is drive to work, have a place to plug it in----
    Dr. Frank. Yeah.
    Mr. Sherman.--and then use the electricity to come back 
rather than having to use the engine. I hope that as the bill 
goes forward, we are able to come up with a workable plan to 
require those in the business of garaging cars to provide a few 
spots where you could re-plug.
    Dr. Frank. In Canada, they do, you know. Canada has--the 
cold climates have plugs on every parking spot.
    Mr. Sherman. I wonder if Mr. Duncan has a comment, and then 
my time is expired.
    Mr. Duncan. Speaking from an electric utility, I think you 
are right on target with several points. Several--the electric 
utility could start providing--charging positions in parking 
garages. Ultimately, you know, you could even reverse this 
technology, and if we started wiring parking garages, a vehicle 
could charge at night, come in, plug in, and then on a hot 
afternoon day in Austin, for instance, we could actually 
reverse that charge and draw down just a little bit on a whole 
bunch of batteries and avoid peaking power plants. The 
transportation system could actually act as a capacitor in that 
regard. The utilities could certainly start to offer off-peak 
pricing during the evenings for charging. I think that you may 
find one of the greatest obstacles in the electric utility 
industry is not really the technology of the metering and such 
but the billing system. And it has been my practical 
limitations on learning how to--in dealing with this. But it is 
certainly all possible within the electric utility industry.
    Chairwoman Biggert. Thank you.
    Before I recognize Ms. Jackson Lee, I just wanted to remind 
everyone that is here that we do have the demonstration out at 
New Jersey and C Southeast, which is right out--just a block 
away. And I think that I will enjoy seeing the hybrid plug-in 
cars that are available there. So I would urge you all to--
after here to go over there.
    So now, Ms. Jackson Lee from Texas, you are recognized.
    Ms. Jackson Lee. Thank you very much, Madame Chair. Thank 
you for, I think, a very timely hearing.
    Let me welcome Mr. Roger Duncan from Austin, Texas. We are 
just--or at least Austin Energy in Texas. And hopefully--is 
that in Austin?
    Mr. Duncan. Yes, ma'am.
    Ms. Jackson Lee. And we are your neighbors in Houston. So 
let me welcome you and congratulate you for some of this work.
    Thank you for yielding to me, and I ask for you to indulge 
the fact that I was in a Homeland Security hearing, but I 
thought this was extremely important. I am going to raise, 
just, some questions, and I would like everyone to take a stab 
at them.
    Obviously, you are in the backdrop of the rising eye of 
Americans on gasoline prices and the lack of focus on 
alternative fuels. And so I raise the question on, first, 
though you may have covered this, the kind of standards 
necessary to begin to set up the framework of an industry that 
would engage in the plug-in hybrid. I would also be interested 
in what role universities can play in this research. Are we at 
the peak level of the research, or can we utilize new 
technologies through more research funding through 
universities? I am also concerned about the workforce. This is 
a broad question of alternative fuels, but the plug-in is 
particularly unique. What skills will the new--or training will 
the new workforce need to really, if you will, plug in to this 
new plug-in hybrid to make this a viable industry or a viable 
concept? And finally, the Administration has the Advanced 
Energy Initiative. Is that enough, or what more can we do? I am 
noting legislation that is proposed to this committee, and I am 
going to be looking at this very carefully. But what more can 
we do around the Advanced Energy Initiative to really pump, if 
you will, energy into this concept of alternative and this 
plug-in hybrid?
    And gentlemen.
    Dr. Santini. Well, I will speak first.
    The--I am proud to have been associated with the--but very 
indirectly, just--most of my colleagues did the work, the 
student competitions program that Andy mentioned earlier where 
a number of technologies have been evaluated over the years, 
but this is a cooperative program of universities, industry, 
and the National Labs that has tried to work to make it--to 
keep it moving and with a good topic every year. So but the 
plug-in hybrid technology itself emerged, in part, as a result 
of the student competitions. It did train students to work in 
the auto industry. So I think it is a good model going forward. 
It has been focused on very long-term technology. We may be in 
a different environment, but it is a good model, and working 
with universities has--is probably responsible for the great 
interest, in significant part, in plug-in hybrids now.
    Ms. Jackson Lee. And should--we should expand that work 
with universities?
    Dr. Santini. Well, you certainly--if the technology is to 
succeed and if electric drive is a technology that is a great 
long-term interest to the country, and I believe it looks like 
it is, then probably it should--something like that should be 
expanded.
    Ms. Jackson Lee. Thank you.
    Just jump in.
    Dr. Ricketts. I feel strong about demonstration projects. 
My, probably, role in this energy thing is more a linker in 
linking these technologies together. Earlier, I explained the 
processes in producing hydrogen. I didn't really invent any of 
that, but I brought the electrolysis unit together. I brought 
the solar unit together. I brought the storage together. So it 
is there in a demonstration spot so that people could come in 
and see how it can be done.
    Ms. Jackson Lee. Others? The training, the standards, the 
amount of money invested?
    Dr. Frank.
    Dr. Frank. Yeah, I really would like to say that one of the 
biggest problems we have in judging these hybrids, and 
especially plug-in hybrids, which uses, really, two energy 
sources, electricity and gasoline, is how to measure 
performance. EPA has, over the years, established performance 
for conventional cars. That is miles per gallon and emissions 
and so on. But no standards, no such standards have been made 
for a dual fuel--dual energy source system like the plug-in 
hybrid. And we have to establish those standards so that 
industry can have something to work towards. And it is--that is 
kind of the first step that we should be taking, establishing 
those kinds of standards to give all of the car companies an 
equal footing on getting a program started.
    Then your last point was on advanced energy?
    Ms. Jackson Lee. The Advanced Energy Initiative that has 
been proposed by the President. Is it enough? Or what more do 
we need to do?
    Dr. Frank. Yeah, I think the--that--in that program, you 
number of--you specify a number of areas where you are going to 
be putting money into. And relative to the plug-in hybrid, I 
think the plug-in hybrid has the biggest chance to offset the 
use of oil. And we really should be focusing on that now, 
because this is an important--this is the most important thing 
for our country. So I would like to see a reallocation of 
resources and effort on--in that energy bill. Some of the 
things that are important are, perhaps--lightweight materials 
is important, but that is a much longer research. And certainly 
fuel cells may be, but that is even longer research. So what is 
important now to the country is to do something that we can get 
started now on.
    I mentioned earlier, even if we were to start the plug-in 
program today, we would only be saving about five percent of 
the oil after five or six years, and maybe even 10 years. So 
all of these other programs, it would be--it is even longer 
than that. We have got to do something in the next five or 10 
years.
    Mr. German. Yeah, the--your basic research on batteries and 
other forms of energy storage is extremely important, not only 
for plug-in hybrids but for conventional hybrids, for battery 
electric vehicles. There are neighborhood electric vehicles 
that are already a commercial market, and there are ways to 
expand that. Even fuel cells can benefit from it. So I think 
that anything you--any amount you can spend on basic energy 
storage research is going to be money well spent.
    Ms. Jackson Lee. Mr. German----
    Chairwoman Biggert. If we could close this, we are--there 
are--we are expected at the demonstration of the hybrid cars 
that have----
    Mr. Sherman. Request 20 seconds.
    Chairwoman Biggert. Go ahead.
    Ms. Jackson Lee. If I could let someone just tell me about 
the skills, and I will end. And I thank you, Madame Chairwoman. 
I will just--if someone just have skills, and I will certainly 
thank you for any other answers you can put in writing. I thank 
you.
    Mr. German.
    Dr. Duvall. Duvall, actually. I think that----
    Ms. Jackson Lee. Dr. Duvall, I am sorry.
    Dr. Duvall.--one of the main requirements that is needed in 
the university are now that we are putting a lot of power 
electronics on board vehicles and high-voltage systems is that 
power systems engineering has become extremely rare at the 
university level. It is a common concern in the utility 
industry before transportation. A lot of the electrical 
engineering students cannot--simply cannot study power systems 
engineering even though they go to major research universities. 
And I think this is one extremely important near-term 
requirement, because the--we will have to be training engineers 
and technicians that are very familiar with power electronics 
and power systems.
    Ms. Jackson Lee. Thank you. Thank you very much.
    Chairwoman Biggert. And with that----
    Mr. Sherman. Madame Chair, if I could just speak for 20 
seconds.
    Perhaps your slogan, or our slogan, should be ``Plug in to 
62-cent-a-gallon gasoline,'' because I have done the 
calculations.
    Dr. Frank. Yes.
    Mr. Sherman. And 2.5 cents a mile is like taking us back to 
62 cents a gallon.
    Dr. Frank. Right.
    Chairwoman Biggert. Before we bring this hearing to a 
close, I want to thank our panelists for testifying before the 
Energy Subcommittee.
    If there is no objection, the record will remain open for 
additional statements from the Members and for answers to any 
follow-up questions the Subcommittee may ask the panelists. 
Without objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Mark S. Duvall, Technology Development Manager, Electric 
        Transportation & Specialty Vehicles, Science & Technology 
        Division, Electric Power Research Institute (EPRI)

Questions submitted by Representative Michael M. Honda

Q1.  Do you see the development of advanced plug-in hybrid vehicles 
more as a transitional technology to get us to the point where fuel 
cells are available or as a substitute for fuel cells for 
transportation purposes?

A1. They are separate and complementary technologies. The role of 
electricity in transportation is to introduce an energy source that is 
extremely efficient, can be generated with many low- or non-emitting 
(including renewable) plant technologies, and is relatively near-term 
in its commercialization prospects. The role of hydrogen fuel cells is 
to replace combustion engines--increasing efficiency and allowing the 
use of non-petroleum, renewable energy sources (although at lower 
efficiency than direct electricity-battery systems.
    As an example, hydrogen is a very good fuel for large, commercial 
applications like trucks, transit buses, and other vehicles that use a 
very large quantity of diesel fuel each day. These vehicles are fueled 
at large depots, minimizing hydrogen infrastructure requirements and 
there are significant criteria pollutant savings by replacing the 
diesel engine with a hydrogen fuel cell.
    For light- and medium-duty vehicles, a plug-in hybrid with 20-40 
miles of electric range will generally have superior fuel cycle energy 
use and greenhouse gas emissions compared to an equivalent fuel cell 
vehicle, with dramatically lower infrastructure costs.
    Hydrogen vehicles are unlikely to become either as efficient or as 
cost-effective as plug-in hybrids in the foreseeable future. Renewable 
electricity (e.g., wind) is three to four times more efficient when 
applied to a plug-in hybrid or electric vehicle as when used to 
generate hydrogen.
    In the future, these two technologies will likely co-exist and can 
even be combined as plug-in hybrid fuel cell vehicles--the fuel cell 
replaced the combustion engine and the vehicle runs on a combination of 
electricity and hydrogen energy.

Q2.  In your statement, you say that the most recent batteries 
demonstrate excellent safety, power performance, and laboratory life. 
Future challenges will include verifying lifetime testing, and 
developing production facilities to ramp up the availability of this 
technology. Expand on your statement and tell us what you see as the 
biggest hurdles in the development of satisfactory batteries and why 
these problems continue to be significant.

A2. The single most important issue with advanced batteries for plug-in 
hybrid vehicles is that there is presently no large-scale manufacturing 
capacity for these batteries. Existing lithium ion ``energy'' batteries 
are adequate to meet the near-term requirements of plug-in hybrids. The 
costs of these batteries are currently high because volume is very low. 
The government and industry need to discuss how to ``prime'' this 
market so that battery suppliers will build the manufacturing capacity 
to supply an emerging plug-in hybrid market. This can provide promising 
opportunities to incentivize domestic manufacturing capacity.
    We currently need to do more testing (both in the laboratory and in 
the field with demonstration vehicles) to thoroughly understand how to 
get the best long-term performance from plug-in hybrid battery systems. 
Near-term R&D needs to focus on large-scale demonstration programs 
(minimum of 200-300 vehicles) as this will promote both good battery 
system development and provide suppliers and manufacturers with 
valuable in-use data on the performance of these systems.
    A secondary issue is to encourage and support R&D on new energy 
batteries suitable for plug-in hybrids. The majority of the battery R&D 
in transportation is focused on high-power designs for current hybrid 
vehicles. Specifically supporting R&D on high-energy designs more 
suitable for plug-in hybrids will help promote further development to 
ensure that energy batteries continue to improve in cost, performance, 
and durability.

Q3.  You mention in your testimony that one of the three technical 
challenges is the development of a set of charging standards. Of the 
three parties you mention--government, the auto industry and the 
electric utilities--which one should take the lead in developing the 
standards? Should the legislation address the standards issue, and if 
so, what should be done?

A3. The utility industry should take the lead on this issue, but 
charging standards must be developed in tandem by the automotive 
industry and utility industry to account for both vehicle-related and 
infrastructure-related aspects of standardization. The utility industry 
already has an organization in place--the Infrastructure Working 
Council (IWC)--to facilitate this collaboration between industries. The 
IWC has worked in the past to bring auto manufacturers, utilities, and 
component suppliers together to develop standards and make appropriate 
recommendations to the official standards-making bodies like SAE, NEC, 
etc. The Federal Government, who already participates in the IWC (via 
the National Labs), can support this process both technically and 
financially. Legislation can direct the DOE to support the standards 
making process.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The President has requested $12 million for R&D on plug-in 
hybrids, including an increase of $6 million for R&D to develop better 
car-batteries.

     Is this amount enough to provide sufficient momentum for 
development and application of these technologies? What amount do you 
feel is sufficient for such an initiative?

A1. There are three previous federal programs that were similar in 
intent and objectives-the U.S. Advanced Battery Consortium to develop 
electric vehicle batteries, the FreedomCAR (PNGV) effort to develop 
hybrid electric vehicle technology, and the FreedomCAR program to 
develop hydrogen and fuel cell technology.
    Ramping up plug-in hybrid vehicle program support to similar levels 
as these programs will significantly aid commercialization prospects 
for the technology--the technology gaps for plug-in hybrids are 
significantly fewer than for each of the previous programs at their 
inception.
                   Answers to Post-Hearing Questions

Responses by John German, Manager, Environmental and Energy Analyses, 
        American Honda Motor Company

Questions submitted by Representative Michael M. Honda

Q1.  Do you see the development of advanced plug-in hybrid vehicles 
more as a transitional technology to get us to the point where fuel 
cells are available or as a substitute for fuel cells for 
transportation purposes?

A1. It is not possible to give a definitive answer to this question. 
Clearly, at some point in the future transportation must become truly 
sustainable, with no net carbon emissions and little, if any, fossil 
fuel use. There are a number of possible options that could provide 
this sustainability. One broad option is a fuel cell vehicle powered by 
hydrogen created from renewable sources. Another possibility is 
battery-electric vehicles powered by electricity created from renewable 
sources. A third option could be highly efficient vehicles powered by 
fuels created with renewable methods, such as biomass and waste-to-
energy. Combinations of these three broad options are also possible.
    To further complicate matters, there is a multitude of potential 
pathways forward that could greatly improve our energy security and 
reduce greenhouse gas emissions while we are working towards truly 
sustainable technologies. Also note that from a technical and market 
viewpoint liquid fuels have two huge advantages, assuming similar 
production costs and environmental impacts. One is a readily available 
infrastructure with very fast, convenient refueling. More importantly, 
liquid fuels have very high energy density. Ten gallons of gasoline 
only weighs 62 pounds, but contains about 330,000 Wh (watt-hour) of 
energy. By comparison, a current state of the art NiMH battery (70 Wh/
kg) with the same energy capacity would weigh over five tons. A 
theoretical advanced Li-ion battery pack (120 Wh/kg) would still weigh 
over three tons. One of the advantages of fuel cells over battery 
electric vehicles is that hydrogen energy density is a lot better than 
battery energy density. However, hydrogen is a very lightweight gas 
that is difficult to compress and turns to liquid only at 
^423<SUP>+</SUP>F (^253<SUP>+</SUP>C). Thus, the energy density of 
hydrogen is still much worse than liquid fuels.
    As long as fossil fuels are readily available, battery-electric 
and, to a lesser degree, hydrogen vehicles need a breakthrough in 
energy storage in order to compete with liquid fuels in light-duty 
vehicles. This is the appeal of hybrid vehicles, as they obtain large 
improvements in efficiency with relatively small battery packs. This is 
also where plug-in hybrid vehicles may be able to compete if the cost 
of energy storage comes down, as liquid fuels are still used to provide 
extended range when needed. However, note that the current electrical 
grid has a large coal fraction with high CO<INF>2</INF> emissions, 
especially for the marginal units that would be used for 
transportation. A switch to plug-in hybrid vehicles would not help 
reduce global warming gases very much unless electricity generation 
moves to low greenhouse gas sources.
    If hydrogen storage is resistant to solutions or the cost of making 
and distributing hydrogen proves to be higher than other options, then 
highly efficient conventional vehicles, possibility including hybrids 
and plug-in hybrids, may be the optimal solution for a long time. But 
there are a lot of potentially productive pathways that may not include 
either of these two alternatives. For example:

        <bullet>  Efficient hybrids (not necessarily plug-in) could 
        lead to fuel cell vehicles.

        <bullet>  Efficient ICE vehicles utilizing renewable liquid or 
        gaseous fuels could lead directly to fuel cell vehicles.

        <bullet>  Natural gas and hydrogen ICE vehicles could lead to 
        fuel cell vehicles and hydrogen.

        <bullet>  If a genuine breakthrough occurs in energy storage, 
        then hybrid vehicles and plug-in hybrid vehicles are more 
        likely to be a transitional technology to battery-electric 
        vehicles, or a mixture of fuel cell and battery-electric 
        vehicles.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The President has requested $12 million for R&D on plug-in 
hybrids, including an increase of $6 million for R&D to develop better 
car batteries.

     Is this amount enough to provide sufficient momentum for 
development and application of these technologies? What amount do you 
feel is sufficient for such an initiative?

A1. Honda strongly supports R&D to develop better energy storage in 
general. Better energy storage is critically needed for hybrid 
vehicles, plug-in hybrid vehicles, and battery-electric vehicles. 
Improved energy storage, including both batteries and ultra-capacitors, 
will have great benefits for all types of hybrid and electric vehicles. 
Fuel cell vehicles may potentially benefit as well.
    Batteries have been in widespread use and development for over 100 
years. If it were easy to develop an improved battery, it would have 
already happened. Advanced battery formulations are extremely complex 
and there are a wide variety of options that need to be explored. While 
$6 million for R&D to develop better batteries is not likely to be 
enough, it is not possible to predict the pace of technology 
development. Larger amounts of research increase the chances of finding 
a breakthrough and battery research should be among Congress' highest 
energy-related R&D priorities. Congress should seek a five-year 
research plan from the Department of Energy that is updated annually to 
reflect progress. Funding should be re-evaluated as the plan is 
updated.

                   Answers to Post-Hearing Questions

Responses by S. Clifford Ricketts, Professor, Agricultural Education, 
        School of Agribusiness and Agriscience, Middle Tennessee State 
        University

Questions submitted by Representative Michael M. Honda

Q1.  Do you see the development of advanced plug-in hybrid vehicles 
more as a transitional technology to get us to the point where fuel 
cells are available or as a substitute for fuel cells for 
transportation purposes?

A1. I did not believe that the development of advanced plug-in hybrid 
vehicle is either (1) ``a transitional technology to get us to the 
point where fuel cells are available'' or (2) ``a substitute for fuel 
cells for transportation purposes.''
    Rationale for Statement (1): I did not believe ``plug-ins'' are a 
transition to anything. I believe that they are viable within 
themselves. It is unfathomable that the automotive companies ever built 
hybrid vehicles without the plug-in component (option). Fuel cells are 
the power for the future for automobiles, but presently they cost 6.5 
times the equivalent horsepower of an internal combustion engine. 
Furthermore, plug-ins cost one-third as much as gasoline per mile.
    Rationale for Statement (2): Plug-ins are not a substitute for fuel 
cells. Plug-ins are valuable today, and offer many opportunities to run 
vehicles off a variety of energy sources through the grid lines. As 
mentioned above, fuel cells are the power source in vehicles for the 
future, but due to the cost the future is twenty to thirty years away.
    My Proposal for the Future: In reality, I don't believe ``The Plug-
In hybrid Electric Vehicle Act of 2006'' goes far enough. CalCars and 
others have already developed plug-in hybrids. Let us amend the Act and 
call it ``The Flex-Fuel Plug-In Electric Vehicle Act of 2006.'' Let us 
get real serious about the energy crisis. I have always been taught not 
to bring up a problem unless you have a solution. The following is 
where I really believe our legislation should center:

(1)  Provide research funds for researchers (public or private) to 
develop flex-fuel vehicles to run off (a) plug-in (b) gasoline (c) 
ethanol (d) hydrogen (e) propane and (f) natural gas. Note: These 
vehicles exist but are not available as plug in hybrids.

    Justification: With the plug-in component, we have the 
infrastructure to run vehicles off nuclear, solar, wind, hydro, plus 
the fossil fuels. Gasoline is still an option, ethanol can be used in 
places where it is available. Hydrogen can be used where it is 
available, and be used as a transition in the internal combustion 
engine until fuel cells are feasible. Propane and natural gas could be 
used in the same vehicle if they are more economical. Really, this is a 
``no-brainer.'' That is, let us develop a flex-fuel plug-in hybrid 
spark-ignited vehicle that will run off anything that the spark-ignited 
(gasoline) vehicle can run off individually.

(2)  Provide research funds for researchers (public or private) to 
develop a plug-in flex-fuel spark-ignited (gasoline)/heat of combustion 
(diesel) engine. For example, a six or eight cylinder engine could be 
developed that uses three or four cylinders as spark-ignited and three 
or four cylinders as heat of combustion.

    Justification: This vehicle could run off everything in proposal 
one just discussed, plus the engine/vehicle could run off diesel, 
soybean oil, and other vegetable oils. This would be the ultimate 
alternative fuel vehicle that could run off anything. This vehicle 
would be the true bridge (transition) until fuel cells are available.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The President has requested $12 million for R&D on plug-in 
hybrids, including an increase of $6 million for R&D to develop better 
car-batteries.

     Is this amount enough to provide sufficient momentum for 
development and application of these technologies? What amount do you 
feel is sufficient for such an initiative?

A1. I don't fell qualified to answer this question. However, I am very 
passionate about the answer to Representative Honda's question. The 
only educated response that I can give to the question is that a 
researcher at a National Energy Convention from Zebra Battery said that 
they could develop a battery for any range if they had enough orders to 
justify the research, set-up, and construction costs. Therefore, I 
believe the technology is available, it is just a matter of cost-
efficient ratio, and I do not know what that is.

                   Answers to Post-Hearing Questions

Responses by Danilo J. Santini, Senior Economist, Energy Systems 
        Division, Center for Transportation Research, Argonne National 
        Laboratory

Questions submitted by Representative Michael M. Honda

Q1.  Do you see the development of advanced plug-in hybrid vehicles 
more as a transitional technology to get us to the point where fuel 
cells are available or as a substitute for fuel cells for 
transportation purposes?

A1. Actually, though it is only an educated guess at this point, the 
answer is neither. I speculate that R&D on the two technologies will 
lead to a shift of focus of fuel cell vehicle development toward a 
plug-in hybrid fuel cell vehicle. If that is correct, then the 
development of plug-in hybrid vehicles would be complementary to, and 
enabling of fuel cell vehicle technology.
    Imagine a success scenario where plug-in hybrids with initially 
limited range and electric use capability evolve to plug-in hybrids 
with conventional engines and 30 to 60 miles of all-electric range, 
followed by plug-in hybrid fuel cell vehicles with similar all electric 
range. In my view, this could take one to two decades to evolve. With 
such a capability, on most days within an urban area, consumers could 
use electricity. Since far less hydrogen would need to be delivered 
within the urban area, this would reduce hydrogen infrastructure 
construction needs. Since the costs of hydrogen delivery infrastructure 
are high in urban areas, this cost is an impediment to hydrogen fuel 
cell vehicles. Also, if fewer hydrogen delivery stations had to be 
built within urban areas, fewer suitable sites would need to be found, 
probably making safety issues less of a problem.
    Also, even with less electric use capability than for a plug-in 
hybrid with 30-60 miles of electric range, a plug in infrastructure in 
place could allow electric heating of fuel cell stacks of plug-in fuel 
cell vehicles prior to unplugging. This could help to greatly reduce 
concerns over delays while awaiting fuel cell stack warm-up. Further, 
since a fuel cell stack in a plug-in hybrid could be smaller, there 
would be less stack mass to keep warm.
    Finally, if half of a plug-in fuel cell vehicle's mileage was 
provided via grid electricity, this would mean that the total hours of 
use of the fuel cell stack could be half as much as in a grid 
independent fuel cell vehicle with the same total mileage. Since stack 
life (total hours of service) is an issue of concern, this could allow 
fuel cell stacks to be successfully introduced sooner, with more 
reliability than would otherwise be the case.
    Though all of these theoretical opportunities would need to be 
examined carefully, they are each arguments that support the 
possibility that plug-in hybrids could make fuel cell power units more 
quickly available, at a lower total cost to the customer.
    A reason that it would likely be desirable to keep the plug-in 
option as a part of the fuel cell powertrain is that the battery 
storage of electricity from wind power and solar energy would provide 
more miles of travel than if that electricity were used to produce 
hydrogen by electrolysis and used to power the fuel cell stack. 
Conversely, once fuel feedstocks were gasified to separate carbon and 
hydrogen, it would be less efficient to use the hydrogen to produce 
electricity for the grid for use in the plug-in battery than to use 
hydrogen on-board to power the fuel cell stack.
    From another perspective, previously produced hydrogen should be 
used in the fuel cell stack to generate electricity on board a vehicle 
rather than to generate electricity off-board for use in electric 
vehicles. The reason is that the energy storage capability of the 
hydrogen fuel cell powertrain is far better than for batteries--even 
lithium based batteries. Thus, if urban areas of the future desire a 
zero tailpipe emissions vehicle (as several presently do), but 
customers continue to desire a vehicle with 300 or more miles of range, 
a pure battery electric option cannot meet the latter need, while a 
hydrogen fuel cell vehicle can.
    The enticing feature of a hydrogen fuel cell stack is that its 
electric generation efficiency is not particularly sensitive to scale. 
For other methods of generating electricity, if the amount of power 
generated is as small as the amount required to power a vehicle, the 
efficiency drops sharply. But for a fuel cell stack, a very small stack 
with a power rating suitable for a vehicle will be about as efficient 
as a stack providing megawatts of power, and will be far more efficient 
than an internal combustion engine.
    In my view, opinions of some colleagues notwithstanding, along with 
battery cost, the inability of electric vehicles to provide customers 
driving range comparable to gasoline vehicles has been their Achilles 
heel. Until and unless we know that a battery electric vehicle can 
accomplish such a feat, it is appropriate to conduct research on fuel 
cell vehicles. Though lithium based batteries would get us closer to a 
range capability acceptable to the consumer, at the present time my 
estimates imply that they still could not provide enough range at an 
acceptable cost. A related issue is the amount of material and 
processing energy required to provide large enough batteries to provide 
the needed vehicle range. Note that a 2001 MIT study (On the Road in 
2020) estimated that a theoretical nickel metal hydride battery 
electric vehicle with 300 miles of range would cause more greenhouse 
gas emissions than a hybrid electric vehicle with 470 miles of range, 
due to processing energy in battery production. This has to be looked 
into for li-ion, but you see that it is an issue. While GM says that it 
now has a prototype fuel cell vehicle (the Sequel) that can achieve 300 
miles of range, I am not aware of any manufacturer claiming that there 
is or soon will be an electric vehicle which can do this.
    Remember that one of the attractive features of both electric 
vehicles and fuel cell vehicles, from environmentalist's point of view, 
is that they can never fail to provide zero tailpipe emissions, even if 
they are not functioning properly. Many regulators and environmental 
scientists I have worked with have been concerned with what are called 
``gross emitters''--vehicles whose emissions control system has failed. 
Plug-in hybrids using internal combustion engines are unlikely to ever 
be perfect in this regard. So, assured zero tailpipe emissions 
capability will likely remain a reason that many members of the 
environmental community will maintain an interest in the fuel cell 
vehicle. Thus, this is another reason to maintain research on fuel cell 
vehicles.

Q2.  How can the organized research community tap the creativity and 
talents of the experimentalists who push technologies and open our eyes 
to the possibilities of technological breakthroughs?

A2. In my opinion, the U.S. private sector is the most vibrant and 
productive in the world in tapping creativity of experimentalists. 
Further, much of the organized research community wishes to tap into 
the riches that can become available if a technology is successfully 
pursued, so experimentalists do get the best opportunities in the world 
here.
    I believe that the one area where innovators--those who bring a 
product to market--would be well served by the research community would 
be through far more unbiased, independent testing and verification of 
results claimed by experimentalists. Testing and verification is of 
value to both experimentalists and technology innovators because it 
helps more efficiently allocate resources. When the claims of the 
experimentalist are shown to be unwarranted, the mode of failure or 
area of weakness of the technology is identified, allowing the 
experimentalist to focus any further work on weak points. Should the 
claims of the experimentalists be verified, then innovators such as 
venture capitalists can more confidently invest in the conversion of 
the experimental technology to a market ready technology.
    Actually, I believe that verification and testing--under real 
conditions that the product will experience in the hands of consumers--
is extremely important if we want to successfully accelerate the 
adoption of advanced vehicle technologies. If we don't do thorough 
testing and become knowledgeable about technology limitations before 
the technology is in the hands of consumers, then early versions of the 
technologies will be seen to be failures. Such experiences could 
delay--or even worse eliminate--a technology that could save the Nation 
a lot of oil if used properly, recognizing its strengths and 
weaknesses. This may mean spending considerable amounts of money to 
develop new test facilities and methods. A simple contemporary example 
is the approved methods of testing of vehicles with ``auxiliary 
loads''--air conditioning in particular--turned off. Vehicles are also 
tested and officially rated--across the world--as if they were driven 
far less aggressively than in actual use by consumers. For hybrid 
vehicles these omissions led to expectations and claims of greater 
percentage improvements in fuel economy than has actually been realized 
``on-road'' by consumers. As a result, the Environmental Protection 
Agency has been working on the development of a significantly more 
costly set of vehicle tests than used in the past--adding low and high 
temperature tests and more ``aggressive'' and higher top speed driving 
tests. The plug-in hybrid will be a far greater challenge than even the 
hybrid, which itself has caused us to rethink our vehicle testing 
protocols. To develop reliable new technology plug-in hybrid batteries 
suitable to consumers throughout the U.S., we will need a lot more 
testing at extreme environmental conditions. We should plan on 
constructing facilities and establishing multiple fleet test locations 
that will allow us to do such testing. With regard to the need to 
expand the testing ``envelope,'' testing over a wider range of speeds 
and acceleration/deceleration conditions will be necessary. Legal speed 
limits have moved up since existing test protocols were developed, and 
the increased power available in vehicles allows more rapid 
acceleration. Texas just moved the maximum rural speed limit up to 80 
mph.
    In my opinion, both hybrids and plug-in hybrids will provide owners 
an ability to manipulate their fuel efficiency to a far greater degree 
than for a conventional vehicle, by altering their driving behavior. If 
so, I would argue that potential consumers would need to be made aware 
of this. Driver education might eventually be adapted to provide 
training in how to get the best fuel economy out of hybrids and plug-in 
hybrids.
    The bottom line is that if we want to see experiments work their 
way successfully and expeditiously into the market, the technology 
being experimented with needs to be tested thoroughly and 
realistically. In my view, both rigorous field tests and much better 
laboratory tests need to be supported.

Q3.  There is a belief that there is a secondary market for current 
generation of lead acid and nickel metal hydride batteries after they 
are retired from service in hybrid vehicles. Do the characteristics of 
Lithium-ion batteries lend themselves to follow-on uses after being 
used in vehicles?

A3. At this time, I would not regard myself as an expert on secondary 
markets. The most appropriate answer would be ``I don't know,'' or ``it 
remains to be determined.''
    As you imply, although batteries used in hybrids may end their 
useful life from the point of view of suitability for the vehicle 
customer, they may have remaining useful life from the point of other 
customers. Power and/or energy per unit mass and volume may no longer 
suit the hybrid vehicle owner, but may be adequate for other purposes. 
For nickel metal hydride hybrid batteries, I believe that it remains to 
be seen whether a significant post-vehicle market for used batteries 
will develop, other than the recycling market.
    Of course recycling is presently the primary source of residual 
value. The secondary market for recycled materials has proven to be 
important to date for lead acid and nickel metal hydride at the end of 
their useful life for all purposes. Others have speculated that 
recycling of lithium ion batteries is less likely than for nickel metal 
hydride. However, for hybrid batteries in particular, I suggest that 
this would be subject to the yet-to-be determined path of battery 
development, and should be affected by battery design and pack design. 
Many combinations of materials and assembly configurations are being 
considered, so it is too early to do anything more than study the 
possibility of development of secondary markets and recycling 
probability. My understanding is that the Department of Energy Office 
of FreedomCAR and Vehicle Technologies Energy Storage Program now 
requires assessment of recycling in each of its contracts supporting 
development of different battery chemistries and designs. Perhaps 
investigation of possible secondary markets should be included as well.
    My limited knowledge is that there is one secondary market for used 
vehicle batteries in less developed nations that do not have rural grid 
electricity. For these locations, use of batteries, charged at a not-
too distant small generating facility, provides television, radio and 
perhaps computer services. For such markets, the batteries have to be 
carried back and forth between the generator and the customer. Since 
li-ion has more kWh of energy storage per unit volume and per unit mass 
than lead acid batteries and nickel metal hydride batteries, it would 
have an advantage in this market. More kWh of battery capacity could be 
carried in existing transport equipment. Similarly, more kWh of 
capacity could theoretically be loaded onto a ship for transport from 
the U.S. to other nations.
    However, one of the issues to be resolved with li-ion is shelf life 
(years of life, regardless of rate of use), and another is the 
possibility of fire due to overheating and venting of flammable gases 
in the event of excessive overcharging. Both of these factors would 
work against li-ion relative to nickel metal hydride or lead acid.

Q4.  Should there be a more systematic role for the Federal Government 
in developing standards for the various elements of plug-in hybrid 
vehicles and its associated infrastructure or should these activities 
be left to the private sector?

A4. I have just submitted a draft paper to an academic journal which 
addresses the role of technical standards in the U.S. as a part of the 
process of causing a transition from one transportation technology to 
another. The argument of that paper is that technical standards, 
adopted or codified by government in response to pressure from industry 
and the public, have always played a critical role in such transitions. 
I studied transitions through the 1800s and 1900s. In view of the 
arguments of that paper, I would say that it would be without 
historical precedent for the U.S. to leave the introduction of the 
plug-in hybrid vehicle to the private sector. Even if it tried to do 
so, segments of industry would at some point lay one or more sets of 
technical standards on the table and ask government to make them 
official.
    Typically, the process of developing standards involves years of 
back and forth discussions between industry and government(s), with 
both groups responding to or trying to manipulate public opinion. It 
will be no different in this case. Testing and demonstration is a 
typical part of this process. Expect it to be necessary again. I do 
think that the process can be more systematic. My earlier argument for 
support of more thorough and realistic testing is intended to make the 
process work better and faster than it otherwise would, hopefully 
leading to earlier and more appropriate technical standards than would 
otherwise be the case.
    I would say that the process of developing and implementing 
technical standards is actually already very systematic and built into 
how the capitalist system works within the context of our government 
structure. The form of your question--how to make it ``more'' 
systematic--was apt.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The President has requested $12 million for R&D on plug-in 
hybrids, including an increase of $6 million for R&D to develop better 
car-batteries.

     Is this amount enough to provide sufficient momentum for 
development and application of these technologies? What amount do you 
feel is sufficient for such an initiative?

A1. The President in his budget submission must make judgment on many 
worthy programs. I am in no position to offer a better judgment given 
the myriad of programs. When it comes to specifying an amount that will 
provide a predictable outcome for advanced R&D to cause a technology to 
succeed, no one, even in the technical community, is able to provide a 
precise answer. But I believe it is safe to assume that if Congress and 
the President determine that greater financial resources are warranted, 
they would be effectively utilized and a greater chance of success is 
probable.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Section-by-Section Description of the Discussion Draft

Sec. 1. Short Title.

    The Plug-In Hybrid Electric Vehicle Act of 2006.

Sec. 2. Near-Term Vehicle Technology Program.

a. Definitions.

    Defines terms used in the text.

b. Program.

    Requires the Secretary of Energy to carry out a program of 
research, development, demonstration, and commercial application for 
plug-in hybrid electric vehicles and electric drive transportation 
technology.
    Requires the Secretary of Energy to ensure that the research 
program is designed to develop

        <bullet>  high capacity, high efficiency batteries with:

                  improved battery life, energy storage capacity, and 
                power discharge;

                  enhanced manufacturability; and

                  minimized of waste and hazardous material use 
                throughout the entire value chain, including after the 
                end of the useful life of the batteries.

        <bullet>  high efficiency on-board and off-board charging 
        components;

        <bullet>  high-power drive train systems for passenger and 
        commercial vehicles;

        <bullet>  on-board power control systems, power trains, and 
        system integration research for all types of hybrid electric 
        vehicles, including:

                  development of efficient cooling systems; and

                  research and development of on-board power control 
                systems that minimize the emissions profile of plug-in 
                hybrid drive systems.

        <bullet>  lightweight materials to:

                  reduce vehicle weight and increase fuel economy 
                while maintaining safety; and

                  reduce the cost and enhance the manufacturability of 
                lightweight materials used in making vehicles.

 c. Plug-in Hybrid Electric Vehicle Pilot Program.

        (1)  Requires the Secretary of Energy to establish a pilot 
        program for the demonstration and commercial application of 
        plug-in hybrid electric vehicles. The pilot program would 
        provide no more than 25 grants annually to State governments, 
        local governments, metropolitan transportation authorities, or 
        a combination of these entities.

        (2)  Grants will be used to acquire plug-in hybrid electric 
        vehicles, including passenger vehicles.

        (3)  Requires the Secretary to issue requirements to apply for 
        grants under the pilot program and sets minimum requirements 
        for applications, including cost estimates and a description of 
        how the project will continue after federal assistance ends.

        (4)  Requires the Secretary to consider the following criteria 
        in reviewing applications:

                <bullet>  prior experience involving plug-in hybrid 
                electric vehicles;

                <bullet>  project or projects that are most likely to 
                maximize protection of the environment; and

                <bullet>  project or projects that demonstrate the 
                greatest commitment on the part of the applicant to 
                ensure funding for the proposed project or projects and 
                the greatest likelihood that each project proposed in 
                the application will be maintained or expanded after 
                federal assistance under this program is completed.

        (5)  Requires the Secretary to provide no more than $20,000,000 
        in federal assistance under the pilot program to any single 
        applicant for the period encompassing fiscal years 2007 through 
        fiscal year 2016.

            Requires that grants awarded by the Secretary do not exceed 
        the annual maximum per-vehicle amounts as follows:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

            Requires the Secretary to establish mechanisms to ensure 
        that the information and knowledge gained by participants in 
        the pilot program are transferred among the pilot program 
        participants and to other interested parties, including other 
        applicants.

        (6)  Requires the Secretary to widely publish requests for 
        proposals related to this grant program and to begin awarding 
        grants no later than 180 days after the date by which 
        applications for grants are due. Requires the Secretary to 
        award grants through a competitive, peer reviewed process.

 d. Merit based federal investments.

    Requires the Department of Energy to ensure that the funding for 
the activities in this section are awarded consistent with the merit 
based guidelines for federal energy R&D investments established in the 
Energy Policy Act of 2005 (EPACT) (P.L. 109-58).

 e. Authorization of Appropriations.

    Authorizes appropriations to the Secretary of Energy of $250 
million for each of fiscal years 2007 through 2016 to carry out the 
program of research, development, demonstration, and commercial 
application for plug-in hybrid electric vehicles and electric drive 
transportation technology. Of the $250 million, $50 million may be used 
for lightweight materials research and development as described in 
subsection (b)(5).
    Authorizes appropriations to the Secretary of Energy of $50 million 
for each of fiscal years 2007 through 2016 to carry out the plug-in 
hybrid electric vehicle pilot program.

            DOE Workshop on Plug-In Hybrid Electric Vehicles

                    Discussion Issues and Questions

                       U.S. Department of Energy
                             May 4-5, 2006
                             Washington, DC
    Hybrid vehicles with the ability to operate in an electric-only 
mode and recharge from an electric outlet (referred to as ``plug-in 
hybrids'') have received a great deal of attention recently because of 
their energy supply flexibility, ability to reduce petroleum 
consumption and potential environmental benefits. Plug-in hybrids are 
described in the Advanced Energy Initiative, announced by President 
Bush in the State of the Union Address, as a way to increase fuel 
efficiency and utilize spare electric generating capacity at night as 
well as being ``a practical step toward hydrogen fuel-cell vehicles, 
which have some of the same electric-drive and power-management 
technologies.''
    The Department of Energy (DOE) conducts research and development on 
a variety of complementary (and competing) technologies to meet its 
energy efficiency and renewable energy objectives, including hybrid 
propulsion systems. As a precursor to supporting plug-in hybrid 
technology research, DOE must consider:

        <bullet>  What are the technical and economic merits of plug-in 
        hybrids within the candidate set of fuels and powertrains of 
        the future?

        <bullet>  What should be the basis for comparison to other 
        fuel/powertrain combinations? (e.g., oil use, greenhouse gas 
        emissions, criteria pollutants, flexibility of fueling and 
        energy sources, utilization of electricity to enhance 
        efficiency, cost)

    Answers to these questions are complex due to the potential 
interdependencies among the elements of the system--including the 
vehicle, the recharging infrastructure and the electric utility power 
plant. This paper sets the stage for discussion among DOE, industry and 
academia by beginning to identify opportunities and impediments, 
summarizing the status and applicability of critical technologies and 
posing key questions about system elements and their interactions.

Workshop Objectives

    The following workshop objectives are expected to lead to 
suggestions for R&D and to establish a framework for continuing 
dialogue:

        1.  Identify the state-of-the-art of current technologies that 
        may have direct application to plug-in hybrids and related 
        energy technologies.

        2.  Identify research gaps and their relative importance.

        3.  Identify possible research roles of the Federal Government, 
        industry and academia.

        4.  Establish a technology baseline and develop sets of plug-in 
        hybrid vehicle architectures to be evaluated.

        5.  Begin a dialogue among hybrid vehicle designers/producers, 
        electric utilities and researchers for the purpose of 
        specifying mutually desirable plug-in hybrid and utility 
        attributes.

        6.  Identify the value proposition (for both the customer and 
        manufacturer) that would allow the widespread application and 
        adoption of plug-in technology.

Why Plug-in Hybrids?

    Advocates have offered the following reasons for government and 
industry to support the development and deployment of plug-in hybrids:

Oil savings. Since very little oil is used in the production of 
electric power, switching to electric drive using energy from the grid 
can result in significant reductions of oil use.

Greenhouse gas reductions. With the use of carbon sequestration for 
electricity from coal, nearly all methods of generating electricity 
should result in reduced greenhouse gases via use of grid electric 
power. The reductions would be dramatic for electricity generated from 
nuclear, hydro and renewable sources.

Zero (tailpipe) emissions. Electric drive via plug-in hybrids charged 
overnight displaces emissions in time and space. Displacement of 
daytime emissions to nighttime should reduce ozone, since sun and 
precursor pollutants are necessary to cause this air pollutant. 
Displacement of emissions from urban to rural areas could reduce net 
population exposure, even if total emissions do not drop. Although 
total emissions from coal-fired power plants for some pollutants could 
increase, use of electricity in most cases could reduce total 
emissions, in addition to reducing urban emissions. And finally, 
emissions produced by vehicles prior to warm-up could be greatly 
reduced with electric operation.

Energy savings. Plug-in hybrid advocates have noted that grid-sourced 
electric vehicle operation may provide the lowest full-fuel-cycle 
energy use when compared to other transportation technologies. This 
could enhance the long-term energy supply.

Electric utility efficiency. ``Load leveling,'' the concept of filling 
the nighttime trough in electric demand by shifting electricity use to 
this period, can enhance both economic and thermal efficiency of 
electric utilities. Economic efficiency in the short run is enhanced 
because capital (power plants and the grid) is more efficiently used 
and generating efficiency is improved by operating plants at steady, 
near optimum conditions instead of cyclic operation to match varying 
demand. In the long-term as more generating capacity is needed, nuclear 
and efficient fossil fueled combined cycle power plants could be added. 
From another perspective, relatively low cost, clean wind power and 
overnight charging match each other in time reasonably well. In the 
long run some see a bi-directional flow of power between plug-in 
hybrids and the grid, with the batteries used for further load leveling 
and to improve the viability of intermittent wind.

Emergency services. Some see the plug-in hybrid as a potential clean, 
quiet backup electric generator for the home in the event of power 
outages. A more expansive view is that plug-in hybrids could be 
connected to a grid that could carry power of many vehicles as a 
utility's back-up for power plant outages. Plug-in hybrids could also 
provide reserve assurance that, in the event of a long-term shortage of 
oil, the most valuable transportation services could be maintained by 
domestic fuel supplies powering the grid.

Challenges

    Despite the numerous anticipated benefits of plug-in hybrids, 
implementation of any complex transportation technology is difficult, 
time consuming and costly. Details matter. If the cost is too high, the 
anticipated benefits may not be realizable.

Battery technology. Perhaps the most important `detail' is the battery, 
as recognized in the State of the Union Address, with notable technical 
barriers to achieving the energy capacity for a reasonable electric 
range, the power needed for acceptable performance in all operating 
modes and life comparable to that of the vehicle--all at a reasonable 
cost. Consumers are aware of the benefits of conventional hybrid 
vehicles and plug-in hybrids sound even more attractive due to the 
higher fuel economy potential. But today's batteries are capable of 
only one to two miles electric range, as stated in the Advanced Energy 
Initiative, not enough to realize meaningful fuel economy improvements. 
And, when subjected to the deep discharges required for long electric 
range in a plug-in hybrid, batteries will probably not last as long as 
in a conventional hybrid (e.g., typical eight-year/80,000 mile 
warranty). Current battery technology could be a show-stopper for plug-
in hybrids.

Electric drives. Another technical detail worth noting is that current 
production hybrid vehicles cannot be used as plug-in hybrids without 
reduced performance in their all-electric mode. Electric drives in 
production hybrids have been optimized for intermittent use--to assist 
the engine during peak demands. They are not powerful enough to provide 
the same acceleration or top speed without the engine and are not 
designed to handle the temperature rise caused by continuous operation. 
Production hybrids cannot be easily adapted to remove this limitation 
because the motors/generators are highly integrated. The power of both 
the electric motor and power electronics must be increased 
substantially (up to 100 percent) to provide comparable performance. 
This is not a show-stopper for a new vehicle design, but it will add 
cost and exacerbate packaging issues.

Interdependencies with utilities. The most obvious interdependency is 
the need for plug-in hybrid vehicles to communicate with and (perhaps) 
be controlled by the utility during charging for the most effective 
electric energy utilization. Beyond that, the requirements and benefits 
of the relationship are not as clear. For example, the choice of 
powertrain technology could have a regional dependency--a vehicle for 
urban areas with air quality problems might not be the best choice for 
the Nation as a whole, where priorities other than air quality would 
dominate. There are many possible alternative powertrain configurations 
and priorities (on both the supply and demand sides) that could alter 
design choices. In addition, the optimum mid- and long-term sources of 
energy are not obvious. Wind and nuclear power might compete to be the 
option that fills a nighttime trough in demand to meet charging needs--
though neither may be the best choice at this time.
    A solid R&D roadmap needs to be developed if success is to be 
achieved. The following discussions illustrate the numerous challenges 
that exist. Using these discussions as a starting point, it is expected 
that the attending experts will help determine research gaps, identify 
omissions, and provide recommendations on answering the important 
questions.

Hybrid Vehicle Systems

Current Status

        <bullet>  Current hybrid vehicles are designed to rely heavily 
        on the engine with intermittent use of the electric propulsion 
        system--to assist the engine during peak power demands, capture 
        regenerative braking energy and, in some cases, provide low-
        speed electric driving.

        <bullet>  Battery, motor and power electronics are sized to 
        provide part of the propulsion power on an intermittent basis.

        <bullet>  Cost in comparison to conventional vehicles appears 
        to be an important impediment to large scale production and 
        sales.

        <bullet>  The propulsion system control strategy is focused on 
        fuel economy, emissions reduction and protection of the battery 
        (i.e., limited to shallow discharge-charge cycles to maximize 
        life).

        <bullet>  Tools and procedures for analysis (i.e. modeling and 
        simulation) and testing (laboratory and field) for technology 
        development and validation are in place. Regulatory test 
        procedures are defined based on standard driving cycles.

Applicability to Plug-in Hybrids

        <bullet>  Plug-in hybrids have been proposed with a variety of 
        vehicle architectures, ranging from the present power sharing 
        configurations (with the addition of external charging 
        capability) to vehicles with substantial electric-only range 
        and intermittent use of the engine.

        <bullet>  The battery must be sized (higher energy) for the 
        desired electric range.

        <bullet>  The electric motor and power electronics must be 
        sized (higher power) for desired performance in the electric-
        only mode.

        <bullet>  Cost must be competitive; a higher power and energy 
        electric propulsion system will exacerbate the production cost 
        differential relative to conventional vehicles.

        <bullet>  Present control strategies are not applicable--
        revision is needed to focus on electric range and a daily use 
        pattern that includes external charging.

        <bullet>  Analytical tools require revision to account for 
        mutually exclusive or power sharing operating modes and daily 
        use patterns. Existing HEV test procedures to measure and 
        report fuel economy are not applicable to a vehicle with 
        substantial electric range and a daily use pattern that 
        includes overnight and/or opportunity charging.

Technical Gaps

        <bullet>  Vehicle analysis--Duty cycles (consistent with 
        consumer use patterns and proposed test procedures) and 
        projected component characteristics are needed to design 
        vehicles, specify components and evaluate options.

        <bullet>  Control strategy--Algorithms need to be refocused to 
        maximize petroleum displacement as a function of the vehicle 
        configuration, on-board energy storage and interaction with the 
        electric utilities.

        <bullet>  Testing--Test procedures that reflect daily driving 
        and charging patterns are needed to support benchmark testing 
        (to identify key performance requirements for component 
        development) and technology validation.

Key Questions

        1.  What is the definition of `electric range' for a plug-in 
        hybrid?

            Continuous or cumulative electric-mode operation (e.g., 
        will intermittent engine operation be allowed in the 
        determination of range)?

        2.  What are the design trade-offs among cost, configuration, 
        control strategy, battery power and energy requirements?

            Is the same vehicle performance necessary in hybrid and 
        electric modes?

            What electric range provides the best cost-benefit ratio at 
        the vehicle level?

            Can available battery technology meet the needs of a plug-
        in hybrid?

            Can ultra-capacitors be used for additional power?

            Can control strategy compensate for near-term energy/power 
        limitations of the electric propulsion system?

        3.  How will consumers utilize the electric range (i.e., 
        battery energy) and recharge the battery on a daily basis?

            From a customer perspective, is opportunity charging a 
        realistic alternative to longer electric range (i.e., a larger 
        battery)?

            How does use pattern and control strategy impact battery 
        life and life cycle cost?

            What duty cycles/daily patterns are appropriate for 
        analysis (i.e., modeling and simulation of vehicle/propulsion 
        system alternatives)?

        4.  Is plug-in technology applicable to and beneficial for 
        varying vehicle types?

            Will plug-ins be beneficial in all regions of the country?

            Will plug-in powertrains be viable for a range of platforms 
        (S, M, L, and XL) and appeal to a range of customers 
        (performance and/or economy)?

        5.  How will plug-in hybrids be tested?

            Since plug-ins will use both liquid fuel and electric 
        energy (perhaps with limited use of the engine), how should 
        fuel economy be measured and reported?

            What test cycles and procedures should be used?

            Since plug-in hybrids could use both overnight and 
        opportunity charging, should a daily driving cycle be 
        considered?

        6.  What is the value proposition for the customer and 
        manufacturer?

            Why would a customer buy a plug-in hybrid?

            Why would the manufacturer invest to develop and produce 
        plug-in hybrids?

            Some believe that a $1300 cost differential or a three-year 
        payback is necessary for hybrids to have mass market appeal--
        will this be different for plug-in hybrids?

        7.  Will the requirement to plug in and/or the plug-in 
        limitations (e.g., availability of 220V outlet, charge rates/
        times) limit the market?

Energy Storage Technology

Current Status

        <bullet>  The typical battery in a production hybrid vehicle is 
        a nickel-metal hydride (NiMH) sized for power demands, i.e., 
        start/stop functionality, power assist during acceleration, 
        recovering regenerative braking energy and supporting some low-
        speed driving.

                  Energy capacity provides only a few miles all-
                electric range (at reduced performance).

                  Service life appears to fall short of vehicle life, 
                even if the state-of-charge is maintained within a 
                relatively narrow range (i.e., not discharged deeply). 
                Manufacturers employ a control strategy to ensure this 
                type of operation and provide warrantees accordingly 
                (e.g., eight years/80,000 miles).

                  DOE has performed limited testing with NiMH in a 
                production hybrid with a plug-in duty cycle and the 
                results have been extrapolated to estimate battery 
                requirements for various electric ranges. In addition, 
                NNE batteries have been used in an after-market 
                modification of a production hybrid to demonstrate the 
                impact of the plug-in concept on fuel economy.

        <bullet>  Lithium-ion (Li-ion) batteries, being developed by 
        DOE and considered by some manufacturers for conventional 
        hybrid vehicle applications, are currently used in consumer 
        electronics exclusively.

                  Life tests have successfully demonstrated 300,000 
                shallow charge-discharge cycles, likely adequate for 
                conventional power-assist hybrids.

                  Currently they are considered two to four times too 
                expensive for vehicles.

                  Li-ion batteries have been incorporated in a plug-in 
                hybrid concept vehicle by a major manufacturer and 
                analyzed by DOE for use plug-in hybrids; the higher 
                specific energy and power illustrated potential 
                advantages relative to NiMH.

        <bullet>  Other technologies, such as ultra-capacitors (low 
        energy/high power density) and Li-metal batteries (high energy, 
        but short life) are being investigated by DOE.

Applicability to Plug-in Hybrids

        <bullet>  Analysis and testing with NiMH batteries in current 
        production hybrid vehicle configurations indicates the 
        potential for high fuel economy, but their service life with a 
        plug-in vehicle duty cycle (including deep discharge cycles) is 
        unknown.

        <bullet>  Li-ion batteries could perform better than NiMH in 
        plug-ins due to their higher specific energy and power. In 
        addition, they are potentially less expensive and could last 
        longer, but similar to NiMH, their service life with deep 
        discharge cycles has not been demonstrated.

Technical Gaps

        <bullet>  Cost of Li-ion batteries must be reduced by 50-75 
        percent; cost drivers (raw materials and processing, cell and 
        module packaging) are being addressed.

        <bullet>  Life with combined deep/shallow cycling as in plug-in 
        hybrid vehicle use needs to be determined for all batteries; 
        15-year calendar life target not demonstrated.

        <bullet>  Safety--Li-ion batteries are not intrinsically 
        tolerant of abusive conditions (short circuits, overcharge, 
        over-discharge, crush or exposure to fire) and currently 
        require mechanical and electronic devices for protection; 
        implications of plug-in recharging remain to be determined.

        <bullet>  Low-temperature operation of Li-ion batteries needs 
        to address poor discharge characteristics and failure modes 
        during charge.

Key Questions

        1.  What is required of the battery to support plug-in hybrids?

            What is the optimum power-energy ratio?

            What is the allowable weight and volume?

            What are the trade-offs among service life, deep and 
        shallow cycling?

            Can available batteries be utilized in near-term plug-in 
        hybrids?

            Is dual energy/power storage applicable (e.g., battery + 
        super capacitor)?

            Could plug-in batteries be modularized to provide broader 
        cost benefit to the consumer?

        2.  How should plug-in hybrid batteries be bench tested?

            What cycling profiles match potential vehicle 
        architectures?

            Will daily cycles (with overnight and/or opportunity 
        charging) be incorporated into the test regime?

            Is accurate determination of state-of-charge (SOC) 
        complicated by a plug-in hybrid duty cycle?

Electric Motors and Power Electronics

Current Status

        <bullet>  Electric drive motors and power electronics currently 
        in production hybrid vehicles are designed for intermittent 
        operation, i.e., sized for the power requirements, duty cycle 
        and thermal loads to assist the engine during peak demands, 
        convert braking energy, charge the battery and, in some cases, 
        provide low speed driving.

        <bullet>  Drive motors/generators are typically optimized for 
        and integrated within the drivetrain. Typical drive motors in 
        production hybrids are rated at about 50 kW (1500 rpm) and the 
        latest introductions are up to 100 kW (4500 rpm)--both about 
        half the maximum power of their respective propulsion systems. 
        ``Upgrading'' these systems for electric-only operation, i.e., 
        increasing the peak and average power and thermal loads, is not 
        likely due to the packaging and thermal limitations.

        <bullet>  Power electronics are designed to match the 
        characteristics of the energy storage subsystem and the drive 
        motor. Batteries are nominally 200-250V, with power electronics 
        operating at 500-600V max (using a boost converter) to decrease 
        the current and associated losses. Consequently, the power 
        semi-conductors are rated at about twice that voltage.

Applicability to Plug-in Hybrids

        <bullet>  Several powertrain architectures are being considered 
        for plug-in hybrids. The power-assist configuration with a 
        modified control strategy to allow battery depletion would have 
        the least impact on the motor and power electronics. The 
        architecture presenting the greatest challenges is the dual-
        mode with equal performance in both modes. Current production 
        hybrid motors and power electronics--optimized for intermittent 
        use and supplying about half the max power--cannot operate in a 
        continuous electric-only mode with full performance due to the 
        inherent power and thermal limitations.

Technical Gaps

        <bullet>  Motor power must be increased (perhaps doubled) for 
        continuous operation in full-performance dual-mode vehicles, 
        which could require further increases in maximum motor speed 
        and constant power speed range.

        <bullet>  Power electronics must be resized (or redesigned) to 
        allow higher continuous ratings, putting pressure on packaging 
        and efficiency. Voltage may have to increase to 800V or more 
        and the associated silicon devices may need to be rated at 
        1440V to 1700V.

        <bullet>  Thermal management issues are exacerbated because the 
        electric drive duty cycle is a larger fraction of vehicle 
        propulsion. Electrolytic capacitors may have to be replaced 
        with film capacitors--more expensive, but more tolerant of 
        higher temperatures. Liquid cooling may be required.

Key Questions

        1.  Are motor and/or power electronics issues unique to plug-
        ins?

            What types of motors are best suited to various plug-in 
        hybrid configurations, and how do they differ from conventional 
        HEVs and fuel cell vehicles?

            What motor R&D is most needed to realize commercially 
        viable plug-in hybrid systems?

        2.  What are the thermal system requirements (heat rejection, 
        component and subsystem sizing, coolant temperatures, etc.) for 
        motor and power electronics in plug-in hybrids?

        3.  What are the implications of dual energy storage (e.g., 
        battery + super capacitor), including the performance 
        degradation of each at low ambient temperatures?

Recharging Infrastructure

Current Status

        <bullet>  Nearly all houses are equipped with 110VAC/15A 
        circuits throughout, capable of supplying up to 10 kWh in a 
        six-hour period.

        <bullet>  Modern houses have 220VAC/20A circuits (capable of 
        supplying up to 26 kWh in six hours) for hard-wired appliances 
        such as the range or water heater.

        <bullet>  Not all residences are single family homes with a 
        garage or carport.

Applicability to Plug-in Hybrids

        <bullet>  Examples: A 110VAC outlet could recharge a vehicle 
        with a 15-20 mile range and a 220VAC outlet could support a 
        vehicle with a 40-50 mile range (assuming energy consumption of 
        500Wh/mi and an 85 percent efficient six-hour charge for both).

Technical Gaps

        <bullet>  The most efficient nighttime charging (from the 
        utility perspective) will require a communication link with the 
        vehicle to control the charge time and the power available, in 
        addition to metering (if preferential pricing for vehicles is 
        offered).

        <bullet>  Appropriate circuits in convenient vehicle charging 
        locations (e.g., garages, parking lots and structures)--220VAC 
        for longer electric ranges.

Key Questions

        1.  What changes to customers' electrical systems are required 
        to recharge?

            What is a reasonable amount of time to charge?

            Should there be a standard interface (for power, 
        communication and control)?

            What is the impact of more than one vehicle per customer/
        residence?

            How many customers can take advantage of a plug-in hybrid 
        (due to parking location)?

            What is the impact on local substations as well as the 
        utility in general?

        2.  How would plug-in hybrids impact/benefit the utility?

            How many plug-in hybrids can a utility support?

            How difficult is communication with and controlled charging 
        of plug-in hybrids?

            What benefits can be realized from plug-ins returning 
        energy to the grid?

            How many vehicles are necessary and/or desirable for the 
        utility to implement distribution system modifications?

            Would plug-in hybrids affect grid quality? If so, how 
        important is this and how costly might a fix be?

Electric Power Plant

Current Status
    Present power plants are fueled by a variety of fuels across the 
country:

        <bullet>  Natural gas--clean and efficient, but no longer 
        thought to be abundant in the United States.

        <bullet>  Coal--Abundant, but present technology (with the 
        exception of integrated gasification combined cycle (IGCC) ) is 
        not considered the clean alternative; DOE is undertaking 
        CO<INF>2</INF> sequestration R&D in the FutureGen Initiative.

        <bullet>  Nuclear--Present capacity operating at very high load 
        factors.

        <bullet>  Wind--Turbines produce more power at night when 
        vehicle battery charging needed most; regionally variable and 
        limited supply but relatively cheap to install.

        <bullet>  Solar--Photovoltaic arrays not competitive except in 
        areas not served by the grid.

Applicability to Plug-in Hybrids

        <bullet>  Nuclear--Unlikely spare capacity would be used in the 
        near-term due to high load factor, load leveling with plug-ins 
        might enhance economic viability in the future.

        <bullet>  Wind--Should benefit from plug-ins, which can match 
        supply and demand, minimizing the initial impact on existing 
        utilities.

        <bullet>  Solar--Mismatch with overnight charging, but perhaps 
        long-term source (i.e., central or distributed arrays at 
        business locations) for opportunity charging.

Key Questions

        1.  What are the regional impacts and benefits of plug-in 
        hybrids?

            Where is the extra capacity to charge plug-in hybrids, when 
        is it available and is there fuel to support it?

            Does this change in the long-term?

            Could additional demand for plug-in hybrids be met with 
        additional capacity planned for normal demand growth?

            What is the impact of variation in electricity cost and 
        price?

            How would local and total emissions/air quality be affected 
        by plug-in hybrids?

        2.  Can renewable sources play a significant role?

            Is there an adequate match of producers (e.g., wind farms) 
        and vehicles in a region to make this a viable entry strategy 
        or a long-term option?

        3.  How important are the `emergency provisions' of a plug-in 
        hybrid to the value proposition (considering the customer and 
        utility)?

            What is the value of the grid connection in an oil 
        shortage?

            What is the value of the auxiliary power capability in a 
        power outage?

            How would use in an emergency situation affect grid 
        operations or power quality?

            To what extent would fixing power quality issues raise 
        technology cost?

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

</pre></body></html>
